Audit Report




OIG-08-026
Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2007 and 2006 Financial Statements


January 9, 2008




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               January 9, 2008


            MEMORANDUM FOR JOHN C. DUGAN
                           COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2007 and 2006 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2007 and 2006. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OCC as of September 30, 2007 and 2006 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations

            In its audit, GKA found that the financial statements were fairly presented, in all
            material respects, in conformity with accounting principles generally accepted in
            the United States of America. However, GKA’s Report on Internal Control over
            Financial Reporting contained one significant deficiency related to information
            technology general controls over OCC’s financial systems, which was not
            considered a material weakness.

            Further, GKA found no instances of reportable noncompliance with laws and
            regulations, exclusive of the Federal Financial Management Improvement Act of
            1996 (FFMIA), tested. However, GKA’s tests of FFMIA Section 803(a)
            requirements disclosed one instance in which OCC’s financial management systems
            did not substantially comply with federal financial management system
            requirements, which is related to the significant deficiency noted above.
GKA also issued a management letter dated October 31, 2007, discussing a certain
matter involving internal control over financial reporting and its operation that was
identified during the audit but was not required to be included in the auditor’s
reports. This letter will be transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. GKA is responsible for the
attached auditors’ reports dated October 31, 2007 and the conclusions expressed
in the reports. However, our review disclosed no instances where GKA did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
Contents


I.	     Comptroller’s Viewpoint ................................................................................................. 1


II.	    The Comptroller and the Executive Committee ........................................... 5


III.	   History of the Office of the Comptroller of the Currency ..................... 7


IV.	    Profile............................................................................................................................................ 9

        The National Banking System........................................................................................................... 9

        The Office of the Comptroller of the Currency ................................................................................. 9


V.	     National: Ensuring the Safety and 

        Soundness of the National Banking System................................................. 11

        Fostering Better Management of Credit Risk.................................................................................. 11

            Reaffirming Credit Quality....................................................................................................... 11

            Surveys of Credit Risk ............................................................................................................. 12

        Helping To Stabilize Mortgage Markets.......................................................................................... 14

        Addressing Concentrations in Commercial Real Estate Lending ................................................... 14

        Updating the Allowance for Loan and Lease Losses ...................................................................... 15

        Promoting Better Risk Management of Innovative Markets and Products..................................... 15

            Doing Business with Hedge Funds .......................................................................................... 15

            Complex Financial Products .................................................................................................... 16

            Dealing in Derivatives.............................................................................................................. 16

        Sidebar: Dugan Sees Growing Role for President’s Working Group on Financial Markets........... 17

        Finalizing New Capital Rules.......................................................................................................... 18

        Providing Regulatory Relief to National Banks.............................................................................. 18

        Helping in the Fight against Terrorism and Money Laundering ..................................................... 19

        Protecting National Banks against Mismanagement....................................................................... 20

            Enforcement Actions against Bank Insiders and Third Parties ................................................ 20

        Strengthening the Legal and Regulatory Framework...................................................................... 21

            Litigation .................................................................................................................................. 21

        Sidebar: The Watters Decision Clears the Air ................................................................................. 22

            Legal Opinions ......................................................................................................................... 22

            Licensing Decisions ................................................................................................................. 23

        Sidebar: Working To Address the Needs of Minority Banks........................................................... 25

        Events .............................................................................................................................................. 26


VI.	    International: National Banks and 

        OCC Supervision in a Global Economy.............................................................. 29

        National Banks’ International Exposures ........................................................................................ 29

        OCC’s International Focus .............................................................................................................. 30

        Supporting International Risk Supervision ..................................................................................... 31

            International Analysis............................................................................................................... 31

            International Policy Development............................................................................................ 31

            External Supervisory Relations ................................................................................................ 32

            Foreign Technical Assistance ................................................................................................... 33

        Sidebar: China–U.S. Bank Supervisory Relationship Nurtured by Dugan Visit............................. 34

        Events .............................................................................................................................................. 35





FISCAL YEAR 2007                                                                                                                                                    i
     VII.	        Communities: The Bedrock of a Strong National Economy.............. 37

                  Community Banks and Examinations: Setting Standards for Safety .............................................. 37

                  OCC Measures Effectiveness of Supervisory Process .................................................................... 38

                  OCC Outreach and Education: Creating a New Bank Director Workshop ..................................... 38

                  Banks Help Meet Community Needs .............................................................................................. 38

                  Sidebar: Comptroller Dugan and Chief of Staff Walsh Participate in a Community 

                  Bank Examination ........................................................................................................................... 39

                  Comptroller Brings Supervisory Message to Communities............................................................ 40

                  Sidebar: OCC Facilitates Solutions to a Branch Closing Dilemma ................................................ 41

                  Sidebar: OCC Staff Join the Comptroller in Improving D.C. Affordable Housing Complex......... 42

                  Community Banks and the Global Economy .................................................................................. 43

                  Events .............................................................................................................................................. 44


     VIII.	 Consumers: Promoting Fairness and Transparency.............................. 47

            Consumer Protection through Bank Supervision ............................................................................ 47

                Nontraditional and Subprime Mortgage Guidance .................................................................. 47

                Mitigating the Impact of Mortgage-Market Turmoil ............................................................... 48

            Sidebar: Dugan Receives “Making-the-Difference” Award from Credit 

            Counseling Foundation.................................................................................................................... 49

                Protecting Consumer Privacy................................................................................................... 50

                Fair Lending ............................................................................................................................. 50

            Consumer Protection through Public Information .......................................................................... 50

                OCC Initiatives To Improve Bank Disclosures ........................................................................ 51

                OCC Public Information Initiatives ......................................................................................... 52

            Sidebar: OCC Acts To Root Out Mortgage Fraud........................................................................... 52

            Sidebar: Consumers Help Themselves with a Click ....................................................................... 54

            Consumer Protection through Complaint Resolution...................................................................... 55

            Sidebar: Comptroller Showcases OCC Consumer Complaint Process........................................... 55

                Complaint Sharing.................................................................................................................... 56

            Events .............................................................................................................................................. 57


     IX.	         On Making the OCC a Great Workplace........................................................... 59

                  In Pursuit of Excellence................................................................................................................... 59

                  Recruitment and Retention .............................................................................................................. 59

                  Developing a Highly Skilled Workforce ......................................................................................... 60

                  Equal Opportunity and Workplace Fairness .................................................................................... 61

                  Technology ...................................................................................................................................... 61

                  Information Technology Security and Emergency Preparedness.................................................... 61

                  Process Improvement ...................................................................................................................... 62

                  Improving Enterprise-Wide Governance......................................................................................... 62


     X.           Financial Management Discussion and Analysis....................................... 65

                  Letter from the Chief Financial Officer........................................................................................... 65

                  Historical Perspective...................................................................................................................... 67

                  Strategic Focus ................................................................................................................................ 67

                  Strategic Goals................................................................................................................................. 67

                  FM Operating Strategy .................................................................................................................... 67

                       The FM Balanced Scorecard .................................................................................................... 68





ii                                                                                                                                OCC ANNUAL REPORT
             Looking Forward ............................................................................................................................. 68

             Financial Highlights ........................................................................................................................ 68

                 Overview .................................................................................................................................. 68

                 Assets ....................................................................................................................................... 68

                 Liabilities.................................................................................................................................. 69

                 Net Position .............................................................................................................................. 69

                 Reserves.................................................................................................................................... 70

                 Revenues and Costs.................................................................................................................. 70

                 Budgetary Resources................................................................................................................ 71


XI.          Financial Statements and Notes ............................................................................ 73

             Financial Statements........................................................................................................................ 73

                 Balance Sheets.......................................................................................................................... 73

                 Statements of Net Cost ............................................................................................................. 74

                 Statements of Changes in Net Position .................................................................................... 75

                 Statements of Budgetary Resources ......................................................................................... 76

             Notes to the Financial Statements ................................................................................................... 77

                 Note 1—Significant Accounting Policies................................................................................. 77

                 Note 2—Investments and Related Interest............................................................................... 81

                 Note 3—Property and Equipment, net ..................................................................................... 82

                 Note 4—Leases ........................................................................................................................ 83

                 Note 5—Other Actuarial Liabilities ......................................................................................... 83

                 Note 6—Net Position ............................................................................................................... 84

                 Note 7—Total Program Costs .................................................................................................. 84

                 Note 8—Imputed Costs and Financing Sources....................................................................... 85

                 Note 9—Reconciliation of Net Cost of Operations to Budget................................................. 85


XII.	        Independent Auditor’s Reports............................................................................... 87

             Independent Auditor’s Report on Financial Statements .................................................................. 88

             Independent Auditor’s Report on Internal Control over Financial Reporting................................. 90

                 Exhibit 1: Significant Deficiency—Improvements Needed in 

                 Information Technology General Controls over OCC’s Financial Systems. ........................... 92

             Independent Auditor’s Report on Compliance with Laws and Regulations ................................... 94


XIII.	 Other Accompanying Information ......................................................................... 97

       Performance Measures and Results................................................................................................. 97

       Improper Payments Information Act ............................................................................................... 98

       Audits .............................................................................................................................................. 99

       Assurance Statement ..................................................................................................................... 100


XIV.	 Index.......................................................................................................................................... 101





FISCAL YEAR 2007                                                                                                                                                      iii
                  R OF THE
                LE         C
            L




                           UR
C O MP T R O




                               RENCY

                   186 3
I.

Comptroller’s Viewpoint
This year’s Annual Report reflects the                                 The OCC took a number of steps in
reach – and the strength – of the na                                   response. We joined the other federal
tional banking system and the Office                                   banking agencies in urging lenders to
of the Comptroller of the Currency. I                                  work with troubled borrowers to mod-
am pleased to report that the system re                                ify troubled loans where appropriate,
mains safe and sound, and fully able to                                rather than resorting to foreclosure.
support the needs of its consumer and                                  We also bolstered underwriting and
business customers.                                                    consumer disclosure standards for
                                                                       nontraditional and subprime mort-
FY 2007 was a year of challenge and                                    gage products; monitored compliance
accomplishment. Typically, late in an                                  with regulatory guidance; and sup
economic cycle, credit problems begin                    ported efforts to obtain flexibility under account
to appear as lenders compete for a smaller base of       ing standards for lenders to restructure mortgages
creditworthy borrowers, and loans made earlier in        sold to third-party investors. I was especially con
the cycle begin to show signs of wear. With the          cerned that we address the widespread acceptance
United States now in the sixth year of an economic       of unverified income in providing subprime credit.
expansion, it is not surprising that such trends be      So-called “stated-income loans” have allowed too
came increasingly apparent in 2007.                      many subprime borrowers to assume more debt
                                                         than they could afford, and in a market with ris
One of the most significant supervisory issues this
                                                         ing rates and falling home prices, many are now
year was the continued decline in underwriting
                                                         facing foreclosure. I am very pleased that the final
standards. Weakened underwriting is often a lead
                                                         subprime guidance we issued provides that stated
ing indicator of credit problems, and we are moni
                                                         income should be the exception, not the rule, in un
toring banks closely for any evidence that relaxed
                                                         derwriting subprime loans.
standards are translating into an undue growth in
problem loans.                                           Commercial real estate concentrations continued to
                                                         receive our attention. Along with the other agen
Problem loans did increase in national banks in
                                                         cies, we issued guidance that called on our banks
FY 2007, but they remained very low by histori
                                                         to adopt appropriate risk management policies.
cal standards, and supervisory performance ratings
                                                         The guidance did not set limits on commercial real
remained strong. That’s no small achievement,
                                                         estate lending, but it did reemphasize that banks
considering the number and severity of economic
                                                         with higher CRE concentrations have higher lev
troubles that emerged during the year. The mort
                                                         els of risk, and that they need to have risk man
gage market experienced significant difficulties, es
                                                         agement practices and capital commensurate with
pecially in the subprime area, resulting in increased
                                                         this increased level of risk. Despite industry ap
delinquencies and foreclosures. While the national
                                                         prehension, our implementation of this guidance
bank share of problem subprime loans was propor
                                                         went smoothly, despite the fact that we began to
tionally smaller than at other lenders, it was signifi
                                                         observe increased CRE losses in the residential sec-
cant nevertheless.


FISCAL YEAR 2007                                                                                                1
    tor by the end of the year. This trend in the credit           OCC developed a Money Laundering Risk (MLR)
    cycle will likely continue in the next year, and com-          analysis system that provides more than 1,650 com
    mercial real estate lending will very much remain              munity banks with a concrete tool to help measure
    a supervisory focus for the                                                          anti-money laundering risk.
    agency.                                                                              One of our goals is to use the
                                                                                         results of the MLR analysis
    While commercial real es-                                                            to help focus our BSA com
    tate lending concentration                                                           pliance resources on the rela
    was primarily an issue for                                                           tively small number of banks
    smaller banks, our larger                                                            where risk is higher, with less
    institutions were challenged                                                         intrusive examinations for
    by leveraged lending. Banks                                                          the vast majority of institu
    active in this market experi                                                         tions where risk is low.
    enced market liquidity prob      Testifying before Congress.
    lems in the second half of                                                        New capital requirements re-
    the year. Skeptical of under-                                                     sulting from the Basel II ac
    writing standards that had relaxed significantly, in-      cord will, with respect to the very largest national
    vestors shrank from purchasing leveraged loans in          banks, significantly improve both the alignment of
    the quantities they had previously. This unexpect-         capital with risk and risk management practices. I
    edly forced banks to hold on their balance sheets          was very pleased that we were able to issue a fi
    large volumes of such loans or loan commitments.           nal interagency rule, implementing these so-called
    It also forced them to mark down the values of the         “advanced approaches” of Basel II, just after the
    loans to reflect the declines in price caused by the       end of the fiscal year. We also plan to issue, at the
    lack of market liquidity, resulting in substantial         beginning of 2008, a proposed risk-based capital
    charges to earnings.                                       rule to implement the so-called “standardized ap
                                                               proach” as an option for all but the very largest
    We also published guidance – and conducted train-          banks. This option is also intended to better align
    ing – to help banks understand the rules on the Al-        regulatory capital with risk, but in a less costly and
    lowance for Loan and Lease Losses (ALLL) – one             complex way than the advanced approaches, for
    of the most significant buffers against                                  smaller institutions that do not have
    credit risk. Some national banks have                                    the complex risk profile of our very
    experienced issues with their audi-        As the       supervisor
                                                                             largest banks.
    tors when they have tried to increase         of most of the
    reserves to prudent levels. We have          nation’s largest               Of course, risk-based capital is not
    not hesitated to intervene in such cases   banks — including
                                                                                the only issue at the OCC that has an
    where we believed the auditor was                                           international focus. Few industries
                                                 three that each
    substituting its judgment for the bank’s                                    have been more affected by globaliza
                                               hold over a trillion
    management in determining reserve                                           tion than banking. As the supervisor
    adequacy – and we will continue to do     dollars in assets —               of most of the nation’s largest banks –
    so where we believe that is appropri-     the OCC has been                  including three that each hold over a
    ate.                                       heavily involved in              trillion dollars in assets – the OCC has
                                                 international issues           been heavily involved in international
    The OCC continues to embrace the                                            issues for years and has developed a
                                                   for years and has
    concept of risk-based supervision. We                                       number of approaches to examining
    spend more time on areas of greater         developed a number
                                                                                banks’ international activities. For
    risk to a bank, and conversely, less           of approaches to
                                                                                example, our large bank exam teams
    time on lower risk activities. One             examining banks’             regularly evaluate international activ
    promising development has emerged                 international             ities and risk exposure, using special-
    in the area of money laundering and                 activities.             ists in such areas as capital markets,
    Bank Secrecy Act compliance that has                                        credit, and anti-money laundering
    been a great concern to all of us. The                                      compliance. Indeed, our London of-


2                                                                                            OCC ANNUAL REPORT
fice is fully staffed with such specialists, who are
dedicated to evaluating key risks in national banks’
European operations.

Reflecting our increased international focus, I
agreed in September to serve as chairman of the
Joint Forum, an organization that consists of bank
ing, securities, and insurance regulators from many
countries around the world. As the lines between
these industries have continued to blur, cross
cutting regulatory issues have emerged with more
frequency and salience. The Joint Forum provides
a unique opportunity to study and address these is
                                                       Examining a community bank.
sues with an exceptionally broad perspective. On
behalf of the OCC, I am honored to serve in this
new role.
                                                       consumer protection laws, promoting transparency
In other international developments, I welcomed the    and improved disclosure of customer information,
opportunity to visit China last March to strengthen    and helping to resolve consumer complaints.
the OCC’s longstanding relationship with China’s 

                                                                    One of our primary goals this year
banking supervisor, the China Bank
                                                                    was not only to expand the store of in
ing Regulatory Commission, as well
                                           One of our primary 
     formation available to the consumer,
as to meet with bankers from our two
                                             goals this year 
      but also to make it more accessible
countries. I observed first hand the
                                             was not only to 
      and user-friendly. To that end, we
remarkable progress that China has
                                                                    launched a Web site, called HelpWith-
made in creating a modern financial expand the store of 

                                                                    MyBank.gov, that provides a single
system, and I sought to provide use information available 

                                                                    reference point for the questions and
ful insight to our Chinese colleagues to the consumer, but 

                                                                    answers we hear most frequently
based on the OCC’s considerable ex
                                          also to make it more 
    from consumers about the issues that
perience in supervising both complex
                                             accessible and 
       concern them. It also provides a con
and smaller banks.
                                              user-friendly.
       tact point to file a formal complaint
While many large national banks have                                with the OCC’s Customer Assistance
increased their global operations,                                  Group.
community banking is still at the heart
                                                       Because of the jurisdictional complexities of the
of the OCC’s mission. This year we expanded our
                                                       U.S. banking system, consumers don’t always
outreach efforts to improve our communications
                                                       know which agency supervises their bank, and
with community bankers and directors, assess the
                                                       often complain or pose questions to the wrong su
effectiveness of our examination process, and iden
                                                       pervisor. This customer confusion has cropped up
tify areas where we can reduce regulatory burden.
                                                       frequently between the OCC and state banking su
Our goal is to help community banks devote more
                                                       pervisors, and as a result, during this past year the
of their time and resources to doing what they do
                                                       OCC and the Conference of State Bank Supervisors
best – serving their customers and their communi
                                                       jointly developed a mechanism for expediting the
ties.
                                                       exchange of consumer complaint information be
The increased retail orientation of national banks     tween our agency and state banking departments.
has created a significant shift in the nature of the   At the end of fiscal 2007, we had signed agreements
banking business – and in the OCC’s supervisory        with 28 states, which we think will significantly re
priorities. Consumer protection is a key element of    duce response times for consumers. I am pleased
our mission, and we devote considerable resources      with this progress, but I think we can do more along
to examining national banks for compliance with        these lines to make it easier for consumers to get



FISCAL YEAR 2007                                                                                               3
                                                                                    regulate a national bank’s interaction with consum
                                                                                    ers – a responsibility we take very seriously.

                                                                                    The OCC must be a strong organization if it is to
                                                                                    continue to safeguard the interests of a safe and
                                                                                    sound national banking system. We continue to
                                                                                    invest heavily in technology, training, and devel
                                                                                    opment of our people – the OCC’s most important
                                                                                    resource. But, like all agencies of the federal gov
                                                                                    ernment – and, indeed, like much of the private sec
                                                                                    tor – the OCC faces demographic challenges that
                                                                                    require us to look to the needs of the future. We are
                                                                                    continuing to attract large classes of talented col
                                                                                    lege graduates, as well as mid-career industry pro
                                                                                    fessionals with specific skills, and we took several
With the Tuskegee Airmen, Congressman Charles Rangel and OCC Ombudsman
                                                                                    important steps this year to improve recruitment,
Sam Golden.
                                                                                    retention, and leadership development. Prominent
                           answers from banking regulators. For that reason,        among them was LeaderTRACK, a management
                           the OCC has asked the Federal Financial Institu          succession development program for senior exam
                           tions Examination Council, consisting of all the         iners.
                           federal banking regulators and representative state
                           banking agencies, to consider additional proposals       Independent surveys continue to recognize the OCC
                           that would coordinate agency efforts for consumers       as an outstanding place to work. In fiscal 2006,
                           in other areas, for example, by using a single Web       BusinessWeek included the agency on its list of the
                           site or call center to route questions and complaints    50 best places in the private or public sector to start
                           to the appropriate agency.                               a career, and last year, the Partnership for Public
                                                                                                               Service ranked the OCC
                           Regarding the national                                                              4th out of 222 peer agen
                           bank charter, the Supreme                                                           cies in its rankings of best
                           Court issued a seminal de                                                           places to work in the fed
                           cision last year confirm                                                            eral government. None
                           ing that the banking activ                                                          of this surprises me. As a
                           ities of national banks and                                                         veteran of just two years
                           their operating subsidiar                                                           at the agency – really just
                           ies are subject to uniform                                                          a rookie by OCC stan
                           laws established by Con                                                             dards – I can firmly at
                           gress, not the states. In                                                           test to the exceptionally
                           Watters v. Wachovia, the Meeting with bankers.                                      strong sense of purpose,
                           court reaffirmed the sepa                                                           professionalism, and cul
                           rate roles of the states and                                                        ture that pervades this
                           the OCC in regulating the banks that each charters.      organization. What we do and how we do it is a
                           It also reaffirmed the principle, established earlier    source of great pride to the OCC employees I talk
                           by the court in its Barnett Bank decision, that states   to all around the nation – and it certainly is to me
                           may not significantly burden, curtail, or hinder a       as well. That bodes very well indeed for the future
                           national bank’s exercise of its powers under the         of our agency, and even more important, for the ef
                           National Bank Act. The Watters decision, which           fective regulation of national banks, the financial
                           ratified the OCC’s longstanding position that op         engines of our economy.
                           erating subsidiaries of national banks should not
                           be treated differently from the banks themselves,
                           helped clarify that it is the OCC’s responsibility to




4                                                                                                              OCC ANNUAL REPORT
II.

The Comptroller and
the Executive Committee
                          John C. Dugan
                          29th Comptroller of the Currency

                          Director of the Federal Deposit Insurance Corporation, Federal Financial Institutions
                          Examination Council, and Neighborhood Reinvestment Corporation. Chairman,
                          Joint Forum. Former Partner, Covington & Burling law firm. Former Assistant
                          Secretary for Domestic Finance, U.S. Department of the Treasury. Former Counsel
                          and Minority General Counsel, U.S. Senate Committee on Banking, Housing, and
                          Urban Affairs.



The Executive Committee




(Front row, left to right) Senior Deputy Comptroller Douglas W. Roeder, Large Bank Supervision; Chief of Staff and
Public Affairs John G. Walsh; Comptroller of the Currency John C. Dugan; Chief Information Officer Jackie Fletcher;
Senior Deputy Comptroller Timothy W. Long, Mid-size/Community Bank Supervision.

(Back row, left to right) Ombudsman Samuel P. Golden; Senior Deputy Comptroller Mark Levonian, International and
Economic Affairs; First Senior Deputy Comptroller and Chief Counsel Julie L. Williams; Senior Deputy Comptroller and
Chief Financial Officer Thomas R. Bloom, Office of Management; Senior Deputy Comptroller and Chief National Bank
Examiner Emory Wayne Rushton.



FISCAL YEAR 2007                                                                                                       5
6   OCC ANNUAL REPORT
III.

History of the Office of the
Comptroller of the Currency
In February 1863, President Lincoln signed the          The first Comptroller of the Currency was Hugh
National Currency Act into law, creating a national     McCulloch, a respected Indiana banker. McCulloch
banking system and “a separate bureau in the Trea-      staffed the office, developed policies and proce
sury Department,” headed by the Comptroller of          dures, promulgated standards of professional con-
the Currency, to administer it.                         duct for bankers and bank examiners, and worked
                                                                     to refine the legal framework under
The law was designed to address the                                  which national banks still operate
country’s longstanding need for a uni-        In February 1863,
                                                                     today.
form national currency and a nation-          President Lincoln
wide system of banks operating under        signed the National        Charter number one was issued to the
uniform rules, uniform supervision            Currency Act into
                                                                       First National Bank of Philadelphia.
and regulation, and uniformly high                                     The First National Bank of Daven
                                               law, creating a
standards.                                                             port, charter number fifteen, was
                                              national banking
                                                                       first to open for business, on June 29,
For most of the pre-1863 period, thou-          system and “a          1863. By 1870, more than 1,600 insti
sands of different bank note varieties        separate bureau          tutions, including hundreds of former
were in circulation—some good as               in the Treasury         state-chartered banks, had joined the
gold, some not worth the paper they                                    national system, holding well over
                                                Department,”
were printed on. This diverse and ir                                   50 percent of the country’s total bank
                                                headed by the
regular paper was a source of inflation                                assets.
and uncertainty, and a barrier to trade         Comptroller of
and economic growth.                          the Currency, to         The National Bank Act provided ex-
                                                 administer it.        tensive enumerated powers and such
Under the National Currency Act (re                                    “incidental powers as shall be neces
vised in June 1864 as the National                                     sary to carry on the business of bank-
Bank Act), organizers were required to raise sub-         ing.” The law required the Comptroller to report di
stantial capital (previously, many banks had little       rectly to Congress on needed improvements in the
or no capital) and to invest a portion of that capital    law, and modifications undertaken over the years
in U.S. government bonds, sales of which were lag-        have provided national banks with the flexibility to
ging at the time. The bonds would be deposited with       meet changing conditions in the financial market-
the Comptroller, who would deliver a proportionate        place.
quantity of bank notes of uniform design imprinted
with the bank’s name. The bonds served as security        The National Currency Act and subsequent laws
for the notes; if a national bank was unable to meet      endowed the Comptroller’s Office with consider-
its obligations, the bonds were liquidated and the        able operational independence. The Comptroller
note holders repaid. This ingenious system served         is appointed by the President to a five-year term.
the country for many years until national currency        Throughout its history, OCC has been funded by
was phased out in favor of Federal Reserve notes.         assessments paid by the banks it supervises.



FISCAL YEAR 2007                                                                                                 7
8   OCC ANNUAL REPORT
IV.

Profile
    The National Banking System*	                                        The Office of the
                                                                         Comptroller of the Currency

    National Banks:1                     1,677                           Total Employees:                3,066

    Percentage of Total Number           23                              National Bank Examiners:        2,061
    of Commercial Banks:
                                                                         Safety and Soundness            1,287
    Uninsured National Trust             78                              Examinations Conducted:
    Companies:
                                                                         Specialty Examinations          897
    Federal Branches of                  49                              Conducted:
    Foreign Banks:
                                                                         Consumer Assistance             35
    Assets of National Banks             $7.062 trillion                 Personnel:
    (excluding federal branches):
                                                                         Consumer Complaints             26,967
    Percentage of Total U.S.             68                              Processed:
    Commercial Banking Assets:
                                                                         Total Budget Authority:         $671.2 million
    Total Insured Deposits:              $4.397 trillion
                                                                         Total Revenue:                  $695.4 million
    Employees of National Banks:         1,232,243
                                                                         Percentage of Revenue           95.8
    Total Investments by National $4.82 billion                          Derived from Assessments:
    Banks under 12 CFR 24,
    Community Reinvestment Act:



    * Based on June 30, 2007, call report data.




1
    National banks are examined every 12 to 18 months, depending on their complexity and risk profile.


FISCAL YEAR 2007                                                                                                          9
     NATIONAL




10              OCC ANNUAL REPORT
V.

National:
Ensuring the Safety and Soundness
of the National Banking System
Bank supervision is the OCC’s core mission. Our         tors understand the critical role that each of them
goal is to determine whether a national bank is op      plays, and that they have the skills and the tools
erating in a safe and sound manner and whether          they need to effectively carry out those roles. The
national banks comply with applicable laws and          board and management must also ensure that the
regulations—laws that, among other things, protect      bank maintains adequate reserves and capital levels
consumers, support fair lending, prevent money          to cover both expected and unexpected losses.
laundering, protect critical bank and customer in
formation, and promote community reinvestment.          In the “national” section of this report, we look at
                                                        the issues that shaped the OCC’s supervisory strate
Each national bank’s supervisory strategy is cus        gies in FY 2007 and the steps that were taken by the
tomized to its condition and circumstances, and is      agency to strengthen the national banking system’s
continually modified as appropriate. When a bank’s      legal and regulatory framework.
risk profile or condition changes, the supervisory
strategy for that institution changes with it. For      Fostering Better
example, examiners may decide some banks need           Management of Credit Risk
more frequent reviews, or they may target specific
bank activities that warrant supervisory attention.     Reaffirming Credit Quality
The OCC’s approach to bank supervision evolved          National banks face many different forms of risks.
over nearly a century and a half. Soon after the        None poses greater potential for financial loss than
agency was created, its leaders realized that proper    credit risk—the possibility that a loan or invest
supervision required examiners to do more than          ment will not be fully repaid.
simply inspect the bank’s ledgers. In the 1880s,
Comptroller Henry W. Cannon admonished exam             FY 2007 was a year of rising, but still moderate,
iners to evaluate the overall competence and pru        credit risk. The percentage of loans that were non
dence of a bank’s management, as well as its asset      current rose, and provisions for loan and lease loss
quality. Since that time, the OCC has built on this     es increased nearly 90 percent over the 12 months
foundation, focusing not only on how individual         ending June 30, 2007. As a result, national bank
loans are underwritten and administered, but also       earnings were not as strong in the first half of this
on how bankers assess and manage risks across the       year as they were last year. Annualized year-to-date
institution.                                            return on equity at national banks (as of the second
                                                        quarter of calendar year 2007) was 12.73 percent—
In FY 2007, the OCC continued to implement and          nearly 1 percent lower than it was for 2006. (See
strengthen its risk-based approach to bank super        chart 1.)
vision. Our supervision emphasizes the need for
strong risk controls, clearly defined objectives, and   This rise in credit risk was not unexpected. The U.S.
a well-developed business strategy. We work to          economy has been expanding for six years, and it is
promote effective management and strong corpo           typical for loans booked early in an economic cycle
rate governance, ensuring that bankers and direc        to show increasing signs of weakness as the expan-


FISCAL YEAR 2007                                                                                                11
                                 sion matures. Also, loan underwriting standards                    less involved in the increasingly troubled market
                                 customarily slip in the later stages of an expansion               for subprime mortgages. Still, these troubles of
                                 as lenders compete for a shrinking pool of the most                fered an object lesson in the importance of sound
                                 creditworthy borrowers and begin to dip deeper                     underwriting. Even before these problems began to
                                 into the risk pool for customers. In recent years,                 emerge, the OCC was reemphasizing the need for
                                 a highly liquid secondary loan market intensified                  national banks to verify the mortgage borrower’s
                                 that competition, as did the growth in the number                  capacity to repay and to set aside prudent provi
                                 of nonbank lenders, such as mortgage brokers, who                  sions for losses.
                                 packaged and sold loan products to third-party in
                                 vestors. All these factors helped increase credit risk             Commercial real estate portfolios were another fo
                                 and put pressure on bank earnings.                                 cus of credit risk concerns in FY 2007. Growing
                                                                                                    concentration levels in these portfolios, particularly
                                 The dip in earnings must be viewed against the long-               at mid-size and community banks, raised concerns.
                                 term profitability of national banks. National bank                The banking supervisory community responded
                                 earnings have been strong for the past 15 years, and               by publishing guidance providing that banks with
                                 these strong earnings have contributed to healthy                  commercial real estate concentrations should main
                                 capital ratios. In a statement before the House                    tain robust risk management systems and should
                                 Committee on Financial Services on September 5,                    preserve prudent underwriting standards in the face
                                 2007, Comptroller Dugan underscored the system’s                   of competitive pressures.
                                 strength, noting that “national banks remain active
                                 in major markets and continue to extend credit to                  Surveys of Credit Risk
                                 corporate and retail customers, including mortgage
                                 credit.” He pointed out that “the worst problems                   The OCC conducts regular surveys to identify and
                                 we have seen in the markets—insufficient liquid                    monitor systemic trends in credit risk and emerging
                                 ity resulting in substantial declines in capital and               credit risk. In FY 2007, as in previous years, the
                                 sometimes in failure—have occurred outside the                     OCC produced its annual Survey of Credit Under
                                 commercial banking system.”                                        writing Practices, participated in the interagency
                                                                                                    Shared National Credit Review, and conducted a
                                 By historical standards, the loan portfolios of na                 series of horizontal reviews of large banks.
                                 tional banks showed low levels of losses and prob
                                 lem assets. Supervisory performance ratings of na                  Survey of Credit Underwriting Practices
                                 tional banks remained strong (see table 1). This is
                                                                                                    This survey identifies trends in lending standards
                                 partly because national banks were proportionally
                                                                                                    and credit risk for the most common types of com
                                                                                                    mercial and retail credit products offered by nation
                                                                                                    al banks. It assesses how factors such as competi
Chart 1: National bank profitability dipped in 2007Q2
                                                                                                    tion are affecting the pricing and underwriting of
                                                                                    Percent         loans and whether OCC examiners believe that the
                                                                                        18          inherent credit risk in banks’ portfolios is increas
                                                      Return on equity
                                                                                         16
                                                                                                    ing or decreasing.
                                                                                 12.73 14
                                                                                         12         The 2007 survey, released in October 2007, cov
                                                                                         10         ered the 12-month period ending March 31, 2007,
                                                                                         8
                                                                                                    and included results from the 78 largest national
                                                                                         6
                                                                                                    banks, representing more than 85 percent of all out
                                                                                         4
                                                                                                    standing loans in the national banking system.
                                                                                         2
                                                                                         0
                                                                                                    The survey found that retail and commercial credit
                               Recessions                                                -2
     73 75 77 79 81         83 85 87 89        91 93 95       97 99 01 03       05 07*              underwriting standards eased for a fourth consecu
                                                                                                    tive year, primarily from competitive pressures.
Source: Integrated Banking Information System (OCC)
                                                                                                    The easing that occurred in retail banking was most
* 2007 data as of June 30, 2007. All other data as of year-end. Shaded areas represent periods of
recession.                                                                                          notable in home equity lending (conventional and


12                                                                                                                            OCC ANNUAL REPORT
Table 1: Supervisory performance measures, FY 2007

                                                                                                                          Actual
    Performance Measures                                                                               Target           (9/30/07)1

    Percentage of national banks that are categorized as well capitalized2                              95%                99%

    Percentage of national banks with composite CAMELS rating of 1 or 23                                94%                97%

    Rehabilitated problem national banks as a percentage of the                                         40%                52%
    problem national banks one year ago (CAMELS 3, 4, or 5)4

    Percentage of national banks with consumer compliance rating of 1 or 25                             94%                97%




high loan-to-value loans) and residential real es-                           Although FY 2007’s review showed an increase
tate lending. Although commercial underwriting                               in the volume of criticized commitments, they re-
standards eased in general, the amount of easing                             mained at less than half of their peak dollar level
in commercial real estate underwriting declined                              in 2002. Criticized credits were 5 percent of total
slightly.                                                                    commitments, about the same rate as in the past
                                                                             three SNC reviews.
Not all sizes of national banks eased underwriting
standards. While large banks continued to do so, es-                         This year’s review also examined the quality of
pecially for leveraged and large corporate products,                         underwriting of a representative sample of shared
and mid-size banks eased modestly, the community                             credit. This review disclosed a significant increase
banks that were included in the survey tightened                             in underwriting weaknesses, especially in the syn
underwriting standards.                                                      dicated leveraged loan market and particularly in
                                                                             non-investment grade or leveraged credit facilities.
Shared National Credit Review
                                                                             Horizontal Reviews of Large Banks
The Shared National Credit (SNC) review is a joint
program of the OCC, the Board of Governors of                                The OCC’s Large Bank Supervision Department
the Federal Reserve System, the Federal Deposit                              conducted three horizontal reviews to determine
Insurance Corporation (FDIC), and the Office of                              how well large banks are complying with inter-
Thrift Supervision (OTS). Published annually (this                           agency guidance that addressed credit risk. A hori
year on September 25, 2007), the review evaluates                            zontal review is an examination across a portfolio
the classification of large syndicated loans held by                         of banks with similar characteristics. Horizontal re-
multiple banks. The 2007 review covered approxi                              views offer many benefits, notably the opportunity
mately 7,700 loans (or 5,265 borrowers) with com                             to exchange best practices and to ensure consistent
mitments totaling $2.3 trillion. SNC commitments                             expectations and supervisory practices across all
increased by nearly $401 billion, or 21.4 percent.



1
    Numbers in italics are estimates.
2
 The Federal Deposit Insurance Act established a system of prompt corrective action that classifies insured depository institutions
into five categories—well capitalized, adequately capitalized, undercapitalized, significantly undercapitalized, and critically
undercapitalized, based on their capital levels relative to their risks.
3
 The composite CAMELS rating reflects the overall condition of a bank. It is based on the Uniform Financial Institutions Rating
System. Evaluations are made on Capital adequacy, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk.
Ratings are on a scale of 1 through 5, 1 being best.
4
 The OCC’s early intervention can lead to successful remediation of problem banks. More than half of the problem banks on
9/30/2006 were rehabilitated within a year after following the OCC’s recommendations for corrective action.
5
 Each bank is assigned a consumer compliance rating based on an evaluation of its present compliance with consumer protection and
civil rights statutes and regulations, and the adequacy of its operating systems designed to ensure continuing compliance. Ratings are
on a scale of 1 through 5, 1 being the best.


FISCAL YEAR 2007                                                                                                                         13
     the banks. Typically conducted by experts in the         OCC efforts included:
     area of focus, horizontal reviews provide an inde
     pendent assessment. These reviews not only pro           •	 Working with individual borrowers seeking in
     vide the OCC with information on systemic risks,            formation or assistance through the OCC’s Cus
     but also afford a quick assessment of how banks are         tomer Assistance Group (CAG).
     complying with laws, regulations, and other regula
                                                              •	 Issuing interagency guidelines to lenders regard
     tory guidance. They also allow the OCC to focus on
                                                                 ing underwriting and consumer disclosure prac
     higher risk banks and to adjust supervisory strate
                                                                 tices for nontraditional and subprime mortgage
     gies and staffing.
                                                                 products.
     In FY 2007, horizontal reviews focused on the
                                                              •	 Monitoring compliance with regulatory guid
     guidance on nontraditional mortgages (OCC Bul
                                                                 ance and potential adverse affects on bank earn
     letin 2006-41, “Nontraditional Mortgage Prod
                                                                 ings, liquidity, and capital markets activities.
     ucts: Guidance on Nontraditional Mortgage Prod
     uct Risks”); the guidance on managing credit risk        •	 Working with community groups and bankers
     in home equity lending (OCC Bulletin 2005-22,               to identify and promote foreclosure prevention
     “Home Equity Lending: Credit Risk Management                strategies.
     Guidance”); and the guidance on managing credit
     card accounts (OCC Bulletin 2003-1, “Credit Card         •	 Working with the Financial Accounting Stan
     Lending: Account Management and Loss Allow                  dards Board and the Securities and Exchange
     ance Guidance”).                                            Commission to clarify how financial institutions
                                                                 and mortgage conduits can modify loan terms
     Helping To Stabilize                                        of borrowers unable to meet the terms of their
     Mortgage Markets                                            original mortgage obligations.

     The OCC has long discouraged abusive and irre            •	 Working with two nonprofit organizations,
     sponsible lending practices in the national banking         NeighborWorks America and the Ad Council,
     system. That’s one reason why national banks were           on a series of public service announcements
     relatively less involved in the subprime mortgage           encouraging delinquent mortgage borrowers to
     market, and why OCC-supervised institutions were            get help from their lenders or a trusted housing
     not as significantly affected by the setbacks many          counselor.
     subprime lenders experienced during FY 2007.
     Only 10 percent of new subprime loans in 2006            Addressing Concentrations in
     were originated by national banks, and the rate of       Commercial Real Estate Lending
     default among national bank subprime borrowers
                                                              Examiners increased their attention on credit risk
     was significantly lower than that of subprime bor
                                                              arising from concentrations in commercial real
     rowers generally.
                                                              estate loans in 2007. The emphasis followed the
     Nevertheless, the OCC has been active in regulato        publication in December 2006 of final interagency
     ry efforts to address issues in the mortgage markets     guidance, “Concentrations in Commercial Real Es
     and to assist troubled subprime borrowers. These         tate Lending, Sound Risk Management Practices.”
     latter efforts are discussed in detail in part VIII of   The guidance, which was a response to the increas
     this report, “Consumers: Promoting Fairness and          ing numbers of small- and medium-sized banks
     Transparency.” Throughout 2007, the OCC and              enlarging their portfolios of commercial real estate
     the other federal banking regulatory agencies also       loans, was especially timely in light of the turmoil
     issued guidance to lenders to encourage arrange          in the real estate-related markets in 2007.
     ments with at-risk borrowers that would enable
                                                              The guidance was intended to make sure that banks
     them to remain in their homes whenever possible.
                                                              enhance their risk management systems to accom
                                                              modate concentrations of such loans, especially if




14                                                                                     OCC ANNUAL REPORT
the primary source of repayment for many of the        sidered when estimating the ALLL), and the ob-
loans is cash flow from real estate collateral. Al-    jectives and elements of an effective loan review
though the federal banking agencies support the        system, including a sound credit-grading system.
effort to supply credit for business and real estate   The agencies issued a series of frequently-asked
development, they grew increasingly                                 questions to help institutions apply the
concerned about the potential effects                               guidance (see OCC Bulletin 2006-47,
of such concentrations on earnings          Hedge funds are         “Allowance for Loan and Lease Loss
and capital if commercial real estate       private pools of        es: Guidance and Frequently Asked
markets were to weaken.                    capital that often       Questions on the ALLL”).
                                         combine aggressive
The guidance provided supervisory                             To ensure that OCC examiners fully
                                              investment
criteria, including numerical indica-                         understand the guidance, the OCC
tors, to help identify commercial real    strategies with the conducted ALLL training at each of
estate loan concentrations that warrant    use of innovative  its field offices in FY 2007. The OCC
enhanced risk management. The OCC financial instruments. gave ALLL training to large bank ex
and its examiners emphasized that the                         aminers throughout the nation in the
criteria do not constitute limits or caps                     fall of 2007.
on a bank’s ability to make commer
cial real estate loans.                               Promoting Better Risk
                                                         Management of Innovative
Updating the Allowance                                   Markets and Products
for Loan and Lease Losses
                                                         Many national banks are leaders in developing
The federal banking regulatory agencies and Na           new products and services to better serve their cus
tional Credit Union Administration (NCUA) pub            tomers and compete effectively in today’s global
lished a comprehensive “Interagency Policy State         economy. But innovation brings risks as well as op
ment on the Allowance for Loan and Lease Losses”         portunities, and the OCC expects national banks to
(ALLL) in December 2006. This updated guidance           have people and systems in place to manage any
came just as many banks were preparing to increase       increased risk they have assumed.
their loss provisions in the first half of 2007.
                                                         In FY 2007, OCC executives and examiners paid
A valuation reserve charged to a bank’s operating        particular attention to large national banks that
income, ALLL is one of the most significant buf          do business with hedge funds, engage in complex
fers against credit risk. ALLL is the sum of two es      structured finance transactions, and deal in deriva
timates: 1) estimated credit losses on individually      tives. They worked to ensure that the banks’ risk
evaluated loans determined to be impaired, and 2)        management systems were capable of controlling
estimated credit losses on the remainder of the loan     the risks of these complex activities.
and lease portfolio. Although maintaining adequate
reserves is always important to safety and sound         Doing Business with Hedge Funds
ness, it takes on special significance as the credit
cycle matures.                                           Hedge funds are private pools of capital that often
                                                         combine aggressive investment strategies with the
Before the latest update, the last comprehensive in      use of innovative financial instruments. Some large
teragency statement on ALLL had been published           banks provide credit to hedge funds as counterpar
in 1993. Much about ALLL policy has changed              ties in over-the-counter derivatives transactions
since then: the banking agencies published signifi       and by financing transactions such as repurchase
cant updates in 1999, 2001, and 2004. The Decem          agreements.
ber 2006 statement incorporates those changes.
                                                         Doing business with hedge funds presents attractive
The statement describes the ALLL-related respon          revenue opportunities for banks, but it also poses
sibilities of boards of directors, management, and       heightened credit and price risk. As a result, hedge
examiners (including the factors that must be con        fund relationships generally are appropriate for only


FISCAL YEAR 2007                                                                                                 15
     the largest and most sophisticated banks. In Febru-    Statement on Sound Practices Concerning Elevated
     ary 2007, Comptroller Dugan participated in the        Risk Complex Structured Finance Transactions.”
     President’s Working Group on Financial Markets         This final statement describes the types of internal
     (PWG), which called on highly sophisticated lend-      controls and risk management procedures that are
     ers, investors, and counterparties to impose “mar-     needed for financial institutions to identify, man
     ket discipline” on hedge funds. The                                  age, and address the heightened risks
     group offered guidelines for doing so                                that may arise from certain CSFTs.
     embodied in the “Agreement among                Dealing in           OCC examiners require banks engag-
     PWG and U.S. Agency Principals on             derivatives—           ing in CSFTs to ensure that their risk
     Principles and Guidelines regarding       instruments whose          management systems can identify the
     Private Pools of Capital,” and OCC value is tied to that of elevated risk of CSFTs during new
     examiners expect large national banks                                product approval and transaction ap
                                              underlying securities
     to follow those guidelines in 2007                                   proval processes and that the banks
                                                or other assets—is
     and beyond. Accordingly, banks do-                                   implement appropriate risk controls.
                                                big business in the
     ing business with hedge funds should
     carry out appropriate due diligence banking industry, and OCC examiners often work with staff
     before entering into a credit relation- the OCC supervises in the OCC’s Credit and Market Risk
     ship with a hedge fund and should es- the five largest bank Division and the OCC Law Depart
     tablish information flows that enable derivatives dealers in ment’s Securities and Corporate Prac
     them to monitor credit exposures ef-                                 tices Division to determine whether the
                                                the United States.
     fectively.                                                           products or activities in question raise
                                                                          supervisory or legal issues that must
     Comptroller Dugan explained why the                                  be addressed. Before banks use novel
     PWG chose guidelines over regulation: “When de         derivatives products, for example, the OCC is often
     ciding between requirements and guidelines, gov        required to write legal opinions on their use. (See
     ernments must determine which will have a more         “Legal Opinions” under “Legal and Regulatory
     positive long-term effect on the markets. The PWG      Framework” for more on the legal and regulatory
     chose guidelines rather than a prescriptive regula     opinions that the OCC issued during the past year.)
     tory approach to avoid discouraging financial inno
     vation. But the success of that approach depends       Additionally, examiners review a bank’s control
     on hedge fund investors and creditors exercising       processes for new derivative products to assess
     appropriate due diligence.”                            whether the bank can conduct the activity in a safe
                                                            and sound manner. A bank cannot begin to engage
     For more on the PWG, see the sidebar “Dugan Sees       in a novel derivatives activity until the examiner-
     Growing Role for the President’s Working Group         in-charge (EIC) determines that the bank has a sat
     on Financial Markets.”                                 isfactory risk management and control framework
                                                            for the product’s risks.
     Complex Financial Products
                                                              Dealing in Derivatives
     Large national banks use and offer an expanding
     array of complex financial products. The OCC’s           Dealing in derivatives—instruments whose value
     resident examination staffs at these banks closely       is tied to that of underlying securities or other as
     monitor the use of these products to ensure that         sets—is big business in the banking industry, and
     banks have adequate risk management policies and         the OCC supervises the five largest bank deriva
     controls in place to govern them.                        tives dealers in the United States. As Comptroller
                                                              Dugan pointed out in a November 2006 speech to
     Certain complex structured finance transactions          the New York Bankers Association, “such a large
     (CSFTs), such as those that appear designed to           and concentrated credit exposure has the potential
     achieve questionable tax objectives, pose height         to affect both markets and systemic stability.”
     ened reputation and legal risk. In January 2007, the
     federal banking agencies and the Securities and Ex       In FY 2007, OCC examiners evaluated the ade
     change Commission (SEC) issued the “Interagency          quacy of the systems used by these bank dealers to


16                                                                                      OCC ANNUAL REPORT
monitor and control the collateral with which they      the Quarterly Report on Bank Derivatives Activi
mitigate their risk exposures in these transactions.    ties, which tracks the volume and trends of deriva
Examiners also worked to determine whether deal         tives and trading activities within the U.S. commer
er banks were performing adequate stress testing        cial banking system.
and scenario analysis to measure derivatives’ credit
and price risk. (Price risk is the possibility that a   In FY 2007, the OCC worked with other U.S. and
dealer bank will incur trading losses, especially       international regulators and major dealers to im
in market downturns.) Stress testing and scenario       prove the trade and settlement processing systems
analysis allow banks to simulate adverse financial      that support the global derivatives market. The ob
events, helping them to identify potential contagion    jective of these efforts is to reduce the level of un
or “spillover” effects and loss exposures.              confirmed transactions and make manual process
                                                        ing systems increasingly electronic, decreasing the
To help keep the industry and examiners abreast of      time it takes to confirm and settle derivatives trans-
derivatives activity, the OCC compiles and issues




                          Dugan Sees Growing Role for President’s
                          Working Group on Financial Markets
                           A stable financial sector is essential to a well-functioning U.S.
                           economy. Ensuring that public policies are conducive to that stability is
                           the job of the President’s Working Group on Financial Markets (PWG),
                           in which the OCC participates.

                           In February 2007, the PWG released a set of principles and guidelines
                           to guide U.S. financial regulators as they address public policy issues
                           associated with the rapid growth of private pools of capital, including
                           hedge funds. The agreement among the PWG and U.S. agency
                           principals, which concentrates on how to provide investor protection
                           and control systemic risks, serves as a framework for evaluating other
                           market developments.

                           Chaired by the Secretary of the Treasury, the PWG includes the
                           chairs of the Federal Reserve Board, the Securities and Exchange
                           Commission, and the Commodity Futures Trading Commission. The
                           PWG has been prominent in addressing a number of high-profile
                           problems facing the financial markets, such as the near collapse of
                           Long-Term Capital Management, a highly leveraged hedge fund,
                           in 1999. That potential collapse posed considerable risk to market
                           stability.

                           Comptroller Dugan sees an even larger role for the PWG as markets
                           become more global and sophisticated: “When it comes to controlling
                           systemic risks to the U.S. economy and responding to market
                           uncertainty, it’s important for the federal government to develop a
                           concerted strategy quickly and to respond with a consistent message,”
                           said the Comptroller. “That’s what makes the Working Group an
                           essential part of the nation’s financial supervisory system.”




FISCAL YEAR 2007                                                                                                 17
     actions. The result will be more reliable operations     for U.S. banks. Work to finalize the Basel II rule
     systems as derivatives markets continue to grow.         and to issue this new standardized proposal con
                                                              cluded just after the end of the fiscal year.
     Finalizing New Capital Rules
                                                              Providing Regulatory Relief
     Capital—the amount by which assets exceed lia            to National Banks
     bilities—is a broad measure of a bank’s ability to
     withstand financial difficulty. Modern risk manage       Regulations are intended to enhance safety and
     ment systems calculate capital adequacy by weight        soundness. Yet regulations that impose an exces
     ing bank assets according to their risk.                 sive compliance burden have the potential to under
                                                              mine, rather than enhance, the system’s viability.
     The OCC, Federal Reserve Board, the FDIC, and            That’s why the OCC conducts regular reviews of
     OTS worked to finalize the regulatory aspects of         its regulations and continually searches for ways to
     risk-based capital in FY 2007. The final rule would      achieve its regulatory objectives at reduced cost to
     implement within the United States the Basel Com         the institutions it supervises.
     mittee on Banking Supervision’s revised capital ac
     cord known as Basel II.                                  The Economic Growth and Regulatory Paperwork
                                                              Reduction Act of 1996 (EGRPRA) requires the fed
     The Basel II framework is designed to incorporate        eral agencies that are members of the Federal Fi
     information from the advanced risk management            nancial Institutions Examination Council (FFIEC)
     and measurement systems used by large banks.             to review their rules every 10 years, to revise rules
     In September 2006, the agencies issued for com           that are outdated, and to eliminate ones that are un
     ment a notice of proposed rulemaking to implement        necessary. The EGRPRA further requires the agen
     Basel II and published revisions to their rules on       cies to submit a report on the review’s findings to
     market risk capital. In February 2007, the agencies      Congress. Accordingly, in FY 2007, the OCC re
     sought comment on proposed supervisory guidance          viewed its regulations and issued the following pro
     for Basel II (OCC Bulletin 2007-10, “Supervisory         posed and final regulations:
     Guidance Related to Basel II Implementation: Pro
     posed Supervisory Guidance”).                            •	 18-Month	 Examination	 Cycle (12 CFR 4; 72
                                                                 Federal Register 17798; April 10, 2007). On
     When the Basel II proposal was issued, the agen             September 21, 2007, the OCC finalized an in
     cies contemplated that the largest, internationally         terim rule raising the $250 million ceiling for
     active U.S. banks (“core banks”) would be required          18-month examinations to $500 million for
     to use the Basel II rule. Certain other banks (“opt-in      qualified, well-managed banks. (The general
     banks”) could use the Basel II rule with the permis         prescript calls for national banks to receive a
     sion of their primary federal supervisor. Banks that        full-scope, on-site examination at least once
     were neither core banks nor opt-in banks would be           during every 12-month period.) The rule, which
     subject to an alternative rule. In December 2006,           was finalized by the Federal Reserve Board, the
     the agencies sought comment on this alternative             FDIC, and OTS as well, implements section 605
     proposal (see OCC Bulletin 2006-50, “Risk-Based             of the Financial Services Regulatory Relief Act
     Capital: Domestic Capital Modifications: Notice of          of 2006 and related legislation.
     Proposed Rulemaking”). The proposal came to be
     known as Basel 1A.                                       •	 Regulatory	 Review	 Amendments (74 Federal
                                                                 Register 36550; July 3, 2007). The OCC pub
     In July 2007, Comptroller Dugan and the princi              lished a proposed rule that would revise several
     pals of the other three federal banking agencies an         OCC rules to reduce unnecessary regulatory
     nounced their agreement on how Basel II would be            burden, update certain rules, and make certain
     finalized. The agreement included a plan to propose         technical, clarifying, and conforming changes
     a new standardized approach to replace the propos           to OCC regulations. This review of OCC reg
     al known as Basel 1A. Although a standardized ap            ulations, and the resulting notice of proposed
     proach was part of the original Basel II framework,         rulemaking, is consistent with EGRPRA. The
     such an approach had not previously been proposed


18                                                                                      OCC ANNUAL REPORT
   comment period for this proposed rule closed on         OCC determined that the bank failed to moni-
   September 4, 2007.                                      tor adequately certain Mexican casa de cambio
                                                           accounts, to identify suspicious activity and file
•	 Lending	 Limits	 Pilot	 Program                                  suspicious activity reports in a timely
   (12 CFR 32; 72 Federal Register                                  manner, and to comply with require
   31441; June 7, 2007). The OCC                                    ments that it improve its processes for
   issued an interim final rule that            The OCC is          identifying and reporting suspicious
   makes permanent a lending lim-              committed to         transactions. The bank’s violations re-
   its pilot program. That program         preventing criminals sulted in the movement of millions of
   permits a national bank to use a                                 dollars of suspected proceeds of drug
                                               and terrorists
   higher lending limit for one- to                                 sales through the foreign accounts
                                            from misusing the
   four-family residential real estate                              without detection.
   loans, small business loans, and          financial system
   small farm loans if the state where      and to supporting           •	 A cease and desist order by consent
   the bank is located allows its state-     law enforcement            and a $500,000 CMP against a federal
   chartered banks to use a higher         efforts to detect and        branch of a foreign bank for failure
   lending limit for those types of         prosecute criminal
                                                                        to meet BSA/AML requirements, in-
   loans.                                                               cluding failure to identify suspicious
                                                 activities.
                                                                        activities and file suspicious activity
Helping in the Fight                                                    reports.
against Terrorism and
                                                                         •	 A $250,000 CMP by consent
Money Laundering
                                                               against a bank for failing to meet BSA/AML
The OCC is committed to preventing criminals and               requirements and for engaging in unsafe or un
terrorists from misusing the financial system and to           sound practices in the bank’s capital markets di
supporting law enforcement efforts to detect and               vision. In addition, the OCC issued cease and de-
prosecute criminal activities. This work is often              sist orders by consent and assessed civil money
carried out in partnership with other federal finan-           penalties against three officers.
cial institutions regulatory agencies and the Finan
                                                           •	 A cease and desist order by consent against a
cial Crimes Enforcement Network (FinCEN).
                                                              bank and civil money penalties against three
OCC examiners evaluate each national bank’s com-              former bank officers for allegedly causing or
pliance with Bank Secrecy Act/Anti-Money Laun-                permitting violations of law, including failure to
dering (BSA/AML) requirements; when they ob-                  meet BSA/AML requirements.
serve weaknesses, they seek corrective action from
                                                           Other BSA/AML activities included:
the bank. The OCC investigates national banks that 

fail to meet BSA/AML requirements and takes en-            •	 Chairing the FFIEC BSA/AML Working Group 

forcement actions against them. Such enforcement              that coordinates interagency BSA/AML issues.

actions in FY 2007 included:

                                                           •	 Participating in the update of the FFIEC’s 2007
•	 A cease and desist order by consent, and a $10             BSA/AML	Examination	Manual.
   million civil money penalty (CMP) assessed
   concurrently with a FinCEN CMP assessment,              •	 Issuing the “Interagency Statement on Enforce-
   against a bank for violations of the Bank Se-              ment of BSA/AML Requirements.” The policy
   crecy Act and its implementing regulation. The             promotes consistency among the FFIEC agen
   enforcement actions were part of coordinated               cies, as well as transparency when taking en-
   actions with the U.S. Department of Justice,               forcement decisions.
   which entered into a Deferred Prosecution
   Agreement with the bank, and an accompany-              •	 Conducting the OCC’s 2007 money laundering
   ing $21,600,000 forfeiture in connection with              risk analysis. The analysis provides more than
   charges that the bank failed to maintain an ef-            1,650 community banks with succinct BSA/
   fective anti-money laundering program. The


FISCAL YEAR 2007                                                                                                   19
        AML risk assessment information. This infor          organizational structure and operational diversity.
        mation also enhances the effectiveness of the        It is the examiner’s job to determine the adequacy
        OCC’s BSA/AML supervision.                           of each bank’s management processes, to identify
                                                             problems before they seriously affect the bank’s
     •	 Ensuring a high level of technical expertise for     condition, and to ensure that corrective measures
        OCC examiners through OCC BSA/AML train              are taken.
        ing (classroom and knowledge-sharing calls),
        FFIEC BSA/AML training, and external train           When directing management and directors to take
        ing classes and conferences.                         these measures, examiners generally use the super
                                                             visory process to obtain the requisite responses.
     •	 Participating in more than a dozen national and      They issue reports, attend board meetings, par
        regional industry conferences, including con         ticipate in on-site activities, obtain commitment
        ferences sponsored by the American Banker’s          letters, and sign memorandums of understanding.
        Association/American Bar Association (on anti-       However, when problems are serious and well-
        money laundering enforcement), Florida Inter         documented, formal administrative action may be
        national Banker’s Association, Florida Banker’s      warranted to address violations of laws, rules, and
        Association, Banker’s Outreach at Kansas State       regulations; unsafe or unsound banking practices
        University, and the National Automated Clear         and breaches of fiduciary duty; and noncompliance
        ing House Association.                               with OCC directives or orders by national banks,
                                                             their insiders, and other affiliated parties.
     •	 Participating in the U.S. Treasury Department’s
        Private Sector Dialogue outreach program, in         In combating mismanagement during FY 2007,
        cluding the United States–Latin America pro          the OCC took such formal enforcement actions as
        gram in Bogotá, Colombia and the United              temporary cease and desist orders, final cease and
        States–Middle East North Africa (MENA) pro           desist orders, removal or prohibition orders, CMPs,
        gram in New York City.                               and formal agreements. Documents relating to
                                                             OCC enforcement actions can be found at www.
     •	 Participating in the Bank Secrecy Act Advisory
                                                             occ.gov/EnforcementActions.
        Group (BSAAG), whose purpose is to develop
        and implement appropriate policies and proce
        dures for the financial services industry. FinCEN    Enforcement Actions against
                                                             Bank Insiders and Third Parties
        chairs the group on behalf of the Secretary of the
        Treasury. Made up of regulators, law enforce         Actions against insiders included cease and desist
        ment officials, and representatives from indus       orders, restitution orders, and the assessment of
        tries subject to BSA rules, the BSAAG meets          CMPs. Insiders were the subject of these actions
        semi-annually. Through representative subcom         for misrepresenting and omitting material fact in
        mittees, the BSAAG is able to provide regular        regulatory filings, self-dealing, abusing overdraft
        and meaningful discussion of many aspects of         protection, and misappropriating bank funds. The
        the BSA.                                             violations involved nominee loan schemes, im
                                                             proper fee waivers, improper extensions of credit,
     Protecting National Banks                               improper use of bank premises, improper practices
     against Mismanagement                                   in construction or acquisition of bank premises,
                                                             failure to properly administer loans, abuses of ex
     One of the key responsibilities of national bank        pense procedures, fraudulent trade advance loans,
     examiners is to appraise management’s and direc         and participation in adjusted price trades.
     tors’ supervision of a bank and to evaluate the qual
     ity of their decision-making processes. Those pro       Actions involving third parties included issuance
     cesses include planning, policymaking, personnel        of a cease and desist order and assessment of a
     administration, control systems, and management         $300,000 CMP against an auditing firm for reck
     information systems. Although the formality and         less conduct when auditing the 1998 financial
     complexity of these processes differ, all banks must    statements of the former First National Bank of
     have management capability appropriate to their         Keystone (a failed national bank in West Virginia).


20                                                                                    OCC ANNUAL REPORT
The Comptroller has stayed the enforcement action        Strengthening the Legal
while the auditing firm appeals the action.              and Regulatory Framework

In another action, a law firm and an attorney of the
                                                         Litigation
firm signed agreements with the OCC governing
their representation of insured depository institu       The OCC was a party to, or prepared “friend of the
tion clients and agreed to pay CMPs. In a separate       court” briefs for, several appellate cases that af
agreement, the law firm agreed to pay more than $7       firmed federal preemption of state law restricting
million to the FDIC as the receiver for a failed bank.   national bank activities.
Although the OCC discovered evidence to suggest
that the bank’s officers had engaged in fraudulent       In Watters v. Wachovia [Supreme Court Docket
transactions to hide bank losses, the law firm hired     Number 05-1342], the U.S. Supreme Court issued a
by the bank to investigate the matter issued reports     seminal decision on the question of federal preemp
clearing the officers of wrongdoing. The chairman        tion and national bank powers. The issue before the
and two other bank officers were subsequently            Court was whether Michigan and Linda Watters, its
charged and convicted of criminal offenses, and          Commissioner of Financial and Insurance Services,
were incarcerated.                                       could require a mortgage operating subsidiary of a
                                                         national bank, Wachovia Bank, N.A. (Wachovia),
The OCC’s Fast Track Enforcement Program used            to register with and pay fees to the state. Michigan
information from Suspicious Activity Reports to          acknowledged that it would not have had the power
pursue prohibition or other enforcement actions          to impose these requirements on Wachovia itself.
when bank insiders and other institution-affiliated
parties committed criminal acts or acts of signifi       The Supreme Court’s decision on April 17, 2007
cant wrongdoing involving banks, but no criminal         in favor of Wachovia confirmed the findings of
action was taken.                                        several federal district courts and federal courts of
                                                         appeal that state laws must treat operating subsid
Table 2 summarizes enforcement actions taken in          iaries as if they were the national banks themselves.
FY 2007.                                                 Basing its opinion on its Barnett decision of 1996,
                                                         the Court reaffirmed the principle of preemption,


Table 2: Enforcement actions, FY 2007

                                                                                     Against Institution-
 Enforcement Actions, FY 2007                             Against Banks               Affiliated Parties
 Cease and Desist Orders                                         8                           25
 Temporary Cease and Desist Orders                               1                            0
 12 USC 1818 Civil Money Penalties                               4                           65
 12 USC 1818 Civil Money Penalties Amount Assessed          $10,755,000                   $2,231,000
 Flood Insurance Civil Money Penalties                          10                            0
 Flood Insurance Civil Money Penalties Amount Assessed       $629,369                        $0
 Restitution Orders                                              0                            4
 Amount of Restitution Ordered                                  $0                         $567,655
 Formal Agreements                                              20                            0
 Memoranda of Understanding                                      9                            0
 Commitment Letters                                              1                            0
 Suspension Orders                                               0                            1
 Letters of Reprimand                                            0                            8
 12 USC 1818 Removal/Prohibition Orders                          0                           37
 12 USC 1829 Prohibitions                                        0                           108
 Total Enforcement Actions                                      53                           248




FISCAL YEAR 2007                                                                                                 21
     holding that state law may not significantly burden,    In a related pending case, the Second Circuit Court
     curtail, or hinder a national bank’s exercise of its    of Appeals is considering a federal district court
     powers under the National Bank Act.                     decision enjoining the exercise of State Attorney
                                                             General visitorial authority and other state authori
     The Watters case was one of four cases in which         ties over national banks.
     U.S. courts of appeal upheld decisions by district
     courts in California, Connecticut, Maryland, and
                                                             Legal Opinions
     Michigan that granted national banks declaratory
     and injunctive relief in suits challenging states’ ef   When a national bank contemplates engaging in
     forts to license and exercise enforcement authority     a certain activity, but is not certain whether it has
     over national bank mortgage subsidiaries. After is      the legal ability to do so, it may ask the OCC Law
     suing its ruling in the Michigan case, the Supreme      Department for its opinion on the matter. If the
     Court denied petitions for Supreme Court review         OCC determines that an activity is permissible, an
     filed by Connecticut and Maryland.                      individual national bank may engage in the activ-




                               The Watters Decision Clears the Air
                                The Supreme Court’s decision in Watters v. Wachovia will have little
                                direct effect on bank supervision. Courts will continue to view duplica-
                                tive examination, supervision, and regulation of national banks by the
                                states as preemption-triggering burdens. And national banks will con-
                                tinue to be subject to state laws of general application, provided those
                                laws do not conflict with the provisions or purposes of the National
                                Bank Act. But the Court’s decision, which ratified the OCC’s view that
                                operating subsidiaries should not be treated differently than the bank
                                itself, resolves a related supervisory dispute that had been raised in
                                several lower court cases.

                                Central (if implicit) to the case was this question: Who has the supervi-
                                sory authority to ensure that the customers of national banks and their
                                operating subsidiaries are treated fairly? Is it the states or the OCC? If
                                the answer to that question was not clear before the Watters decision
                                was handed down, it is now.

                                The Court’s decision begins by describing the OCC’s responsibilities
                                as “oversee[ing] the operations of national banks and their interactions
                                with the customers.” That’s a defining phrase— “. . . and their interac-
                                tions with the customers”—because it clarifies that the OCC is the su-
                                pervisor accountable for how national banks treat their customers.

                                And the OCC takes that accountability very seriously. The agency is
                                committed not only to ensuring the safety and soundness of national
                                banks, but also to enforcing strong protections for national banks’
                                customers. The OCC views these dual commitments as consistent and
                                complementary, and we have devoted considerable resources to ensur-
                                ing that banks’ consumer practices are as sound as their finances.

                                For more on the OCC’s commitment to consumer protection, see the
                                “Consumers” section of this report.



22                                                                                     OCC ANNUAL REPORT
ity, subject to supervisory judgment that it has the                        tion that includes a small amount of credit balances.
capability to do so in a safe and sound manner. Le                          The full text of legal opinions issued by the OCC
gally supportable and safe and sound expansion of                           in FY 2007 can be found at www.occ.gov/law/guid
national bank activities enhances the national bank                         ance.htm.
ing system’s competitiveness in the modern finan
cial marketplace.                                                           Licensing Decisions

Legal opinions issued in FY 2007 addressed issues                           The OCC made several significant licensing de
relating to national bank custody activities, invest                        cisions in FY 2007 involving national bank busi
ments, lending, and derivatives. Banks engaging in                          ness realignments and acquisitions. In addition,
permissible derivatives activities must have ade                            the OCC completed bank chartering studies that
quate risk management systems, risk measurement                             will result in streamlined regulatory requirements,
systems, and controls, and must meet any other                              process improvements, reduced costs and barriers,
supervisory requirements relevant to the particular                         and enhanced value of the national bank charter for
proposal.                                                                   bank organizers.

Among approved investments was a noncontrolling                             Table 3: Licensing and customer service
investment in a company that offers fraud preven                            performance measures, FY 2007
tion, identity verification, credential validation, and
                                                                             Performance Measures                     Target      Actual
payment/deposit risk services to financial institu-
                                                                             Percentage of licensing applications         40%      38%
tions and other companies in the financial industry.
                                                                             and notices filed electronically

The OCC, along with the other federal financial in                           Percentage of licensing applications         95%      96%
                                                                             and notices completed within
stitution regulators, issued a joint opinion conclud                         established time frames
ing that the Bank Merger Act does not apply to a
                                                                             Average survey rating of the overall         ≤ 1.5     1.2
financial institution’s acquisition of a portfolio of                        licensing services provided by OCC
credit card accounts from another financial institu-


Table 4: Corporate application activity, FY 2006 and FY 2007

                                          Applications received                                   FY 2007 Decisions
                                                                                                 Conditionally
                                       FY 2006            FY 2007            Approved             Approved4         Denied        Total*
Branches                                 1,872              1,673                1,724                 4              0            1,729
Capital / Sub Debt                         167                135                   66                 3              0               71
Change in Bank Control                       9                  8                    2                 0              0                6
Charters                                    47                 32                    3                27              0               30
Conversions1                                15                 25                    6                 5              0               11
Federal Branches                             3                  1                    0                 0              0                0
Fiduciary Powers                            30                  6                    4                 0              0                4
Mergers2                                    62                 49                   40                 0              0                0
Relocations                                274                277                  256                 1              0              257
Reorganizations                            123                108                   81                13              0               94
Stock appraisals                             0                  2                    0                 0              0                0
Subsidiaries3                               27                 14                   21                10              0               31
12 CFR 5.53 Change in Assets                 3                  4                    0                 4              0                4
LTD NB Upgrade                               5                  2                    0                 1              0                1
Total                                    2,637              2,336                2,203                68              0            2,278
1
    Conversions to national bank charters.

2
    Mergers include failure transactions when the national bank is the resulting institution.

3
    This count does not include 93 After-the-Fact notices received in FY 2006 and 81 After-the-Fact notices received in FY 2007.

4
  On April 14, 2000, the Licensing department issued guidance imposing special conditional approval for all bank charters requiring 

the OCC to be notified before a significant deviation or change in the operating plan during the first three years of operation.
* Total includes alternative decisions or no objections.


FISCAL YEAR 2007                                                                                                                           23
     Table 5: OCC licensing actions and timeliness, FY 2006 and FY 2007

                                                                 FY 2006                                             FY 2007
                                                                              Within Target                                Within Target
                                        Target time
                                           frames       Number of                                        Number of
     Application Type                     in days1      Decisions          Number               %        Decisions       Number           %
     Branches                              45 / 60          1,790            1,721              96         1,729           1,690          98
     Capital / Sub Debt                    30 / 45             55               48              87            71              59          83
     Change in Bank Control                NA /60               8                8             100             6               6         100
     Charters 2                                                34               21              62            30              13          43
     Conversions                           30 / 90             12                9              75            11               8          73
     Federal Branches                      na/120               2                1              50             0               0           0
     Fiduciary Powers                      30 / 45             14                9              64             4               3          75
     Mergers                               45 / 60             64               54              84            40              36          90
     Relocations                           45 / 60            271              267              99           257             251          98
     Reorganizations                       45 / 60            132              100              76            94              84          89
     Stock Appraisals                      NA /90               2                2             100             0               0           0
     Subsidiaries                            NA                35               35             100            31              31         100
     12 CFR 5.53 Change in Assets          NA/60                5                4              80             4               2          50
     LTD NB Upgrade 3                                           1                0               0             1               0           0
     Total                                                  2,425            2,279              94         2,278           2,183          96

     Note: Most decisions (98 percent in 2006 and 99 percent 2007) were decided in the district offices and Large Bank Licensing under
     delegated authority. Decisions include approvals, conditional approvals, and denials.
     1
       Those filings that qualify for the “expedited review” process are subject to the shorter of the time frames listed. The longer time frame
     is the standard benchmark for more complex applications. New time frames commenced in 1997 with the adoption of the revised Part
     5. The target time frame may be extended if the OCC needs additional information to reach a decision, permits additional time for
     public comment, or processes a group of related filings as one transaction.

     2
       For independent charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time 

     frame is 45 days for applications eligible for expedited review, and 90 days for all others.

     3
         Ibid. 2.


     Table 6: Change in Bank Control Act,1 FY 2003–FY 2007

     Year                           Received          Acted On             Not Disapproved               Disapproved          Withdrawn
     2007                                 6                 6                         0                       0                      0
     2006                                 9                 8                         4                       0                      4
     2005                                17                17                        17                       0                      0
     2004                                16               14 2                       13                       0                      0
     2003                                16                 10                       9                        1                      0

     1
         Notices processed with disposition.

     2
         Includes one notice with no activity. The OCC considered it abandoned.




     Table 7: List of applications presenting Community Reinvestment Act
     issues decided, FY 2007


     Bank, City, State                                                      Interpretations and Actions              Document Number
     JPMorgan Chase Bank, NA                                                              October 2006               CRA Decision No. 136
     HSBC Trust Company (Delaware), National Association,                                 October 2006               CRA Decision No. 137
     Wilmington, DE
     City National Bank, Beverly Hills, CA                                                 May 2007                  CRA Decision No. 138
     COFSB National Association, McLean, VA                                                May 2007                  CRA Decision No. 139
     Rabobank, NA, El Centro, CA                                                           June 2007                 CRA Decision No. 140




24                                                                                                            OCC ANNUAL REPORT
                   Working To Address the Needs of
                   Minority Banks
                   The OCC has long been committed to expanding opportunities for
                   minority-owned national banks (MONBs). In 2007, the agency took
                   several steps toward increasing outreach and support to promote that
                   goal.

                   First, the OCC established an interdepartmental Minority National
                   Bank Working Group to address hot topics and emerging issues
                   that pertain to MONBs. Headed by Mid-Size/Community Bank
                   Supervision, the group developed two surveys that assessed the breadth
                   and quality of the agency’s efforts to support MONBs. The surveys
                   should help the OCC to enhance its education, outreach, and technical
                   assistance as well as improve the agency’s strategies aimed at helping
                   MONBs operate in a safe and sound manner, serve the banking needs
                   of their communities, and preserve their minority-owned status.

                   Also in FY 2007, the OCC improved its communication and outreach
                   with minority banks and trade associations. Among the recent MONB-
                   related information produced and disseminated are the agency’s print
                   and online versions of the Winter 2006-2007 Community Developments
                   newsletter, “Minority-Owned Banks—Making a Difference in Their
                   Communities.” This issue of the newsletter appears on the OCC’s Web
                   site at http://www.occ.gov/cdd/commfoc.htm and in the Community
                   Affairs section of the National Banknet, the OCC’s extranet for
                   national banks.

                   The OCC also participated in several conferences throughout FY
                   2007. It co-hosted the Minority Depository Institution Interagency
                   National Conference, where Chief of Staff John Walsh discussed
                   opportunities and requirements under the Community Reinvestment
                   Act and discussed the OCC’s efforts to support minority banking and
                   its supervision. OCC managers and staff participated in other 2007
                   events largely attended by minority bank CEOs, including the Annual
                   Conference and the Legislative and Regulatory Conference of the
                   National Bankers Association. “Increased dialogue with the minority
                   banking community,” said Glenda Cross, Senior Advisor for External
                   Outreach and Minority Affairs, “has helped the OCC not only better
                   understand the unique characteristics of minority-owned banks, but
                   also to establish and share with its bank supervision staff best practices
                   for working effectively with MONBs.”




FISCAL YEAR 2007                                                                                25
     EVEnts

               September 2006   The OCC and other federal banking agencies issue final guidance on nontraditional mortgage
                                products.

               October 2006     The OCC and other federal banking agencies inform consumers about nontraditional
                                mortgage loans. The booklet “Interest-Only Mortgage Payments and Payment-Option ARMs—
                                Are They for You?” features a glossary of lending terms, a mortgage shopping worksheet, and a
                                list of additional sources of information.

               November 2006    The OCC hosts a meeting of directors of Large Banks to promote communications and
                                enhance corporate governance.

               December 2006    The OCC, Federal Reserve (FRB), and FDIC issue guidance on concentrations in commercial
                                real estate lending. The OTS issued separate but parallel guidance.
                                The OCC and other federal banking agencies provide guidance and FAQs to bankers and
                                examiners on the allowance for loan and lease losses.

               January 2007     The OCC, FRB, FDIC, OTS and SEC issue statement on complex structured financial
                                transactions.

               February 2007    The OCC, FRB, FDIC, and OTS seek comment on proposed supervisory guidance for the
                                implementation of the Basel II advanced measurement approaches.

               March 2007       The OCC and other federal banking agencies seek comment on the subprime mortgage
                                lending statement. The proposal addresses concerns that subprime borrowers may not fully
                                understand the risks and consequences of obtaining subprime mortgages.

               April 2007       Supreme Court renders its decision in Watters v. Wachovia.
                                The OCC, the other federal banking regulators, and the U.S. Department of Housing and Urban
                                Development issue statement encouraging institutions to work with mortgage borrowers.

               May 2007         Comptroller Dugan expresses concern over “stated income” subprime loans.

               June 2007        Comptroller Dugan in testimony before the House Financial Services Committee announces
                                new cooperative initiative with state agencies that aims to curb abuses by mortgage
                                brokers.
                                Comptroller Dugan unveils public service announcements encouraging delinquent borrowers
                                to contact lenders for help to avoid foreclosure.
                                OCC releases report highlighting best practices of loan servicers to prevent foreclosures.
                                OCC and other federal banking regulators issued final statement on subprime mortgage
                                lending.

               July 2007        OCC publishes interim final rule amending 12 CFR 32, which governs lending limits. The
                                revision allows national banks higher lending limits if state-chartered banks in the same locale
                                are allowed higher limits.
                                OCC, FRB, FDIC, and OTS issue final rule amending regulations on management interlocks.
                                Federal banking agencies issue statement on enforcement of Bank Secrecy Act/anti­
                                money laundering requirements. The statement aims to provide greater consistency in BSA
                                enforcement among the agencies.
                                OCC, FRB, FDIC, and OTS reach agreement on implementation of Basel II.

               August 2007      Federal banking agencies propose illustrations of consumer information to support their
                                statement on subprime mortgage lending.
                                Financial regulatory agencies issue a revised BSA/AML manual.

               September 2007   OCC brings together chief risk officers of Large Banks to discuss trends in credit markets.
                                OCC, the other federal banking agencies, and the Conference of State Bank Supervisors issue
                                statement on loss mitigation strategies for servicers of residential mortgage loans.
                                Comptroller Dugan tells House committee that the National Banking System remains safe
                                and sound despite challenging credit and mortgage markets.
                                Results of the annual Shared National Credit review show an increase in criticized
                                commitments but satisfactory overall credit quality.



26                                                                                                  OCC ANNUAL REPORT
FISCAL YEAR 2007   27
INTERNATIONAL




28        OCC ANNUAL REPORT
VI.

International: National Banks and OCC
Supervision in a Global Economy
Few industries have been more affected by global        National Banks’
ization than banking. Spurred by opportunities in       International Exposures
both the developed world and emerging markets,
U.S. banks are rapidly expanding their internation      U.S. national banks, with their expanded global
al presence through mergers, strategic investments,     reach, are an important part of the international fi
and organic growth. Greater economic integration        nancial system. U.S. national banks’ direct foreign
and financial market innovations, as well as the        outstanding claims were $1.6 trillion as of the sec
largely favorable global economic conditions of re      ond quarter 2007, an increase of 174 percent since
cent years, have fueled this development. Advance       2003, in part because of conversions to a national
ments in technology continue to improve banks’          charter. These claims are made up of cross-border
ability to manage larger operations at lower costs      and foreign office claims. In addition, banks had
and from more locations, including geographically       $406 billion in unused foreign commitments, while
remote areas. The general trend toward deregula         the notional value of credit derivatives sold totaled
tion contributes to this international expansion by     $1.9 trillion as of the second quarter 2007. These
lowering barriers to competition and permitting         large and growing numbers make the international
foreign bank entry into local markets.                  environment increasingly important to the OCC.

The international efforts of bank supervisors to        Chart 2: National bank direct outstandings are
promote best practices also affect the international    rising in developed and emerging markets ($ billions)
reach of globally active banks. These efforts have
ranged from promoting strong capital frameworks                      EMERGING
                                                                                                                                                1,800
to fostering standards for effective banking super                   DEVELOPED                                                                  1,600
vision. As a result, they tend to raise standards and                                                                                           1,400
promote a level playing field for cross-border bank                                                                                             1,200
ing.                                                                                                                                            1,000
                                                                                                                                                800
The following sections discuss the size, composi
                                                                                                                                                600
tion, and growth of national bank foreign expo
                                                                                                                                                400
sures. The discussion then turns to the complemen
tary roles played by OCC in assessing international                                                                                             200

risks and supervising international exposures of the                                                                                            0

national banking system.                                      2000      2001      2002      2003       2004     2005       2006      2007

                                                        Source: Country Exposure Report (FFIEC 009). Note: yearly data reflects 2nd quarter. Direct
                                                        outstandings include cross-border and foreign office claims. Data for offshore centers are not
                                                        included.




FISCAL YEAR 2007                                                                                                                                         29
                                   Internationally active national banks offer an array              (C&I) lending. A retail credit culture is developing
                                   of products and services, ranging from consumer                   in many countries, such as in India, Brazil, and Chi
                                   credit loans to complex capital market instruments.               na, with more individuals using credit to purchase
                                   International exposures in the national banking sys               consumer goods and automobiles.
                                   tem fall primarily into three groups: large money-
                                   center banks, which provide a full range of prod                  Outsourcing to third-party servicers has increased
                                   ucts and services through an extensive international              substantially across the global market in recent
                                   network of branches and affiliates; other banks,                  years. Software development and maintenance,
                                   which serve the international financing needs of                  which have been the predominant services, are
                                   their domestic, corporate clients; and small banks                leveling off, while marked growth has been noted
                                   with close geographic ties to Latin America, Asia,                for business processing outsourcing involving as
                                   or the Middle-East.                                               set management and capital market services. As
                                                                                                     services grow in diversity, so do the countries in
                                   While the majority of exposures and growth has                    volved. India, Canada, the Philippines, and the
                                   been to developed countries, such as the United                   United Kingdom still host the bulk of independent
                                   Kingdom and Germany, exposures to emerging                        third-party service providers, while emerging coun
                                   market (EM) countries also rose in FY 2007, to a                  tries, such as China, Brazil, Mexico, and Korea,
                                   total of $469 billion. The expansion in both the de               have increasing numbers of service agreements.
                                   veloped and emerging markets is projected to con
                                   tinue, particularly among the largest internationally             OCC’s International Focus
                                   active U.S. banks.
                                                                                                     The OCC provides comprehensive supervision
                                   Growth in emerging market exposures has been                      relating to the international activities of national
                                   broad based, with double digit growth not only in                 banks. The OCC’s examination staff regularly
                                   the increasingly dominant economies of Brazil,                    evaluates bank activities and risk exposure in this
                                   Russia, India, and China (BRIC), but also in such                 area. In large banks, the OCC has examination staff
                                   markets as Korea, Turkey, Chile, and Poland. U.S.                 dedicated to providing supervision on an ongoing
                                   national banks are pursuing varied strategies to ex               basis and specialists in such areas as capital mar
                                   pand in these countries to take advantage of eco                  kets, credit, and anti-money laundering who evalu
                                   nomic growth and rising income levels. U.S. banks                 ate risk and the quality of bank management across
                                   are engaged in a wide variety of business lines in                the enterprise. Enterprise risk management incor
                                   the EM countries. Their businesses have expand                    porates activities that occur overseas—for exam
                                   ed beyond traditional commercial and industrial                   ple, evaluating international vendor activities in the
                                                                                                     assessment of vendor-service risk management.
Chart 3: Foreign-owned national bank assets increasing
                                                                                                     Since 1974, the OCC’s London Office has been
                                                                                               600   dedicated to evaluating the key risks present in
                                                                                                     the U.S. national banks’ European operations. Top
              Total assets of foreign-owned:                                                   500   issues facing these banks focus on governance,
                  National banks and trust companies
                  Federal branches and agencies                                                      complex and structured product expansion, major
                                                                                               400
                                                                                                     technology initiatives, and compliance with new
                                                                                               300   European directives. OCC large bank examination
                                                                                                     teams evaluate international activity and exposure
                                                                                               200   in countries where business activity is significant,
                                                                                                     including emerging market countries in Asia and
                                                                                               100
                                                                                                     Latin America.
                                                                                               0
   1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007
                                                                                                     The OCC supervises 49 federal branches and agen
                                                                                                     cies of foreign banks, from such countries as Aus
Source: Federal Reserve Board. Data as of June 30, 2007. All other data as of year end.              tria, Canada, and China. This foreign bank portfolio,
                                                                                                     with combined assets of $142 billion, is supervised



30                                                                                                                             OCC ANNUAL REPORT
by the OCC’s New York field office located in the              The Basel Committee on Banking
Northeastern District Office. The principal business           Supervision provides a forum for regular
focus of these institutions is generally wholesale-            cooperation on banking supervisory
oriented, inasmuch as they provide credit facili               matters with a view to enhance
ties, and capital markets and funding activities to            understanding of key supervisory issues
U.S. and home country customers. In addition, the              and to improve the quality of banking
OCC supervises 35 foreign-owned national banks                 supervision worldwide. It seeks to do so
and trust companies with aggregate assets of $535              by exchanging information on national
billion. This group, led by large, globally active             supervisory issues, approaches and
British, Japanese, Canadian, and Dutch financial               techniques, and by developing guidelines
institutions, offers a mix of retail, wholesale, and           and supervisory standards.
private banking products.

                                                               The Joint Forum was established under
Supporting International                                       the aegis of the Basel Committee on
Risk Supervision                                               Banking Supervision, the International
                                                               Organization of Securities Commissions,
The OCC analyzes global and country risks affect
                                                               and the International Association of
ing U.S. banks, collaborates with foreign coun
                                                               Insurance Supervisors to deal with issues
terparts to develop international banking policy,
                                                               common to the banking, securities, and
establishes relationships with foreign supervisors,
                                                               insurance sectors, including the regulation
negotiates protocols for exchanging information,
                                                               of financial conglomerates.
and provides technical assistance to foreign super
visors.


International Analysis                                  2007 as Chairman of the Joint Forum has placed
                                                        the OCC in an even stronger position to influence
International risk analyses target issues of emerging   the direction of global supervisory policy.
importance, such as global financial liquidity con
ditions and retail lending trends in emerging econo     The OCC played an important role in the compre
mies. Scenario analysis and stress-testing are areas    hensive revision of the Basel Capital Standards,
of ongoing research. Specialized research into top      known as Basel II, published in June 2006, and in
ics, such as global demographic developments and        the revision of the Basel Committee Core Principles
their implications for banking, is also undertaken.     for Effective Banking Supervision in late 2006. This
These analyses assist the OCC in evaluating fac         work required the OCC to collaborate with other
tors affecting the condition of the national banking    U.S. regulators in forging a common U.S. policy
system, and contribute to developing OCC policy         view that helps inform international discussions.
and to discussions with other federal bank regula       Serving on international policy-setting groups also
tors and foreign supervisors.                           enables the OCC to promote sound supervisory
                                                        standards worldwide and to foster policies that help
International Policy Development                        promote competitive equality for globally active fi
                                                        nancial institutions across markets.
With the increased relevance of the international
policy environment to the OCC and the interna           The OCC has an ongoing interest in the develop
tionally active national banks it supervises, and the   ment of international financial policy generally
trend toward establishment of globally consistent       and especially in areas like Europe where national
supervisory standards, the agency has devoted in        banks’ activities and exposures are concentrated.
creased attention to international policy-setting       The European Union’s (EU) policy agenda on bank
groups. In addition to its longstanding involvement     ing is influenced by such groups as the Basel Com
in the Basel Committee on Banking Supervision,          mittee, the Joint Forum, and the Financial Action
Comptroller Dugan’s appointment in September            Task Force (FATF). Through OCC’s participation
                                                        in these international groups, as well as through



FISCAL YEAR 2007                                                                                               31
     its relationships with the European Commission         OCC staff members also periodically participate
     and the Committee of European Bank Supervisors         in international banking conferences, which allow
     (CEBS), the OCC is kept abreast of developments        them to communicate directly with international
     that may affect the operations of national banks.      bankers, discuss issues of supervisory importance,
                                                            and better understand bankers’ views and concerns.
     External Supervisory Relations

     The OCC maintains a wide range of relationships,              SEACEN—The Southeast Asian Central
     formal and informal, with foreign supervisors across          Banks is an organization of Southeast
     the globe. These relationships enable the OCC to              Asian Central Bankers that reviews
     facilitate the exchange of supervisory information            monetary, banking, and economic
     about internationally active banks and enter into             developments in the region and facilitates
     information-exchange arrangements. During regu                supervisory cooperation and training
     lar meetings, the OCC and foreign supervisors ex              among its members.
     change important supervisory and economic infor
     mation. These working relationships will become
     even more important as the new Basel II regime is
     adopted by large, globally active banks operating        Sharing Information
     across national jurisdictions. The OCC conducts          with Foreign Supervisors
     bilateral meetings based on the level of current or
                                                              Sharing arrangements and the actual exchange of in­
     prospective national bank activity in the host coun      formation between supervisors is important in advanc­
     try, regional importance, federal branch activity in     ing effective consolidated supervision. The OCC is per­
     the United States, and the need to address issues        mitted to disclose information to foreign supervisors if
                                                              the disclosure is appropriate, does not prejudice the
     of supervisory concern. For instance, in 2007 the        interest of the United States, and is accompanied by a
     OCC held bilateral meetings with China, Brazil,          confidentiality agreement (to the extent necessary) [12
     India, and Mexico to discuss regulatory changes,         USC 3109]. Formal information-sharing arrangements,
                                                              while not legally binding documents, set out the types
     anti-money laundering, Basel II capital standards,
                                                              of information that may be shared, the parameters as
     and domestic and international banking activities.       to how shared information will be safeguarded, and
     OCC participated in conferences, such as those           how it will be used, as well as notification procedures
     of the Southeast Asian Central Banks (SEACEN)            for examining cross-border institutions. The arrange­
                                                              ments can facilitate a more expedited process for ex­
     Research and Training Centre and the Caribbean
                                                              changing information.
     Group of Banking Supervisors, which provide a fo
                                                              Such arrangements, however, are not always required.
     rum to exchange supervisory practices. In addition,      The OCC may share, and has shared, information with
     the OCC provided support to Treasury’s Financial         supervisors when no formal arrangement is in place.
     Services Working Group (FSWG) dialogue with              In such cases, the OCC may provide information along
                                                              with stipulations about its use and confidentiality, or
     Japan and China.
                                                              the OCC may require the supervisor to provide a writ­
                                                              ten agreement regarding use and confidentiality.
            FATF—The Financial Action Task Force              OCC often assists foreign supervisors in meeting their
            is an inter-governmental body whose               supervisory objectives by responding to their requests
                                                              for:
            purpose is the development and promotion
                                                              •	 Background	information	on	prospective	managers.
            of national and international policies to
            combat money laundering and terrorist             •	 Information	on	a	bank’s	financial	condition	and	ex­
                                                                 amination findings.
            financing.
                                                              •	 Authorization	 to	 perform	 examinations	 as	 home	
                                                                 country	 supervisor	 of	 national	 bank	 operations	
                                                                 overseas.
                                                              In	 addition,	 the	 OCC	 will	 make	 a	 foreign	 supervisor	
                                                              aware of significant concerns (e.g., an enforcement
                                                              action)	that	arise	regarding	a	bank	under	the	foreign	
                                                              supervisor’s	jurisdiction.




32                                                                                         OCC ANNUAL REPORT
Foreign Technical Assistance                             The OCC also receives requests for exam-related
                                                         assistance from foreign supervisors. OCC examin
In providing foreign technical assistance (FTA), the     ers who participate in the FTA cadre are selected
OCC helps foreign supervisors to develop, improve,       to assist foreign bank supervisors for a variety of
and refine their supervisory systems. The goal is to     international programs and projects. In 2007, OCC
elevate supervisory standards and provide competi        examiners assisted foreign supervisors with anti-
tive equality for internationally active banks. At the   money laundering and problem bank issues.
same time, the program increases the international
expertise of OCC employees and helps to enhance
the global reputation of the agency.
                                                           The OCC and China
The FTA program offers training courses to foreign
                                                           The	OCC	has	a	long-standing	relationship	with	China’s	
bank supervisors, provides internships, and sup            banking	 supervisor,	 the	 China	 Banking	 Regulatory	
ports the assistance projects of regional supervi          Commission	(CBRC),	and	its	predecessor,	the	People’s	
sory bodies, the U.S. Department of the Treasury,          Bank	 of	 China	 (PBOC).	 	This	 supervisory	 relationship	
the International Monetary Fund (IMF), and World           has been cultivated over the years through various
                                                           programs including formal bilateral meetings and the
Bank, and regional supervisory bodies. In 2007, ap         OCC’s	international	intern	program.
proximately 72 supervisors from 29 countries took          Since 2006, the OCC, in cooperation with the other U.S.
part in OCC international schools for Anti-Money           federal	 banking	 regulators,	 has	 held	 formal	 bilateral	
Laundering/Combating the Financing of Terrorism,           meetings	with	the	CBRC	on	banking	supervisory	prac­
Operational Risk, and Problem Bank Supervision.            tices and the operating environment. In September
                                                           2007, the OCC hosted a bilateral meeting in Washing­
Also, OCC instructors assisted training efforts of         ton,	D.C.,	attended	by	representatives	of	the	Board	of	
regional supervisory bodies and the IMF. They              Governors	of	the	Federal	Reserve	System,	the	Federal	
served as instructors for the following training: Op       Deposit Insurance Corporation, and the Office of Thrift
                                                           Supervision.
erational Risk (Partnership for Financial Excellence
in Middle East–North Africa); Anti-Money Laun              The	CBRC	is	an	active	participant	in	the	OCC’s	interna­
                                                           tional	intern	program.		CBRC	interns	have	spent	from	
dering and Countering the Financing of Terrorism           two to six months at the OCC learning about its exami­
(Arab Monetary Fund/IMF); Economic Stress Test             nation approaches and practices. They have partici­
ing (SEACEN); and Pillar II Implementation of the          pated in onsite examinations and learned about super­
                                                           visory data collection and analyses, supervisory infor­
Basel Capital Standards (Partnership for Financial
                                                           mation	technology,	and	banking	laws	and	regulations,	
Excellence in Middle East–North Africa).                   among other things. In 2008, the OCC will host two
                                                           CBRC	 interns	 and	 will	 provide	 them	 with	 insight	 into	
At the request of foreign supervisors, the OCC             the	supervision	of	bank	financing	in	rural	communities	
provides developmental assignments to foreign              and	into	OCC’s	economic	and	industry	research,	as	it	
                                                           relates	to	supervising	the	national	banking	system.
interns. The OCC hosted interns last year from
Korea, Singapore, and China with internships that
ranged from two months to one year. Russia, Aus
tria, Egypt, and Lebanon each sent small teams to
join OCC on bank examinations for two to three
weeks each.




FISCAL YEAR 2007                                                                                                           33
     China—U.S. Bank Supervisory
     Relationship Nurtured by Dugan Visit
     In March, Comptroller Dugan visited China to meet with members of the
     Chinese bank regulation community, as well as executives of U.S. national
     banks operating in China. Senior Deputy Comptroller for International and
     Economic Affairs Mark Levonian and Senior International Advisor Susan
     Hopkins accompanied him.

     The trip was designed to gain first-hand knowledge of China’s banking
     operating environment, and to promote supervisory cooperation with the
     OCC’s counterpart, the China Banking Regulatory Commission (CBRC).

     The Comptroller met in Beijing with CBRC Chairman Liu Mingkang to
     discuss issues of common interest, such as global liquidity, real estate
     markets, universal banking, and the implementation of Basel II. In a speech
     to the CBRC staff, the Comptroller spoke about the challenges of financial
     innovation, a topic particularly relevant to China’s rapidly changing banking
     and bank regulation system.

     “While each regulator faces certain challenges that are unique, other
     challenges are shared by all,” he said in his speech. “The candid exchange of
     experiences and approaches is likely to make all of us more effective.”

     Rural finance, a top priority of Chinese financial system reform, is one such
     challenge. In an effort to gain a deeper appreciation of rural Chinese financial
     conditions, Comptroller Dugan visited Shaanxi province, in the country’s
     heartland. While in Shaanxi, he met with the management of a rural credit
     cooperative, as well as the owner of a local corn starch manufacturing plant in
     a village served by the cooperative.

     Comptroller Dugan believes that effective supervision of U.S. branches of
     Chinese banks depends on effective communication with home country
     supervisors and home country management. The only U.S. branches of
     Chinese banks in operation are federal branches supervised by the OCC (Bank
     of China and Bank of Communications). During his meetings with Chinese
     regulators and bankers, the Comptroller discussed Chinese banks’ U.S.
     expansion plans.

     A visit to Shanghai enabled the Comptroller to meet personally with
     executives of U.S. national banks operating in China. They told him that while
     China still has a long way to go in reforming its financial system, the overall
     direction of reform is positive. They agreed that the Chinese financial system
     might not be ready for fast-paced, more radical changes, such as deregulation
     of interest rates or the removal of foreign exchange controls.

     “As China’s economy rapidly expands, its banking and bank regulatory
     system will continue to adapt to the demands of modernization,” said
     Comptroller Dugan. “It is in both our interests for them to continue their
     significant progress toward first-class, risk-based supervision. Our visit was
     part of our ongoing effort to do just that.”




34                                                             OCC ANNUAL REPORT
                   EVEnts

                             October 2006     OCC Signs Statement of Cooperation with Australian Prudential Regulation Authority

                             May 2007         OCC Holds Anti-Money Laundering and Anti-Terrorism Financing School for Foreign Bank
                                              Supervisors

                             August 2007      Foreign Bank Supervisors Attend OCC Operational Risk School

                             September 2007   OCC Sponsors and Hosts Second United States–China Banking Supervisors Conference

                                              OCC Attends Meeting of G–10 Governors and Heads of Supervision

                                              OCC Problem Bank Supervision School Offers Instructions to Foreign Bank Supervisors

                                              Comptroller Dugan Named Chairman of Joint Forum, a group of senior financial regulators
                                              from the United States, Canada, Europe, Japan, and Australia




FISCAL YEAR 2007                                                                                                          35
     COMMUNITY




36           OCC ANNUAL REPORT
VII.

Communities: The Bedrock
of a Strong National Economy
Community banks, central to the health and devel-       The OCC, too, takes a relationship approach to the
opment of the U.S. economy, are a mainstay of the       supervision of community banks. The OCC has 68
supervisory mission of the Office of the Comptrol-      supervisory offices around the country, staffed by
ler of the Currency. Nearly 1,700, or over 90 per-      people who live and work in those communities.
cent of banks in the national banking                                 The agency’s management structure,
system, are community banks. More                                     with only three levels between the
than 600 of those banks hold less than The community bank community bank examiner-in-charge
$100 million in assets. Approximately       perspective plays         and the Comptroller, promotes rapid,
two-thirds of the OCC staff and the         an important part         focused decision-making. With few
majority of the agency’s annual budget     in all areas of OCC
                                                                      exceptions, supervisory decisions are
are devoted to community banking.                                     made locally by OCC staff who know
                                            supervision—in its
                                                                      and understand the bankers they su
Locally owned, locally managed, and Large Bank program, pervise.
locally focused, community banks pro-         in mid-size and
vide the credit and personalized ser        credit card banks,        The relationship between community
vice that drive local economies. Small      and in formulating
                                                                      banking and the OCC goes back to
businesses receive 35 percent of their                                the very beginning of the agency’s
                                            supervisory policy.
commercial bank loans from commu                                      history, and continues to be central
nity banks. The OCC recognizes the                                    to its identity. “The truth is that OCC
critical role of local banks, and has a                               has almost 1,400 examiners out there
supervisory structure and approach to support this      who live, shop, vote, raise families, and have a per-
component of the financial services industry.           sonal interest in the economy of their state and re
                                                        gion,” Comptroller Dugan said.
One way OCC extends this support is in our evalu
ation of proposals to open new community banks
                                                        Community Banks and
or expand existing ones. Soundly conceived char-
                                                        Examinations: Setting Standards
ter proposals aid the community, and the OCC wel-
                                                        for Safety
comes the opportunity to work with organizers to
ensure that their proposed national banks, when ap-     The OCC examines community banks every 12 to
proved and opened, will succeed.	                       18 months using a risk-based, continuous supervi
                                                         sory process. In the course of its ongoing super-
Relationship banking is the key business model for
                                                         vision, OCC examiners review the adequacy of a
many smaller institutions. This model is driven by
                                                         bank’s policies, systems, and controls relative to
local ownership and direction, an emphasis on lo-
                                                         the character and complexity of a bank’s business,
cal decision-making, relating to customers on an
                                                         and evaluate whether the bank’s activities are being
individual basis, and exercising personal judgment
                                                         carried out in compliance with applicable consumer
on credit issues. The needs of the community, and
                                                         protection laws and regulations. Examiners typical-
individuals within that community, are the focus of
                                                         ly sample individual loans and other transactions
bank management.


FISCAL YEAR 2007                                                                                                37
     to validate their assessment of the bank’s systems,     decision or action until the appeal is resolved. In
     controls, and legal compliance. Depending on the        FY 2007, the Ombudsman’s office received a to
     bank’s risk profile and other supervisory informa       tal of 21 informal, formal and substantive inquiries
     tion, including consumer complaints, examiners          and more than 100 general inquiries.
     may target their reviews to a particular loan prod
     uct, business line, or operating unit.                  OCC Outreach and Education:
                                                             Creating a New Bank Director
     Communication is continuous, and includes formal
                                                             Workshop
     and informal meetings as well as reports of ex
     amination and other written material. The written       The OCC launched a new offering in April 2007 in
     materials detail findings from the ongoing super        its series of community bank director workshops.
     vision and targeted reviews. Violations of law or       The workshop, titled “A New Director’s Challenge:
     regulation, nonconformity with supervisory guid         Mastering the Basics,” is designed to appeal to di
     ance, and other significant problems typically are      rectors with less than three years of experience, as
     detailed as “matters requiring attention” (MRA).        well as to longer tenured directors who would like
     Examiners obtain management’s commitment to             to review the fundamental requirements of their po
     correct these deficiencies and track these MRAs         sition. This two-day workshop combines lectures,
     until resolution. OCC examiners expect MRAs to          discussions, and exercises on such subjects as un
     be corrected promptly, and without further action       derstanding the regulatory structure, creating effec
     by the OCC. Failure by bank management to do so         tive boards, identifying effective board processes,
     can lead to formal enforcement action.                  operating in a regulatory environment, overseeing
                                                             the audit function, working with examiners and the
     The supervisory process can be especially effec
                                                             report of examination, understanding the Uniform
     tive in addressing problems early, before they be
                                                             Bank Performance Report, and managing bank in
     come more widespread. In many instances, banks
                                                             formation.
     consult with OCC examiners about their plans
     before implementing them, so that any issues can        This workshop joins three other programs devoted
     be raised and addressed before missteps are taken.      to the core of the community bank supervision pro
     Examiners often are able to address potential con       cess: Risk Assessment, Credit Risk, and Compli
     sumer protection and safety and soundness issues        ance Risk. These workshops are offered around
     proactively with management through this ongoing        the country throughout the year and are geared pri
     supervision process.                                    marily to outside directors of national community
                                                             banks with assets of less than $1 billion. Manage
     OCC Measures Effectiveness                              ment directors also find the workshops beneficial.
     of Supervisory Process                                  Space is limited to 50 participants, so that open and
                                                             constructive dialogue can take place.
     The OCC assesses the effectiveness of the supervi
     sory process through an examination questionnaire,
                                                             Banks Help Meet
     administered by its Office of the Ombudsman. The
                                                             Community Needs
     questionnaire is provided to all national banks at
     the conclusion of their 12- or 18-month supervisory     The mutually supportive benefits of relationship
     cycle. The questionnaire is designed to gather direct   banking can extend indirectly to activities that may
     and timely feedback from bankers on the OCC’s           not be obvious to bank customers. When flood
     supervisory program.                                    ing occurred this year in Wisconsin, Minnesota,
                                                             Illinois, and Ohio, the OCC encouraged national
     The national bank appeals process is another meth
                                                             banks to reach out to affected customers. The agen
     od of feedback. It addresses disagreements aris
                                                             cy encouraged them to consider alternatives that
     ing from the supervisory process that cannot be
                                                             may include:
     resolved through informal discussions. National
     banks may appeal OCC decisions and actions to the       • Extending the terms of loan repayment.
     Office of the Ombudsman. With the consent of the
     Comptroller, the Ombudsman can stay a pending


38                                                                                     OCC ANNUAL REPORT
                   Comptroller Dugan and Chief of Staff Walsh
                   Participate in a Community Bank Examination
                   Downtown Newton, Iowa, about 170 miles east of Omaha, looks like
                   a lot of other small American towns. The bank occupies one corner of
                   the square, the courthouse is in the middle, and you can park at a meter
                   for l0 cents an hour. They don’t get too many people from Washington
                   out here, and certainly not many federal agency heads.

                   But for one week in May 2007, Comptroller of the Currency John
                   Dugan and Chief of Staff John Walsh accompanied an OCC exam
                   team—which included a group of OCC examiner-trainees—for a
                   hands-on introduction to community bank examination procedures.
                   It was an interesting week for the visitors and for the staff at the First
                   National Bank of Newton, a $75 million institution.

                   The Comptroller had emphasized that he wanted to be a contributor—
                   not just an observer. And so, with an experienced examiner at his
                   side, the Comptroller reviewed the bank’s wire transfers for Bank
                   Secrecy Act compliance, participated in the loan review process, and
                   helped enter exam findings into the OCC’s databases. He met with the
                   bank’s president to elicit his views on the examination process. The
                   Comptroller and Walsh then met with each member of the OCC exam
                   team to discuss supervisory strategies and review the exam findings.

                   On the final day, the Comptroller and Walsh attended the team’s
                   90-minute exit meeting where examiners discussed their conclusions
                   and recommendations with bank management and the board of
                   directors.

                   The Comptroller was impressed. “I really enjoyed working with the
                   exam staff and observing just how competent and professional our
                   examiners are at what they do,” he said. “I was pleased to observe our
                   commitment to rigorous ‘real world’ training of our newest hires—who
                   by the way performed very well despite the extra scrutiny from their
                   Washington visitors . . . Thanks to the entire team, my first bank exam
                   was an experience I’ll never forget,” the Comptroller said.




FISCAL YEAR 2007                                                                                39
     •	 Restructuring certain borrower’s debt obliga         engage in extensive training of their own person
        tions.                                               nel, so that they can provide the level of support
                                                             that small business customers require.
     •	 Easing credit terms for new loans to certain bor
        rowers.                                              The OCC works closely with national banks and
                                                             community organizations to bring financing and
     The OCC suggested measures that could help bor          retail services to underserved communities and
     rowers recover their financial strength and position    consumers. We conduct one-on-one consultations
     them to repay their debts. When these recovery ef       with lenders and organizers to assist in identifying
     forts work, they can contribute to the health of the    opportunities and resources to support community
     community and the long-term interests of the bank       development finance, sponsor conferences and
     and its customers.                                      workshops to promote the exchange of ideas and
                                                             information, and produce publications and Web-
     The OCC’s District Community Affairs Officers
                                                             based resources on innovative approaches banks
     (DCAOs), located in nine cities throughout the
                                                             have used to provide community development fi
     country, serve as a resource to national banks.
                                                             nancing and retail financial services to underserved
     These community development experts provide
                                                             populations.
     consultations to national banks seeking clarification
     on Community Reinvestment Act (CRA) qualified           Comptroller Brings Supervisory
     lending, investment, and service activities. They       Message to Communities
     assist with the identification of state, local, and
     community-based partnerships to promote commu           Since taking office in August 2005, Comptroller
     nity development. They can assist national banks        Dugan has logged thousands of miles meeting per
     seeking to form a Community Development Cor             sonally with national bankers all across America,
     poration or lending consortia, and offer assistance     learning first-hand about the issues that concern
     with Part 24 Community Development investment           them and about the work they do. To actually see
     filings.                                                the fruits of bankers’ investment in time, energy,
                                                             and capital, however, the Comptroller and OCC
     Working individually and in partnership with their      staff travel into the nation’s streets and towns,
     peers at the other federal financial regulators,        where creative partnerships between national banks
     DCAOs provide group training for bank CRA offi          and community development organizations are
     cers interested in obtaining up-to-date information     changing lives for the better every day.
     on assessing community needs, forming meaning
     ful partnerships with community groups, and cre         In November 2006, the Comptroller toured com
     ating a bank’s individualized CRA performance           munity development projects in the revitalized East
     context. The training forums facilitated by DCAOs       Liberty neighborhood of Pittsburgh, the birthplace
     allow access to regulatory training as well as an op    of what is now NeighborWorks America (NWA).
     portunity for national bank officers to learn from      NWA is a network of nearly 250 local community
     the best practices of their peers and engage in case    organizations that brings together residents, busi
     study exercises.                                        ness leaders, financial institutions, government of
                                                             ficials, and volunteers in support of community re
     The best national bankers see themselves as com         vitalization projects across the country. The Comp
     munity resources, especially for small businesses       troller and principals of the other federal regulatory
     that are often in need of financial and technical       agencies serve on its board of directors.
     support available nowhere else. Many banks use
     collaborative forums involving their government         The East Liberty neighborhood is bolstered by
     and community development organization partners         public welfare investments. The Comptroller met
     to learn about the credit and other needs of small      with members of the Pittsburgh Community Rein
     businesses and to develop ways of reaching those        vestment Group (PCRG) who have led the effort to
     that need assistance. In that connection, these banks   fund and implement these projects. As a result of




40                                                                                     OCC ANNUAL REPORT
                   OCC Facilitates Solutions
                   to a Branch Closing Dilemma
                   In response to the announced closing of several branches of national
                   banks in the Philadelphia area, the OCC Community Affairs division
                   sponsored three community meetings that offered bank customers
                   a forum for their concerns and fresh hope of obtaining alternative
                   banking facilities. The meetings were conducted under the auspices of
                   the Waters Amendment of the Riegle–Neal Act of 1994, which requires
                   the bank regulatory agencies to convene meetings of community
                   leaders and other interested persons to discuss the feasibility of
                   obtaining alternative banking facilities and services under such
                   circumstances.

                   The meetings took place in North Philadelphia, Coatesville, and
                   Linwood, Pennsylvania.

                   Nearly 100 private citizens sat alongside representatives of banks,
                   thrifts, and credit unions in a joint OCC-sponsored effort to explore the
                   credit needs of the residents and ways to alleviate the impact of branch
                   closings.

                   “Many people in town walk to their bank,” said Carolyn Johnson,
                   Executive Director for Community Impact Legal Services in
                   Philadelphia, during the Coatesville session. “It was a concern of
                   mine that these people would not have access to [the bank] any
                   longer . . . and this limits their choices.”

                   Joyce Taylor, the Executive Director of the Chester County Assistance
                   Office, noted that customers on public assistance often cash their
                   checks at that bank branch, where the assistance office has an account.
                   Most do not have bank accounts, so people rely on cashing their checks
                   at the bank, free of charge.

                   Barry Wides, OCC Deputy Comptroller for Community Affairs,
                   raised the possibility that other financial institutions would be willing
                   to accommodate people affected by the closing. “What I have seen
                   before is that financial institutions will agree to take customers at no
                   charge and hope they might gain them as a customer.” The meeting
                   led to discussion of several such possibilities, as well as consideration
                   of the community’s larger financial needs for low-cost checking and
                   deposit accounts, opportunities to refinance predatory loans, financial
                   education, and one-on-one counseling for homeowners to help them
                   avoid aggressive predatory lenders.




FISCAL YEAR 2007                                                                               41
     such support, development in the East Liberty area    year since 1999, in cooperation with contributing
     has already attracted more than $200 million and      national banks. The NeighborWorks America af
     created more than 400 jobs. PCRG is now turning       filiate, Neighborhood Housing Services of LA,
     to financial education and foreclosure counseling     has reinvested more than $63 million to improve
     programs to ensure that residents can sustain these   housing, create homeownership opportunities, and
     investments and their benefits to the community.      prevent predatory lending with the support of its
                                                           bank partners.
     Also in FY 2007, the Comptroller on two occa
     sions visited the nonprofit East Los Angeles Com      Several community development projects are the
     munity Union (TELACU), which has approved             result of national bank financing through low-in
     more than $2 million in small business loans each     come housing tax credits and new markets tax cred-




                              OCC Staff Join the Comptroller in Improving
                              D.C. Affordable Housing Complex
                              On June 2, Comptroller Dugan led more than 20 volunteers from the
                              OCC in landscaping an affordable housing complex in the Brentwood
                              neighborhood of Northeast Washington, D.C.

                              As part of National NeighborWorks’ Week 2007, the event represented
                              just one of hundreds of similar projects held throughout the country
                              involving thousands of volunteers. At this project, OCC staff, their
                              families, and friends worked alongside residents to improve the
                              grounds surrounding the Unity Gardens Condominiums, which Manna,
                              Inc., another member of NeighborWorks America, recently renovated.
                              The event also marked the 25th year that Manna, Inc., has worked to
                              help hundreds of low-income homebuyers purchase their first homes.

                              “The event was about making a difference in our community,” said
                              Comptroller Dugan. “As a D.C. native, I’m proud to participate in such
                              a worthwhile effort to support my community, and I share the personal
                              commitment that OCC volunteers, community residents, and Manna
                              staff demonstrated.”

                              In 25 years, Manna has produced more than 850 affordable homes
                              under its programs, which have accumulated more than $50 million
                              in equity for program participants. The Unity Gardens Condominiums
                              project combines housing development and design with human service
                              programs to promote homeownership through pre-purchase counseling,
                              asset-building, and job training.

                              Each year the Comptroller and OCC staff members volunteer in
                              a NeighborWorks’ Week project to make a difference in the local
                              community and demonstrate the agency’s commitment to community
                              reinvestment and redevelopment. Many projects have resulted from
                              Community Reinvestment Act credits and have involved community
                              reinvestments from national banks or their community development
                              corporations.




42                                                                                 OCC ANNUAL REPORT
its using the public welfare investment authority.      Community Banks and the
The Comptroller said, “These investments support        Global Economy
critically needed urban revitalization, rural redevel
opment, and job creation. They do so in a manner        Today, even small community banks find them
that not only benefits the communities served, but      selves drawn inexorably into the global economy—
also enjoys a solid track record of profitability and   a trend that offers opportunities and challenges for
safety and soundness.”                                  them, as it does for their customers. Small com
                                                        munity banks—those of $100 million in assets or
These accomplishments, and the need for addition        less—are probably not as affected by the trend to
al resources, led the OCC to support an increase in     ward globalization as larger institutions. But their
the level of bank investments permitted under the       roles, like the lives of their customers, are chang
Part 24 public welfare investment authority, from       ing.
10 percent to 15 percent of a bank’s capital and sur
plus. This increase, which was authorized by Con        Community banks are adjusting to tighter margins
gress in the Financial Services Regulatory Relief       and tougher competition. For example, over the
Act of 2006, opens the door to substantial new pri      past 10 years, commercial real estate loans doubled
vate investment, as banks work together with their      in community and mid-size banks. Some of these
community partners to revitalize and stabilize com      loans went to Americans who were starting busi
munities and promote the public welfare.                nesses to serve rising immigrant populations—
                                                        populations who went on to borrow and start
New market tax credit financing was used recently       businesses of their own. Community banks added
to renovate a former department store, vacant for       foreign-language-speaking personnel to serve the
more than 20 years, and located in a downtown           new clientele from foreign countries; some of these
commercial district. A nonprofit developer received     bank employees became founders of the minority-
a senior loan of $11.3 million and a subordinated       owned national banks that are the pride of their
loan of $2.8 million from a national bank-owned         communities—and the country—today. In this way
community development entity to restore an ap           community national banks not only promote the
proximately 140,000-square-foot building as a           well-being of their customers, but also that of the
business incubator that will include space for a        entire national economy.
biotechnology life sciences facility. The project
will add laboratory and custom-designed space to
accommodate high-tech, biotechnology, and bio
medical business start-ups and ultimately house
as many as 65 start-up companies at one time. The
tenants and incubator “graduates” have combined
annual sales of $127 million as of 2004 (the most
recent year for which data are available). The busi
nesses are projected to have created jobs for 775
people by 2007.




FISCAL YEAR 2007                                                                                               43
     EVEnts

               January 2007     OCC Releases CRA Evaluations for 36 National Banks

               February 2007    Comptroller Dugan Hosts Workshop for New Community Bank Directors in
                                Washington, D.C.

               March 2007       OCC Publishes Newsletter Highlighting Community Development Venture Capital
                                Investment Opportunities

               April 2007       Comptroller of the Currency Hosts Community Bank Directors Workshop on
                                Compliance Risk in Tulsa, Oklahoma

               May 2007         Agencies Release List of Distressed or Underserved Nonmetropolitan Middle-Income
                                Geographies

                                OCC Volunteers Help to Improve an Affordable Housing Property in Northeast
                                Washington, D.C.

               June 2007        Comptroller of the Currency Hosts Community Bank Directors Workshops in
                                Houston, Texas

                                Agencies Release Proposed Revisions to Interagency Questions and Answers
                                Regarding Community Reinvestment

               July 2007        Comptroller of the Currency Makes Statement Regarding Community Reinvestment
                                Act Questions and Answers

                                OCC Chief of Staff Addresses Minority-Owned Financial Institutions

                                Comptroller Distributes Booklet to Help Banks Fight Child Pornography

               August 2007      Comptroller of the Currency Hosts Community Bank Directors Workshop on
                                Compliance Risk in Lexington, Kentucky

               September 2007   Comptroller of the Currency Hosts Community Bank Directors Workshops on Credit
                                Risk in Grapevine, Texas




44                                                                                          OCC ANNUAL REPORT
FISCAL YEAR 2007   45
     CONSUMER




46          OCC ANNUAL REPORT
VIII.

Consumers: Promoting Fairness and
Transparency
A generation ago, commercial banks were not the         rights and responsibilities as bank customers; and
leading suppliers of financial services to retail cus   coordinate our efforts with other financial regulato
tomers. But times have changed. Today’s national        ry agencies to promote seamlessness and efficiency
banks are leaders in the delivery of the innovative     in addressing consumer needs.
products and services consumers rely on to achieve
their financial goals and to function effectively in    The increasing importance of retail banking to the
our increasingly complex global economy.                national banking system, its customers, and the
                                                        economy whose health they support combined to
Retail banking itself has assumed an increasingly       make FY 2007 a year of important initiatives by the
global dimension, reflecting not only the diversity     OCC in each of these areas.
of our nation’s population, but also the growing
presence of Americans living, traveling, working,       Consumer Protection
and using financial services abroad.                    through Bank Supervision
As retail banking has grown in importance, so has
                                                        Nontraditional and
consumer protection become a more prominent part
                                                        Subprime Mortgage Guidance
of the OCC’s mission. The OCC pursues this mis
sion in three distinct but interrelated ways. First,    Changes in housing finance represent a good il
we promote consumer protection through our su           lustration of the changes that have taken place in
pervisory program. In that connection, we develop       the retail financial services landscape. A variety of
consumer protection standards, conduct rigorous         complex mortgage products have become avail
examinations of national banks to ensure that they      able, through a wide variety of providers. Indeed,
are complying with all applicable consumer protec       a homebuyer’s mortgage process may take place
tion laws and regulations, and take enforcement ac      today entirely outside traditional channels: the bor
tions when we are unable to achieve compliance by       rower may use an independent mortgage broker
other means.                                            to arrange his or her loan, which is then packaged
                                                        through a Wall Street conduit and sold to a third
Second, the agency seeks to promote transparency        party investor who may or may not reside in the
in the financial system by getting more and better      United States.
information into the hands of consumers, whether
from national banks or the OCC itself.                  While these changes have expanded access and
                                                        choice for consumers seeking a mortgage, they
Finally, the OCC assists consumers by maintaining       have also resulted in less desirable outcomes. Some
a state-of-the-art process for addressing their bank-   consumers have obtained mortgages on terms they
related complaints.                                     may not have fully understood or that they can
                                                        not afford. There has also been a rise in mortgage
In each of these ways, we work to maintain high
                                                        fraud.
standards of customer service in the national bank
ing system; help consumers better understand their


FISCAL YEAR 2007                                                                                                47
     Some nontraditional mortgage (NTM) products,              gages are originated by lenders and brokers regu
     designed to help borrowers cope with rising home          lated exclusively by the states, the Comptroller has
     prices, involved relaxed underwriting standards           stressed the need for state authorities to enact stan
     that increased risk for both borrowers and lend-          dards comparable to that in the federal guidance,
     ers. The OCC carefully monitored developments in          and has applauded efforts by the Conference of
     this segment of the market, and in 2005 initiated a       State Bank Supervisors and the American Associa
     process that resulted in the release of interagency       tion of Residential Mortgage Regulators to encour
     guidance on NTM products, which took effect on            age states’ adoption of these guidelines.
     October 4, 2006.
                                                               Mitigating the Impact
     The guidance addressed the need for financial in-     of Mortgage-Market Turmoil
     stitutions to provide timely, clear, and balanced
     consumer information about NTM products, in-          Although they originated a relatively small share
     cluding information about the possible adverse        of subprime mortgages, national banks and their
     consequences of these loans, such as payment          customers have been affected by problems in the
     shock and negative amortization. It stipulates that   mortgage markets.
     this information should be provided
                                                                      One area in which the agency took an
     to consumers when they are shopping
                                                                      active role was in encouraging more
     for a loan—that is, when that infor-      With the help of a
                                                                      timely and constructive contact be
     mation is most likely to be of greatest    partnership with
                                                                      tween troubled borrowers and their
     practical value. In addition, the guid-    NeighborWorks
                                                                      lenders. Understandably, borrowers
     ance provides that information con-
                                                America and the       having trouble making their mortgage
     cerning choices in payment options
                                                 Ad Council, we       payments are often reluctant to talk
     should be provided to the consumer
                                                 reached out to       about it. Yet we know that such reti
     with every monthly statement on a
                                                                      cence tends only to make the matter
     payment option adjustable-rate mort- borrowers, releasing
                                                                      worse. For those who fall behind, or
     gage (ARM).                              two public service
                                                                      think they are likely to fall behind, it is
                                                announcements
     The OCC also worked with the other                               important to reach out and make con-
                                                     aimed at
     federal banking agencies to provide                              tact with their lenders and mortgage
     guidance on certain types of sub-            encouraging         servicers as soon as possible, so that
     prime mortgage loans, including the     delinquent  borrowers    alternative arrangements can be dis
     so-called “2-28” and “3-27” hybrid       to contact lenders      cussed before it is too late.
     ARM products. This guidance was              for help to avoid
                                                                           To address this need for greater open-
     issued on June 29, 2007. It describes           foreclosure.
                                                                           ness and communication, the OCC
     prudent safety and soundness and
                                                                           took two important steps. With the
     consumer protection standards that
                                                                           help of a partnership with Neighbor-
     institutions should follow to ensure
                                                                           Works America and the Ad Council,
     borrowers can afford to repay the loans they obtain.
                                                              we reached out to borrowers, releasing two public
     These standards include a fully indexed, fully am-
                                                              service announcements aimed at encouraging delin
     ortized qualification for borrowers and cautions on
                                                              quent borrowers to contact lenders for help to avoid
     risk-layering features, including an expectation that
                                                              foreclosure. These audio and video ads, targeted at
     stated income and reduced documentation should
                                                              areas where delinquencies are on the increase, call
     be accepted only if there are documented mitigat-
                                                              viewers’ attention to a toll-free hotline staffed by
     ing factors that clearly minimize the need for verifi-
                                                              housing counselors from agencies approved by the
     cation of a borrower’s repayment capacity.
                                                              U.S. Department of Housing and Urban Develop-
     Both the subprime guidance and the nontraditional        ment.
     mortgage guidance apply only to federally regu
                                                               Another initiative involved outreach to mortgage
     lated financial institutions and their affiliates. Yet,
                                                               servicers. In June the OCC published a report on
     because the majority of NTMs and subprime mort-
                                                               best practices in the loan servicing sector, designed


48                                                                                       OCC ANNUAL REPORT
to improve the quality and timeliness of the contact     qualify banks for favorable consideration under the
with delinquent mortgage borrowers. The OCC’s            Community Reinvestment Act.
report, Foreclosure	 Prevention:	 Improving	 Con
tact	with	Borrowers, highlighted the growing role        The kind of restructuring that can be beneficial in
of partnerships between lenders and nonprofit third      dealing with troubled borrowers is no longer as sim
parties to provide counseling services to at-risk ho     ple as it was when originators and servicers tended
meowners and reported on the strategies being em         to hold those loans in portfolio to maturity, how
ployed successfully around the country to establish      ever. Today, it is far more common for both prime
contact, reduce financial hardship on borrowers,         and subprime mortgages to be bundled into securi
and reduce losses for lenders.                           ties, which are typically resold to investors in the
                                                         secondary market. To help address this increasing
In conjunction with both federal and state finan         complexity, the banking agencies, in a statement is
cial regulatory agencies, the OCC in April issued a      sued in September 2007, encouraged servicers to
release reminding banks that they are not required       use the authority that may exist under securitiza
under existing regulations and accounting standards      tion governing documents to take appropriate steps
to foreclose immediately when a borrower falls be        when an increased risk of default by a borrower is
hind on payments. The release pointed to the po          identified, and to explore, when appropriate, a loss
tential benefits for lenders when they make alterna      mitigation strategy that avoids foreclosures. Such
tive arrangements, such as modifying loan terms or       strategies may include deferring payments, extend
moving borrowers from variable-rate to fixed rate        ing maturities, or converting adjustable-rate loans
loans. Such restructuring, the release pointed out,      into fixed-rates. But whatever solution is adopted,
not only offers lenders the possibility of returning     the guidance emphasizes that it be an affordable
troubled loans to performing status, but may also        solution.


                          Dugan Receives “Making-the-Difference”
                          Award from Credit Counseling Foundation
                          Citing his commitment to financial literacy and education, the National
                          Foundation for Credit Counseling gave its annual “Making-the-Difference”
                          Award to Comptroller Dugan.

                          Comptroller Dugan used the occasion of the award presentation to express
                          his concern about the growing number of Americans facing the threat of
                          foreclosure, especially those holding subprime mortgages. Although national
                          banks are relatively less involved in that segment of the mortgage market,
                          the OCC has been a leader in developing strategies to bring at-risk borrowers
                          together with lenders and housing counselors. The agency has been creative
                          in gathering new ideas and developing regulatory incentives for lenders to
                          restructure loans so that people falling behind on their payments can stay in
                          their homes.

                          In his acceptance speech, Comptroller Dugan hailed the work of organizations
                          such as the Center for Foreclosure Solutions, which was established with the
                          help of contributions from national banks, as well as Fannie Mae, Freddie
                          Mac, and others. He challenged lenders and loan servicers that are not
                          federally regulated to “make similar contributions to assist borrowers to avoid
                          foreclosure wherever feasible.”

                          “It is not enough to achieve home ownership,” Dugan concluded. “We—all
                          of us operating in our respective roles—have to work hard to sustain home
                          ownership.”




FISCAL YEAR 2007                                                                                                49
     Protecting Consumer Privacy                             fair lending laws and regulations, our examination
                                                             guidance directs examiners to assess fair-lending
     Helping to protect bank customers against identity
                                                             risk during each supervisory cycle. While regular
     theft and unauthorized access to sensitive customer
                                                             risk assessments serve as the cornerstone for setting
     information is a high priority for the OCC and the
                                                             a fair-lending supervisory strategy for each national
     banking community. The OCC was an active mem
                                                             bank, this process is complemented by an annual
     ber of the President’s Identity Theft Task Force,
                                                             fair-lending screening process that helps to identify
     helping to craft a strategic plan to improve the fed
                                                             banks that may have high potential for fair-lending
     eral government’s efforts in preventing, detecting,
                                                             risks.
     and prosecuting identity theft.
                                                             A strong examination regimen is crucial to main
     Through the examination process, the OCC moni
                                                             taining the integrity of our fair lending program,
     tors national banks’ compliance with applicable
                                                             and we took several actions to ensure that our su
     security and privacy laws, regulations, and super
                                                             pervisory guidance and examination procedures
     visory guidelines. During the past year, an area of
                                                             remain effective and up to date. For example, new
     focus has been banks’ compliance with the inter
                                                             procedures addressed provisions in the Fair Credit
     agency guidance on “Authentication in an Internet
                                                             Reporting Act that generally prohibit creditors from
     Banking Environment.” Evidence shows that na
                                                             obtaining and using medical information in connec
     tional banks have taken positive steps to strengthen
                                                             tion with any determination of a consumer’s eligi
     their authentication processes and improve the se
                                                             bility for credit. We also updated our procedures to
     curity posture of their Internet and electronic bank
                                                             reflect changes made to the regulation that address
     ing environments. Indeed, the introduction of more
                                                             concerns about the uniformity and adequacy of in
     robust measures to authenticate customers has al
                                                             formation provided to consumers when they over
     ready led to an appreciable decline in the number of
                                                             draw their deposit accounts. These procedures pro
     successful hacker attacks on national banks and on
                                                             hibit misleading advertisements, and impose new
     the fraudulent use of information obtained through
                                                             disclosure requirements about fees and other terms
     phishing.
                                                             for overdraft services.
     When national banks violate applicable rules and
     regulations safeguarding consumer privacy, the          Consumer Protection
     OCC takes action. For example, we collaborated          through Public Information
     with a county prosecutor to obtain prohibition or
                                                             A free flow of information has always been at the
     ders against bank employees who were paid by a
                                                             heart of a well-functioning financial system, and
     third party to gather confidential information on se
                                                             the OCC has long been committed—both through
     lected bank customers. The third party, in turn, sold
                                                             its own public communications programs and its
     the confidential customer information to law firms
                                                             initiatives to improve bank disclosures—to increas
     for collection purposes.
                                                             ing the quality of the information available to bank
     As a result of OCC guidance, supervision, and en        customers. Only with clear and complete informa
     forcement actions, customers have reason to feel        tion can consumers be expected to understand their
     more secure that their confidential financial infor     rights and responsibilities and to make the best
     mation is being adequately safeguarded in the na        financial decisions in their own interests. Well-
     tional banking system.                                  founded decisions, in turn, promote healthy compe
                                                             tition among financial providers—competition that
     Fair Lending                                            promotes efficiency, high service standards, and re
                                                             duced costs to bank customers. And, as Comptrol
     The OCC has a strong commitment to ensuring that        ler Dugan noted in testimony before a subcommit
     national banks comply with fair lending laws and        tee of the House Financial Services Committee in
     that consumers who seek credit from national banks      June, by exposing unsavory and abusive business
     are evaluated based on legitimate, non-discrimina       practices to the glare of public scrutiny and criti
     tory factors. Because of the importance the OCC         cism, public information also helps to expose and
     places on ensuring that national banks comply with      root out those practices, making providers “think


50                                                                                     OCC ANNUAL REPORT
long and hard about the costs of such practices be      That release marked a major step in an important
fore implementing them.”                                process to determine through controlled research,
                                                        using consumer focus groups, how to construct
OCC Initiatives To Improve Bank                         a model prototype privacy notice that would ef
Disclosures                                             fectively present the information required by the
                                                        Gramm-Leach-Bliley Act on how financial service
In order for them to achieve their fundamental pur
                                                        providers protect, use, and share personal informa
poses, bank disclosures must meet minimum stan
                                                        tion. This research yielded data on the language and
dards of timeliness, completeness, and clarity. Yet
                                                                      design of a prototype disclosure form
disclosures have often fallen short in
                                                                      that people found easy to read, under
one or more of these areas. They typi-
                                                                      stand, and use. With the help of the
cally arrive in multiple pages of small     “My take on all 	
                                                                      feedback from consumers, industry
print, in language that the average       this is that there is
                                                                      groups, and others that we solicited in
consumer is likely to find difficult to    plainly a state of
                                                                      FY 2007, the participating agencies—
comprehend. In some cases, disclo- disequilibrium when it
                                                                      which include the Federal Reserve,
sures do not adequately describe all comes to consumer
                                                                      the Commodity Futures Trading Com
relevant practices and do not present
                                         protection for credit mission, the FDIC, the Federal Trade
the information that consumers need
                                         cards,” Comptroller          Commission, NCUA, the Securities
for making informed choices in a
                                                                      and Exchange Commission, and the
straightforward and useful manner.         Dugan said. “The
                                                                      OTS, as well as the OCC—are a step
                                             system needs
Credit card disclosures highlighted                                   closer to implementing this standard
                                                 fixing.”	
these deficiencies. Considerable con                                  ized disclosure notice.
troversy has come to surround credit
                                                                       Yet even credit card disclosures that
card marketing and account manage
                                                                       meet the highest standards of clarity
ment practices. This is partly the result of Ameri
                                                         and timeliness may offer small consolation to con
cans’ growing reliance on this unique form of unse
                                                         sumers if the card’s policies do not provide a real
cured credit, and partly because of the ways issuers
                                                         choice in the face of a disclosed rate hike on a bal
have gone about managing the risk that increased
                                                         ance that is too large to pay off or if the customer
exposure entails. Full and clear disclosure is crucial
                                                         lacks options for rolling over the balance to another
if cardholders understand the terms of their credit
                                                         credit card lender.
contract and the terms being offered by competit
ing credit card banks to make well-informed credit       That’s why Comptroller Dugan, in a September 27,
choices.                                                 2007 speech, urged the Federal Reserve to include
                                                         among the contemplated changes to its Truth in
Credit card disclosures have often fallen short of
                                                         Lending rules a provision that would allow con
these demands. Although credit card terms, mar
                                                         sumers 45 days to “opt out” of an increase in the
keting, and account management practices have
                                                         interest rate on a credit card, unless the increase
changed dramatically, disclosure requirements, as
                                                         resulted from the consumer’s own failure to make
mandated by Federal Reserve Regulation Z, have
                                                         required payment on that card. Under the proposed
not. As a result, innovative credit card practices—
                                                         provision, consumers would be free to keep the out
in particular, such practices as “universal default”
                                                         standing balance at the old rate, with a requirement
and “double cycle billing”—have been especially
                                                         to pay off the balance or roll it over to another card
difficult for consumers to understand, since they
                                                         within a reasonable period. This approach would
are not addressed in the current disclosure regime.
                                                         help address one of the practices consumers find
Clearly, those rules need updating.
                                                         most objectionable: so-called “retroactive” pricing.
The Federal Reserve’s Truth in Lending initia            “My take on all this is that there is plainly a state
tive is focusing on the form as well as the content      of disequilibrium when it comes to consumer pro
of bank disclosures. Pioneering work in that area        tection for credit cards,” Comptroller Dugan said.
came to partial fruition in FY 2007 when the agen        “The system needs fixing.” The OCC’s new pro
cies issued a rule on consumer privacy disclosures.      posal is an important step in that direction.


FISCAL YEAR 2007                                                                                                  51
     OCC Public Information Initiatives                     ing money up-front, ostensibly to eliminate debt.
                                                            Borrowers have been told they can wipe out their
     People who believe they are at risk of losing their
                                                            debts by claiming a non-existent arbitration award,
     homes are particularly vulnerable to predatory
                                                            by asserting that a contract or note is illegal and
     lenders who exploit that fear. A rise in financial
                                                            therefore not binding, or by drawing on a spurious
     fraud directed toward at-risk borrowers led the
                                                            federal government “trust account.” What these and
     OCC to take steps to raise public awareness of the
                                                            other schemes described in the alert have in com
     schemes that seem to proliferate in difficult times.
                                                            mon is that borrowers who fall for them inevitably
     For example, we issued one in a series of Consumer
                                                            wind up in a deeper hole than before.
     Alerts in response to consumers who received so
     licitations about so-called “Community Reinvest        When financial fraud surfaces, the OCC acts to
     ment Act” loans, purportedly entitling certain ho      root it out, both by supervising banks rigorously
     meowners to cash grants or equity disbursements.       and by alerting consumers before they become its
     A September 2007 alert catalogued a whole range        victims. One form of fraud in which there was a
     of programs designed to entrap borrowers into pay      marked increase in 2007 involved cashier’s checks.



                               OCC Acts To
                               Root Out Mortgage Fraud
                               At a time of turmoil in mortgage lending, it is particularly important
                               that market participants play by the rules. One case that led to an OCC
                               enforcement action involved two employees of a bank’s mortgage
                               subsidiary allegedly involved in a scheme with a land developer to find
                               buyers for the developer’s properties.

                               A loan officer and his wife, both mortgage processors, allegedly
                               submitted false and misleading loan applications to the bank to obtain
                               mortgages for 64 low-income first-time homebuyers to buy homes from
                               the developer. Many of the borrowers received mortgages for which
                               they would not have otherwise qualified. The loan officer also allegedly
                               submitted a number of Federal Housing Administration housing
                               counseling forms, falsely representing that the prospective buyers had
                               received counseling designed to prepare them for home ownership, to
                               qualify the loans for a reduced interest rates. In fact, none of the buyers
                               received such counseling.

                               The mortgage processor allegedly prepared a U.S. Department of
                               Housing and Urban Development Addendum to each loan application
                               and certified that the information supporting the addendum was accurate
                               and obtained from the buyer when she and the loan officer knew that
                               much of the information was false and had been obtained from the land
                               developer. The loan officer received approximately $20,000 in increased
                               commissions and bonuses from the bank and kickbacks of $500 for
                               each loan approved. When borrowers defaulted, the bank incurred loan
                               losses of approximately $1 million. The OCC issued a prohibition order
                               against the loan officer, required him to pay $460,375 in restitution to
                               the bank, and assessed a $100,000 civil money penalty. The mortgage
                               processor consented to a prohibition order and a $20,000 CMP.




52                                                                                   OCC ANNUAL REPORT
Individuals receive notification that they have won      tions, including inactivity fees and expiration dates
a foreign lottery or have been designated the ben        that can erode the cards’ value. To avoid unpleas
eficiary of someone’s estate, and that the proceeds      ant surprises, our release suggested that consumers
will be passed along as soon as fees or taxes are        consult either the disclosure statements that accom
paid. A cashier’s check is provided to cover those       pany cards or the offerer itself to determine what
charges, and the individual is asked to deposit the      conditions, if any, might apply to the gift card. To
check and then wire the required amount, invari          ensure consumers get this important information,
ably to a foreign country, once the check clears.        the OCC prepared and distributed audio and print
Or, in another common scam, an individual sells          announcements that ran 965 times in 38 states,
something on the Internet and receives a cashier’s       reaching a potential audience of 87 million people.
check that is greater than the purchase price. The
seller is instructed to deposit the check and wire the   Gift cards and even credit cards are simple products
excess once it clears, keeping some of the amount        compared to today’s mortgage loans. Some hom
to “compensate” for his or her trouble.                  eowners who took out interest-only or payment-
                                                         option loans two or three years ago, thinking only
What scammers seek to exploit in these cases is          about the initially low monthly payment, may have
the lag between the time that funds are made avail       received an expensive and depressing education in
able after the check is deposited and the time that it   the realities of the mortgage marketplace. For ex
takes to ascertain whether that check is legitimate      ample, some borrowers have learned the hard way
or fraudulent. Under Federal Reserve Regulation          the meaning of such terms as “negative amortiza
CC, banks must make funds available the follow           tion.” The challenge is to ensure that before bor
ing day when they are drawn on a cashier’s check.        rowers enter into such commitments, they do un
By contrast, wire transfers are instantaneous and        derstand this terminology and have carefully con
irreversible, and depositors who have wired good         sidered whether these products are right for them.
funds to fraudsters only to be informed later that
the cashier’s check that they deposited was fraudu       To aid them in making these decisions, the federal
lent are usually out the money.                          banking agencies published a new brochure on the
                                                         subject. Interest-Only	 Mortgage	 Payments	 and	
The OCC attacked this emerging problem on two            Payment-Option	 ARMs—Are	 They	 for	 You? con
fronts. A supervisory bulletin to bankers alerted        tains a glossary of lending terms, a mortgage shop
them to the risks associated with fraudulent ca          ping worksheet, and a list of additional information
shier’s checks and offered recommendations for           sources. It stresses the importance of understand
managing these risks and protecting their custom         ing the risks and benefits of these nontraditional
ers. The agency also issued a Consumer Advisory          mortgage products, and urges borrowers to be real
that received widespread notice in media stories on      istic in assessing their ability to face the “payment
the problem.                                             shock” that can result when these loans readjust. By
                                                         providing this information—and the agencies made
Sounding the alarm about financial fraud was only        it widely available to consumer groups, financial
one way that the OCC delivered on its commitment         institutions, agencies, and other organizations—the
to transparency and a more literate financial con        OCC hopes to enable mortgage shoppers to make
sumer in 2007. Our main effort went into placing         sound financial decisions that will keep them safely
into consumers’ hands—either through OCC dis             in their homes.
tribution or through improved disclosures by the
banks we supervise—better and more complete              Thorny questions can arise even over conventional
information about bank policies, products, and ser       fixed rate, 30-year mortgages, and, with the multi
vices.                                                   tude of products, providers, and regulatory authori
                                                         ties that characterize our modern banking system,
At the start of the 2006 holiday season, for exam        it can be difficult for consumers to know where
ple, the OCC issued a release reminding consumers        to turn with their questions. It was to answer that
to consider the terms and conditions that apply to       need—to provide a one-stop, central clearinghouse
gift cards—an increasingly popular option for gift-      where consumers can search comprehensively for
givers. But some cards come hedged with condi


FISCAL YEAR 2007                                                                                                 53
     reliable information—that the OCC launched Help-       counts,” “loans and credit cards,” “insurance,” and
     WithMyBank.gov. This Web site, which was wide          “other topics”—and provided short, easy-to-under
     ly hailed by consumer groups for its user-friendly     stand answers, along with links and references for
     interface, offers an extensive list of questions and   further information. The agency also provided a list
     answers, drawn from the actual experience of the       of national banks and their operating subsidiaries,
     OCC’s customer complaint specialists—people            a list of OCC consumer advisories, and an option
     who speak to thousands of national bank customers      that allows the user to generate a formal complaint
     each year. The agency assembled the most common        to the OCC.
     questions, organized them by topic—“bank ac




                               Consumers Help Themselves
                               with a Click
                               There’s never been a single spot for consumers to turn to when
                               they had a general question about how banks process checks and
                               overdrafts, what to do in the event they lose a credit card, how to
                               deal with a problem of identity theft, or what to do when confronted
                               with a host of other banking issues. But with the launch of the OCC’s
                               HelpWithMyBank.gov, that has changed.

                               “We created HelpWithMyBank.gov with national bank customers in
                               mind,” Comptroller Dugan said. “Our goal was to build a site that
                               makes it easier for people to get answers and submit concerns about
                               their bank because we are committed to ensuring fair access to financial
                               services and equal treatment for national bank customers.”

                               While targeted to national bank customers, the site answers many
                               questions common to consumers of all financial services companies
                               and provides useful information about contacting regulators of
                               institutions other than national banks.

                               “HelpWithMyBank.gov presents information in straightforward, easy-
                               to-use terms. It lets consumers answer questions online that previously
                               required a phone call to the OCC Customer Assistance Group,” said
                               OCC’s Ombudsman Samuel P. Golden.

                               The launch concluded six months of work and more than a year
                               of planning. The site is one of the agency’s steps in creating more
                               accessible services for consumers. “The OCC will continue to
                               enhance HelpWithMyBank.gov with information and features,” said
                               Comptroller Dugan. Future enhancements include an online complaint
                               submission process, enhanced “Frequently Asked Questions” functions,
                               and a referral process to share complaints with other regulators to
                               ensure that consumers’ concerns reach the right agency.




54                                                                                   OCC ANNUAL REPORT
Consumer Protection                                   We further increased our complaint-handling ef
through Complaint Resolution                          ficiency by bringing additional banking organiza
                                                      tions on to CAGNet, our Web-based government-
The third pillar of the OCC’s approach to consum      to-business consumer complaint delivery applica
er protection rests on a state-of-the-art consumer    tion. Currently, almost 90 percent of our complaint
complaint resolution process. FY 2007 was a year      volume travels over CAGNet.
of refinement in that process, as the OCC addressed
a frequent source of frustration for consumers who    Case loads in FY 2007 reflected a slight decline
were unsure just where their bank-related com         compared to the previous year. As shown in table
plaint needed to be lodged.                           8, we handled about 67,000 cases, of which nearly
                                                      29,000 were complaints (as compared to inquiries).
The OCC’s Customer Assistance Group, or CAG,          The result was more than $8 million in relief for
is centralized in Houston, Texas, under the direc     national bank customers. This adds to the total of
tion of the agency’s Ombudsman. The OCC has           more than $30 million of such relief over the last
invested heavily in sophisticated technology and in   five years.
the people who staff the CAG. CAG managers have
an average of 25 years of regulatory or industry ex   CAG’s contribution to consumer protection doesn’t
perience, and CAG staff has an average of 10 years    end with the resolution of consumer complaints.
of experience. This means that callers with com       The OCC is unique in the way we use the infor
plex questions can reach competent, experienced       mation obtained and analyzed by CAG in support
professionals. And they can reach them during a       of our bank supervisory activities. Through an in
newly expanded, 12-hour business day.                 ternal, Web-based system called CAGWizard, ana
                                                      lysts extract complaint data, sort and analyze the



                         Comptroller Showcases
                         OCC Consumer Complaint Process
                         Thousands of Americans have had their complaints against national
                         banks resolved through the OCC’s Customer Assistance Group (CAG)
                         in Houston, Texas. But not many of them know how it happens or how
                         the process actually works.

                         To provide an audience of Washington insiders with a look at the
                         lifecycle of a consumer complaint, Comptroller Dugan walked them
                         through it, in a January speech before a joint meeting of the Exchequer
                         Club and Women in Housing and Finance. Comptroller Dugan began
                         by talking about the OCC’s commitment to the people and technology
                         that are so essential to CAG’s effectiveness.

                         He then walked the audience through a hypothetical case. Using the
                         OCC’s “Remedy” software, Dugan demonstrated how the complaint
                         was ushered by the OCC to the bank for a resolution.

                         The Comptroller emphasized that the value of the CAG process goes
                         beyond helping consumers. The OCC uses that data in various ways
                         to inform the supervisory process. The data is analyzed and made
                         accessible to OCC examiners, schedulers, policymakers, attorneys, and
                         others. And CAG staff uses it to provide feedback to banks on practices
                         that need improvement.




FISCAL YEAR 2007                                                                                            55
     information, and generate custom reports that bank      that process takes time, it is sometimes constrained
     examiners use regularly in their examination of in      by privacy restrictions, and it has afforded few sys
     dividual banks. To inform the OCC’s supervisory         tematic opportunities to follow up on the disposi
     strategies and policies, we use complaint trends for    tion of complaints that have been referred.
     individual products, such as home mortgages and
     credit cards. This data enables us to better time and   That’s why the OCC took the initiative to develop
     focus examinations, target areas of potential con       procedures for the exchange of consumer complaint
     cern, develop annual risk assessments of banks, and     information with state banking departments. In No
     formulate supervisory guidance. And when we see         vember 2006, this initiative bore fruit. The OCC
     individual complaints or patterns of complaints that    reached an agreement with the Conference of State
     could indicate inappropriate or unfair and decep        Bank Supervisors (CSBS) on a model Memoran
     tive practices, OCC lawyers are called in.              dum of Understanding (MOU) designed to ensure
                                                             that misdirected complaints are sent to the appro
                                                             priate agency and that agencies can track the status
     Complaint Sharing
                                                             of a referred complaint and resolve it in a more ef
     Many of the complaints received by CAG concern          ficient manner. Two weeks later, New York became
     institutions not regulated by the OCC. Our sister       the first state to sign the MOU, thus endorsing the
     agencies at the federal and state level have also had   principle that the burden should not be on consum
     to deal with a significant number of misdirected        ers to know which agency regulates their financial
     complaints. In general, their response has been the     institution. Since then, 27 others states, plus Puerto
     same as ours: to come up with ad hoc procedures         Rico, have signed the MOU.
     for getting these complaints into the hands of the
     appropriate regulatory agency. Last year alone, the     This is one example of interagency cooperation in
     OCC referred more than10,000 complaints to other        which consumers—and their confidence in a fair
     regulators and received nearly12,000 referrals con      and open bank system—are the true winners.
     cerning national banks from other agencies. But


     Table 8: Consumer complaint caseload, FY 2007

      FY 2007 Cases
      Complaints                             28,870

      Inquiries                              38,199

      Total Cases                            67,069



      Complaints Generating Compensation or Reimbursement
      No. of Complaints                      7,589

      Amount Returned                        $8,071,848




56                                                                                     OCC ANNUAL REPORT
            EVEnts

                      November 2006    OCC–Conference of State Bank Supervisors Memorandum of Understanding on Consumer
                                       Complaint-Sharing

                      January 2007     OCC Alert on Cashier’s Check Fraud

                      March 2007       Interagency Rule on Consumer Privacy Notices

                      April 2007       Comptroller Dugan Receives Financial Literacy and Education Award

                      June 2007        Banking Agencies Issue Statement on Subprime Mortgage Lending

                      July 2007        HelpWithMyBank.gov Goes Live

                      September 2007   Banking Agencies Tell Lenders to Work with At-Risk Borrowers




FISCAL YEAR 2007                                                                                                     57
58   OCC ANNUAL REPORT
IX.

On Making the OCC a Great Workplace
In Pursuit of Excellence

The OCC supervises a diverse group of institu
tions, ranging from small community banks to the
world’s largest financial institutions. To provide
the best workforce to supervise and administer the
national banking system, the Comptroller and the
Executive Committee have continued to emphasize
the importance of maintaining a diverse, highly           the “best of class” rankings, the agency also tied
skilled, motivated, and well-placed workforce—its         for second in strategic management and fourth for
most valuable asset.                                      pay and benefits. The rankings were based on the
                                                          Partnership for Public Service’s and the American
Yet the OCC and its workforce face the same de            University Institute for the Study of Public Policy
mographic pressures that confront employers               Implementation’s analysis of the Office of Person
across the nation. The baby boom                                       nel Management’s (OPM) 2006 Fed
generation is reaching retirement age.                                 eral Human Capital Survey of overall
Over the next five years, 32 percent of        In the “best of         employee engagement and workplace
OCC’s current workforce, 30 percent                                    environment, as well as 2003 demo
                                           class” rankings, the
of its national bank examiners, and                                    graphic data.
                                           agency also tied for
50 percent of its managers will be eli
                                           second in strategic         This independent rating speaks well of
gible for retirement. The potential im
pact could be most pronounced in the        management and             the OCC’s efforts to attract and retain
Large Bank Supervision area, which          fourth for pay and         staff. It promises even better results
has a particularly experienced, senior-            benefits.
                                                                       for the future as newer programs en-
level workforce.                                                       able the organization to continue to at
                                                                       tract “the best and the brightest.”
Anticipating such retirements and
recognizing the need to foster the development of         Recruitment and Retention
the agency’s future leadership team, the OCC has
mounted a broad initiative to recruit, retain, and        In executing its comprehensive strategy, the agency
develop employees with the necessary skills and           is recruiting both highly experienced and entry-
qualities—at the entry level as well as at the senior     level employees, and shifting internal expertise to
level.                                                    where it is needed most. Highly experienced new
                                                          employees with an interest in public service come
These programs are having a positive effect. In           from banks and elsewhere in the financial world.
its 2007 issue of The	 Best	 Places	 To	 Work	 in	 the	   A large proportion of entry-level employees are re
Federal Government, the Partnership for Pub               cruited on college campuses and must meet rigor
lic Service ranked the OCC fourth overall out of          ous hiring criteria.
222 subcomponents of large federal agencies. In


FISCAL YEAR 2007                                                                                                 59
     After hiring employees, the agency focuses on            the OCC’s workplace as one of the “50 best places
     training and retaining them. The OCC recently            to launch a career.”
     established a program for acclimating its industry
     hires by assigning an experienced advisor to work        Finally, the agency has continued its strategic ef
     with each of them, teaching them about the culture       forts to improve its ability to attract and retain
     and policies of the agency, providing regular feed       staff with strong quantitative and analytical skills,
     back on performance, and then soliciting their com       particularly through external hiring. In FY 2007,
     ments on their initial experiences at the OCC.           the OCC received direct-hire authority from the
                                                              Office of Personnel Management to hire quantita
     Internal recruitment in FY 2007 concentrated on          tive modelers for the Risk Analysis Division. The
     redeploying examiner expertise to the supervision        Risk Analysis Division is a specialized group of
     policy group led by the Chief National Bank Exam         economists and mathematicians who use statistical
     iner and to large banks in high-cost cities, particu     methods and models to analyze the risks affecting
     larly metropolitan New York City. To attract internal    banks, and who evaluate the quantitative models
     candidates, the OCC emphasized the importance of         used increasingly within banks for valuation and
     these assignments to career advancement and pro          other business decisions. These modeling experts
     vided incentives, including relocation bonuses,          work on-site at national banks with OCC examiners
     mortgage subsidies, financial assistance for renters,    to evaluate risk measurement systems and models.
     and transitional cost-of-living reimbursements. A
     special package of compensation in                                    Developing a Highly
     centives was announced in April 2007                                  Skilled Workforce
     to recruit and retain OCC employees           The success of
     with the experience, skills, and talent                               For an examiner out of college, a
                                                OCC’s world-class
     necessary to meet the agency’s criti                                  near-term goal is to pass the Uniform
                                              examiner recruitment
     cal mission needs in the greater New                                  Commission Examination to become
                                                     and training
     York metropolitan area. These were                                    a National Bank Examiner, a title that
                                                   programs was            carries enormous prestige at the OCC
     augmented and expanded in Septem
     ber 2007 to include Washington, D.C., recognized last year            and throughout the financial industry.
     and San Francisco.                          by BusinessWeek           Once the examiner develops the basic
                                                magazine, which            skills, the emphasis often turns toward
     The OCC also continued its nation                                     developing that examiner’s exper
                                                    rated the OCC’s
     wide program to recruit and train                                     tise in key specialty areas. This skill
     entry-level bank examiners. Building workplace as one of              development feeds the pipeline from
     on the relationships nurtured in recent the “50 best places           community bank supervision to jobs
     years with colleges across the nation, to launch a career.”           in large bank supervision or in Head
     the agency was able to compete for the                                quarters.
     best talent and hired 151 entry-level
     examiners in FY 2007. This pool of examiners was         OCC is committed to ensuring that its employees
     distinctive not only for its high quality, but for its   have the knowledge and skills necessary to meet its
     diversity. Since the inception of this hiring program    supervisory and organizational challenges. These
     in 2003, the agency has brought aboard about 580         educational needs are supported through internal
     entry-level examiners. Of these new examiners 52         courses (more than 200 sessions per year), inter
     percent are women and 35 percent are minorities.         agency training, and externally provided courses.
                                                              The agency’s Committee on Bank Supervision,
     The agency instituted an aggressive retention pro        made up of three Senior Deputy Comptrollers, be
     gram to keep these new employees during their crit       gan implementation of a major project centered on
     ical first five years, when many examiners decide        eight key specialty skills: the new Specialty Skills
     whether or not to continue their careers with the        Assessment Program. An Examiner Development
     OCC. The success of OCC’s world-class examiner           Advisory Group has been established for each spe
     recruitment and training programs was recognized         cialty area: asset management, bank information
     last year by BusinessWeek magazine, which rated



60                                                                                      OCC ANNUAL REPORT
technology, capital markets, compliance, commer        •	 Investing in the certification of an internal cadre
cial lending, retail lending, mortgage banking, and       of instructors to deliver training designed to en
operational risk. These groups monitor how identi         hance the communication and conflict manage
fied industry risks affect commissioned examiner          ment skills of the workforce.
development and assess examiner training and de
velopment offerings to determine gaps and recom        •	 Supporting diversity through the four active af
mend enhancements.                                        finity groups—special-interest organizations of
                                                          employees who meet to discuss workplace is
Effective leadership is also critical for the agency      sues and communicate with agency leaders to
to successfully accomplish its mission. OCC imple         improve operations, personnel management,
mented a comprehensive array of leadership devel          and employee effectiveness.
opment offerings that included executive coaching,
classroom training, new managers’ orientation,         Technology
manager forums, and on-line reference tools. In
addition, OCC initiated a project to develop an        The OCC is committed to providing its employees
agency-wide leadership development competency          with the high-quality tools they need to achieve the
framework. To ensure that the leadership devel         agency’s goals. OCC information technology spe
opment program is aligned with the needs of the        cialists develop enterprise information strategies,
agency, an advisory group—the Leadership Devel         policies, and standards; oversee information tech
opment Advisory Board—was formed, made up of           nology investments; and create a secure and effi
leaders from each OCC department. In FY 2007,          cient information management environment.
the LeaderTRACK management development pro
                                                       Among FY 2007’s key technology projects was the
gram was implemented for experienced examiners,
                                                       WISDM document management system for large
to help ensure that the bank supervision area, as
                                                       bank examinations. Bank examiners and their man
Comptroller Dugan stated, “has a steady and deep
                                                       agers will use the new system to develop, store,
pipeline of qualified employees to meet its future
                                                       search, and share examination documents.
needs.”
                                                       The OCC is also engaged in overhauling its print-
Equal Opportunity and                                  based process to produce mission-critical publica
Workplace Fairness                                     tions, such as bank examination handbooks. The
                                                       new technology will improve the content delivery
In its continual search for workplace improvement,
                                                       of agency information for bank examiners, other
the OCC maintains a commitment to equal oppor
                                                       OCC employees, national banks, and the public.
tunity and workplace fairness. In FY 2007, this
commitment took the following forms:                   Considerable resources are being devoted to bring
                                                       the OCC’s employee intranet, public Web site, and
•	 Presenting a forum on dispute prevention and
                                                       National BankNet, an OCC site exclusively for na
   alternative dispute resolution at the OCC Man
                                                       tional bankers, to state-of-the-art status.
   ager’s Conference.

•	 Establishing a field advisory position to ensure    Information Technology Security
   that OCC employees in the field have more lo        and Emergency Preparedness
   calized access to alternative dispute resolution
                                                       Ensuring the security of sensitive information
   services.
                                                       entrusted to the custody of the OCC is critical to
•	 Providing a wide array of internal conflict man     performing the agency’s mission safely and effec
   agement resources and dispute resolution op         tively. In FY 2007 the Information Security Office
   tions.                                              within Information Technology Services developed
                                                       and implemented a full certification and accredi
•	 Working with the National Treasury Employees        tation program. The program assessed the risk of
   Union to meet the agency’s legal obligations, as    OCC major applications and general support sys-
   well as to enhance workplace fairness.


FISCAL YEAR 2007                                                                                                61
     tems. The OCC also used guidance provided by             •	 Reengineered its pre-exit clearance when staff
     the Treasury Department to update its “IT Security          members leave the OCC to ensure protection
     Policy Handbook.”                                           of sensitive bank information and documents,
                                                                 ensure protection of OCC assets, and minimize
     The OCC also developed a Plan of Actions and                other risks when an employee departs.
     Milestones program to track all IT security-related
     remediations. The program is also used to track          For some reengineering projects, the OCC uses the
     findings and recommendations provided by various         Lean Six Sigma methodology, also used by many
     IT security reviews conducted under the Treasury         of the larger banks OCC regulates, for analyzing
     Department’s Office of the Chief Information Of          its business processes to improve quality and ef
     ficer. The OCC also reduced considerably its inven       ficiency. This approach improves those business
     tory of major information systems.                       processes, eliminates waste, reduces the burden of
                                                              compliance with statutory and regulatory require
     The OCC’s emergency management program pre               ments, and delivers more value to customers. Since
     pares the agency to respond to emergencies that          FY 2005, more than 45 of these projects have pro
     disrupt normal operations. The program ensures           duced approximately $3.3 million in annual sav
     that the necessary plans, resources, and training are    ings and allowed the OCC to make more effective
     in place to deal effectively with the full spectrum of   use of its employees.
     emergencies the OCC could face in today’s threat
     environment. The OCC tested its Continuity of Op
                                                              Improving
     erations Plan (COOP) during FY 2007 by partici
                                                              Enterprise-Wide Governance
     pating in the Treasury-wide Forward Challenge ‘07
     exercise, and updated its policies and procedures to     After careful deliberation on how to better align
     include a comprehensive pandemic response plan.          OCC’s strategic planning, quality management, and
                                                              business process improvement activities with its
     Process Improvement                                      strategic objectives and legal governance responsi
                                                              bilities, the Comptroller established the Enterprise-
     The OCC continually reviewed internal programs           wide Governance (EG) unit in 2007.
     to improve their effectiveness and productivity.
     During the fiscal year, the agency:                      As the Comptroller’s governance support unit, EG
                                                              links OCC’s enterprise-wide risk management pri
     •	 Reengineered its processes for new employees          orities to its results-oriented strategic planning pro
        to facilitate and expedite processing and person      cess. By doing so, strategic performance goals and
        nel security clearances.                              accompanying risk management responsibilities
                                                              can be formally evaluated, in an integrated way, on
     •	 Reengineered its employee relocation process to
                                                              a regular basis.
        reduce processing costs and simplify the process
        for employees.                                        The restructuring involved reviewing public sector
                                                              governance standards and requirements, examining
     •	 Implemented a “Quick Wins” program in the
                                                              OCC’s corporate governance experiences over the
        Office of Management that encourages partici
                                                              last four decades, and benchmarking agency efforts
        pation by all staff in innovation and continuous
                                                              to governance structures in other public and private
        improvement in operations. Program sugges
                                                              sector institutions.
        tions have resulted in more than $200,000 in an
        nual savings.




62                                                                                      OCC ANNUAL REPORT
EG will assist the Comptroller and the Executive
Committee by administering a set of governance
support activities that assure:

•	 Strategic goals, objectives, and strategies are up
   dated, and progress is being measured.

•	 Quality management programs for all major
   agency business processes are tested.

•	 OCC complies with applicable federal sector
   governance laws, regulations, and standards.

The EG unit also serves as liaison to the Treasury
Office of the Inspector General, the Government
Accountability Office, and the Office of Manage
ment and Budget.




FISCAL YEAR 2007                                        63
                          OF THE
                      LER        C
                    L




                                 UR
     C O MP T R O




                                     R E NC Y
                        186 3




64                                              OCC ANNUAL REPORT
X.

Financial Management
Discussion and Analysis
Letter from the                                                     control issues related to information
Chief Financial Officer                                             technology (IT) and physical security.
                                                                    IT security controls related to our fi-
I am pleased to present the OCC’s fi                                nancial systems have been enhanced,
nancial statements as an integral part                              however, our efforts continue as we
of the FY 2007 Annual Report. I am                                  address the challenges presented in
also pleased to report that for FY 2007                             this important area of our operations.
our independent auditors rendered an
unqualified opinion with no mate-                                    I would also like to provide a brief up
rial internal control weaknesses. The                                date on the Office of Management’s
OCC’s commitment to effective finan                                  Lean Six Sigma program. This pro
cial management and a strong internal control envi      gram is designed to re-engineer and improve bur
ronment continues to be my highest priority.            densome administrative processes throughout the
                                                        OCC. Additionally, the program is intended to con
Internal controls were strengthened last year as a      tinually increase the quality of services delivered
result of OCC’s implementation of Appendix A to         to our workforce, increase overall administrative
Circular A-123—Management’s Responsibility for          productivity, and optimize or decrease total over
Internal Controls (A-123). Now in its second year,      head cost. This year, 20 administrative projects
our program is beginning to mature and yield the        were completed in Bank Supervision, the Ombuds
expected benefits of a robust internal control envi     man’s Office, and the Office of Management with
ronment. Some of these benefits include a stronger      savings of approximately $1.7 million as reported
culture of control and accountability for safeguard     in the Office of Management Balanced Scorecard.
ing OCC assets. OCC’s Financial Management              Key projects this year included Procurement, Re
staff documents our financial processes, performs       cruiting and Hiring, Financial Reporting, and the
a risk assessment of all significant financial state    Employee Relocation process.
ment line items, and tests all critical processes.
There were no material internal control weaknesses      Turning to the financial condition of the agency,
noted as a result of the testing, and where appropri    OCC budgetary expenses continue to reflect the
ate we have developed plans of corrective action to     growing complexity of the national banking sys
strengthen our internal controls. Additionally, plans   tem and the overall increase in assets supervised
of corrective action from the prior year have been      by the OCC. As noted earlier in our annual report,
completed.                                              the OCC currently supervises 68 percent of all U.S.
                                                        commercial banking assets, a 19.3 percent increase
The OCC is committed to maintaining strong con          from the levels of assets supervised as recently as
trols and taking appropriate measures as required to    FY 2004. The increase in bank assets supervised
ensure that we comply with federal security stan        has required the OCC to respond with correspond
dards. An end-to-end security control review was        ing growth in bank examination staff, IT infrastruc
conducted this year to identify potential internal      ture, and office space. Although these are the pri-



FISCAL YEAR 2007                                                                                               65
     mary cost drivers, because over 50 percent of our       the agency investment portfolio and on a quarterly
     staff travel to conduct bank examinations, we have      basis reviews the activity and strategy of the invest
     been affected by the overall increase in fuel, air      ment committee. The subcommittee also has been
     travel, and hotel costs.                                actively involved in addressing the office space
                                                             needs that have arisen as a result of the growth in
     Currently, bank assessment revenue has adequately       staff. Office space will continue to be on the agenda
     addressed the increase in operating costs. Since        of the subcommittee as we approach the expiration
     we receive no federal appropriation and must fund       of the lease on our current headquarters location
     our operations primarily from these revenues, we        in Washington, D.C. To avoid an increase in bank
     review our cost performance on a continual basis.       assessments, each year the OCC has prudently re
     Last year, the OCC implemented an efficiency per        served its excess bank assessment revenue, so that
     formance measure that examines the OCC costs            funds will be available to address this long-term
     relative to every $100,000 in assets regulated. In      need.
     FY 2007 the estimated cost is $8.89, higher than
     last year’s cost of $8.57, but this is 7 percent less   Though FY 2007 has been a year of significant
     than our target of $9.55. However, efficient regula     achievement, the core values associated with our
     tion may not always translate into effective regula     responsibility to oversee OCC financial opera
     tion. Therefore our focus from a cost perspective       tions continues to motivate us to seek out the latest
     has been, and always will be, to ensure that the        trends and best practices associated with financial
     OCC uses resource levels that successfully achieve      management. In closing, I would like to repeat my
     its mission to maintain the safety and soundness of     commitment from last year—to ensure that we have
     the national banking system. The results of other       the finest people and resources dedicated to manag
     significant agency performance measures can be          ing and monitoring the effective and efficient use of
     found in section XIII to the Annual Report.             agency resources.

     The Budget and Finance Subcommittee, which I
     chair, continues to closely monitor the overall fi
     nancial condition of the OCC. This past year, the
     subcommittee continued its focus on the agency’s
                                                             Thomas R. Bloom
     investment activities. The subcommittee oversees
                                                             Chief Financial Officer




66                                                                                     OCC ANNUAL REPORT
Historical Perspective	                                 Chart 4: FM operating strategy

In FY 2006, the Office of Management’s Financial                                                Customer Satisfaction
Management department (FM) focused on its com
mitment to customer service, stewardship, and con
tinual process improvement. Using the balanced




                                                                                                                        Tec
                                                                                                 ols
scorecard (BSC) to measure progress toward key




                                                                                                                           hn
                                                                                              ntr




                                                                                                                          olo
                                                                                          Co




                                                                                                                            gy
                                                                                                     Process
business goals, FM made significant progress in




                                                                                         al




                                                                                                                                Str
                                                                                        ern
                                                                                                   Improvement




                                                                                                                                    ate
                                                                                     Int
FY 2006. The department’s efforts were focused




                                                                                                                                     y g
on implementing stringent new internal control re
quirements for federal agencies, carrying out sev                Highly Skilled People                 Data Integrity                      Leadership Skills

eral business process improvement efforts, adopt
ing a new organizational structure to align units for
efficiency and customer service, and continuing         FM Operating Strategy
leadership development and employee engagement
as measured by the Gallup employee engagement           The FM operating strategy is shown in Chart 4.
survey.                                                 The strategy focuses on FM’s most important busi
                                                        ness objectives, which include developing a robust
Strategic Focus                                         process improvement program to ensure that con
                                                        tinual improvement is an integral component of the
This year, FM continued to manage for results and       organizational culture. As part of the department’s
use widely recognized best practices, such as the       efforts to achieve continual improvement and im
balanced scorecard and Lean Six Sigma. FM’s stra        prove management of financial systems, FM used
tegic focus in FY 2007 has been to improve and          Lean Six Sigma as the chosen tool for business
strengthen internal controls across the department,     process improvement. Additional major accom
while improving business processes and financial        plishments include improved efficiencies from the
systems, and optimizing costs in the delivery of        redesigned process for collecting semi-annual as
products and services. FM continued to focus this       sessments from national banks, implementation of
year on staff and leadership development, and on        improvements to financial systems, continuing re
increasing employee engagement.                         finements to the department’s internal control pro
                                                        gram, ongoing employee and leadership develop
Strategic Goals                                         ment efforts, and continued reduction of FM costs
                                                        as a percentage of OCC planned operating costs.
The goal for FM is to be an efficient organization
that reflects:                                          FM secured benchmarking data for major depart
                                                        ment functional areas, and will launch an effort to
•	 An engaged workforce that is committed to the        benchmark operations against other entities that
   business strategy of operational excellence.         are known for adopting best practices. These data
                                                        will be used to identify opportunities for process
•	 A solid understanding of customer needs and ex
                                                        improvement and adopting metrics for BSC initia
   pectations.
                                                        tives. Managers and team leaders have begun pre
•	 Efficient processes that take advantage of sys       paring recurring trend analyses to ensure that FM is
   tem capabilities.                                    anticipating and preparing for changes in the arena
                                                        of federal financial management. The FM depart
•	 A focus on developing staff competencies for         ment began a new initiative to improve and ensure
   the evolving organization.                           consistently high quality in communications with
                                                        customers. FM continued to concentrate on em
•	 Optimized costs in delivering products and ser       ployee development through specific training and
   vices.                                               developmental assignments for staff at all levels.
                                                        The department focused again this year on develop
                                                        ing strong leadership skills and on increasing em
                                                        ployee engagement.

FISCAL YEAR 2007                                                                                                                                               67
     The FM Balanced Scorecard                                veloped. In addition to each unit of FM working on
                                                              Gallup Q12 employee engagement survey action
     The FM Balanced Scorecard covers performance
                                                              plans, FM ensured that key vacancies were filled
     measures and initiatives from four perspectives:
                                                              during FY 2007, and continued focusing on devel
     customer, financial, internal processes, and learn
                                                              oping the next generation of leaders.
     ing and growth.

     The customer perspective ensures that FM identi          Looking Forward
     fies its customers and understands their needs and
                                                              FM will continue to focus on achieving its strate
     expectations. FM measures performance on how
                                                              gic business goals, to measure progress using the
     well FM products and services meet those customer
                                                              balanced scorecard, and to concentrate its efforts
     needs and expectations. During FY 2007, FM car
                                                              on continual process improvement using Lean Six
     ried out a customer service action plan to ensure
                                                              Sigma as its primary tool. The department will
     that the voice of the customer is integrated into all
                                                              continue to benchmark performance through key
     FM products and services. Using valuable input re
                                                              business metrics. Recognizing that financial man
     ceived from OCC customers through the 2006 an
                                                              agement and financial reporting are much more
     nual customer satisfaction survey, FM engaged in
                                                              than the mechanics of transaction processing and
     ongoing dialogue with key customers and signifi
                                                              financial statement preparation, the department will
     cantly improved the delivery of guidance and in
                                                              continue to explore the latest business models, such
     formation on the agency’s intranet. In August 2007,
                                                              as e-commerce and digitization. Finally, the depart
     FM participated again in the annual OM OCC-wide
                                                              ment will focus on modernizing internal controls
     customer satisfaction survey. FM management and
                                                              and ensuring that the agency is up-to-date with the
     staff will use the results of this year’s survey to
                                                              current guidance in financial management and ac
     plan customer-focused initiatives in FY 2008 and
                                                              counting policies.
     beyond.

     The financial perspective ensures that FM is using       Financial Highlights
     the OCC’s financial resources to support the OCC’s
     overall strategic financial goals and objectives. It     Overview
     serves as a mechanism to help FM use financial re
                                                              The OCC received an unqualified opinion on its
     sources to produce the best value for the OCC. In
                                                              FY 2007 and FY 2006 financial statements. The
     FY 2007, FM met its goal of maintaining operating
                                                              financial statements include a Balance Sheet and
     costs at less than 1.7 percent of OCC planned op
                                                              Statements of Net Cost, Changes in Net Position,
     erating costs. This was a decline from 1.9 percent
                                                              and Budgetary Resources. The financial statements
     in FY 2006.
                                                              and footnotes are presented on a comparative ba
     The internal processes perspective ensures that FM       sis, providing financial information for FYs 2007
     focuses on improving the processes that are most         and 2006. These financial statements, which were
     critical to achieving its business goals. As reflected   prepared from the OCC’s accounting records in
     in the FY 2007 operating and strategic business          conformity with the U.S. generally accepted ac
     strategies, FM processes that had known inefficien       counting principles (GAAP) for federal agencies,
     cies, especially for customers, received the most        summarize the OCC’s financial activity and posi
     attention and effort this year. FM carried out sev       tion. The financial statements, footnotes and audi
     eral Lean Six Sigma business process reengineer          tor’s opinion appear in Sections XI and XII of the
     ing projects for key areas, such as time and atten       Annual Report. A summary of the OCC’s financial
     dance reporting and travel voucher processing and        activities in FY 2007 and 2006 is presented as fol
     auditing.                                                lows.

     The learning and growth perspective ensures that         Assets
     FM identifies the critical staff skills needed to
     achieve its business goals and that management           The OCC’s assets include both “entity” and “non
     works with staff to ensure those skills are fully de     entity” assets. Entity assets belong to the agency



68                                                                                     OCC ANNUAL REPORT
and are used to fund the OCC’s operations. The           tions since inception. This represents an increase of
OCC earns revenue through the collection of assess       $85.2 million, or 16.4 percent. The majority of this
ments from national banks, and from other income,        increase is directly related to increases in assess
including interest on investments in U.S. Treasury       ment revenue. The net position is presented on both
securities. Non-entity assets are assets that are held   the Balance Sheet and the Statement of Changes in
by the OCC on behalf of another federal agency or        Net Position.
other third party. The OCC’s non-entity assets are
comprised of civil money penalties due to the fed        Chart 5: Composition of FY 2007 and FY 2006 assets
eral government through court-enforced legal ac          (in millions)
tions. Once collected, these amounts are transferred
                                                           $900                                                                   Investments and
to the General Fund of the Treasury.                                  $818.4
                                                                                                                                  Accrued Interest
                                                           $800
                                                                                                  $713.3
                                                                                                                                  Property and
As of September 30, 2007, total assets of $881.5           $700
                                                                                                                                  Equipment
million increased by $114.3 million or 14.9 percent        $600
                                                                                                                                  Other
from the level at September 30, 2006. This increase        $500
is primarily attributable to the changes in invest-        $400

ments and accrued interest. The increase of $105.1         $300

million in investments and accrued interest was            $200
                                                           $100                 $54.9                       $43.2
attributed to a rise in assessment collections dur-                                       $8.2                       $10.7
                                                             $0
ing FY 2007. Chart 5 shows the composition of the                              FY 2007                     FY 2006
OCC’s assets.
                                                         Chart 6: Composition of FY 2007 and FY 2006 liabilities
Liabilities                                              (in millions)

The OCC’s liabilities represent the resources due to                  $171.4
                                                           $180
others or held for future recognition and are largely                                             $159.4
                                                           $160                                                                  Deferred
comprised of deferred revenue, accrued liabilities,                                                                              Revenue
                                                           $140
and accounts payable. Deferred revenue represents                                                                                Accounts Payable and
                                                           $120                                                                  Accrued Liabilities
the unearned portion of semi-annual assessments            $100                   $85.6                                          Other
that have been collected but not yet earned. The            $80                                             $72.6
OCC records a custodial liability for the net amount        $60
of enforcement-related receivables. Upon collec             $40
                                                                                          $20.9                      $16.9
tion, these amounts are transferred to the General          $20
Fund of the Treasury.                                        $0
                                                                               FY 2007                     FY 2006
As of September 30, 2007, total liabilities of $277.9
million increased by a net of $29.0 million, or 11.7     Chart 7: Composition of FY 2007 and FY 2006 net position
percent, over the level on September 30, 2006. The
                                                                                           3%
increase of $12.0 million in deferred revenue was                                                                      Contingency Reserve
                                                                            18%
                                                            FY 2007
due to a rise in assessment collections during FY                                                                      Ongoing Operations
2007. The increase of $13.0 million in accounts                                                                        Asset Replacement Reserve
payable and accrued liabilities was due primarily to                                                                   Special Reserve
an increase in payroll and employee benefits over
                                                                      23%
last year. Chart 6 illustrates the composition of the
OCC’s liabilities.                                                                                 56%

                                                                                            3%

Net Position                                                                20%

                                                            FY 2006
The OCC’s net position of $603.6 million as of
September 30, 2007, and $518.4 million as of Sep
tember 30, 2006, represent the cumulative net ex                        21%
cess of the OCC’s revenues over its cost of opera
                                                                                                    56%



FISCAL YEAR 2007                                                                                                                                     69
     As discussed in the next section, the OCC reserves a    stemming from the overall increase in the assets
     significant portion of its net position to supplement   of the national banking system and the growth of
     resources made available to fund the OCC’s annual       investment income from an expanded investment
     budget and to cover foreseeable but rare events.        portfolio. Table 9 depicts the components of total
     The OCC also earmarks funds for ongoing opera           revenue for FY 2007 and FY 2006.
     tions to cover undelivered orders, the consumption
     of assets, and capital investments. Chart 7 shows       Table 9: Components of total revenue,
                                                             FY 2007 and FY 2006 (in millions)
     the composition of the OCC’s net position.
                                                                                       FY 2007 FY 2006         Change
     Reserves
                                                                 Assessments             $666.0     $609.5       $56.5
     The establishment of financial reserves is integral
                                                                 Investment Income        $26.6      $20.5        $6.1
     to the effective stewardship of the OCC’s resourc
     es, particularly because the agency does not receive        Other1                    $2.8        $3.6      ($0.8)
     congressional appropriations. The contingency
                                                                 Total Revenue           $695.4     $633.6       $61.8
     reserve is for foreseeable but rare events that are
     beyond the control of the OCC, such as a major          1
                                                              Other sources of revenue include bank licensing fees, revenue
     change in the national banking system or, for in        received from the sale of publications, and other miscellaneous
                                                             sources.
     stance, a fire, flood, or significant impairment to
     the OCC’s information technology network that
     interferes with the OCC’s ability to accomplish its     Bank Assets and Assessment Revenue
     mission. The asset replacement reserve is for the
                                                             Total assets (including federal branches) under
     replacement of IT equipment, leasehold improve
                                                             OCC supervision increased during FY 2007 from
     ments, and furniture replacement for future years.
                                                             $6.5 trillion in FY 2006 to $7.2 trillion; of this total,
     The target level in the replacement reserve is es
                                                             86.3 percent ($6.2 trillion) is attributable to large
     tablished annually based on the gross value of ex
                                                             national banks. Large banks’ share of total OCC as
     isting property and equipment plus a growth rate
                                                             sessment revenue remains at almost 67.5 percent,
     factor and a margin for market cost adjustments.
                                                             followed by mid-size and community banks 29.4
     The special reserve reduces the effect of unfore
                                                             percent, and federal branches 3.1 percent. Strong
     casted shortfalls, or unbudgeted and unanticipated
                                                             national bank asset growth combined with the
     requirements.
                                                             movement of assets into the national banking sys
                                                             tem resulted in the higher total assets of national
     Revenues and Costs
                                                             banks in FY 2007. Chart 8 shows the composition
     The OCC does not receive appropriations. The            of national bank assets by large banks, mid-size
     OCC’s operations are funded primarily by assess         banks, community banks, and federal branches for
     ments collected from national banks and other           FY 2007 and FY 2006.
     income, including interest on investments in U.S.
     Treasury securities. The Comptroller, in accordance     Investments
     with 12 USC 482, establishes budget authority for a
                                                             The book value of the OCC’s portfolio on Sep
     given fiscal year. The total budget authority avail
                                                             tember 30, 2007 was $814.3 million, compared
     able for use by the OCC in FY 2007 was $671.2
                                                             to $709.6 million a year earlier. The OCC invests
     million, which represents an increase of $91.8 mil
                                                             available funds in non-marketable U.S. Treasury
     lion, or 15.8 percent, over the $579.4 million bud
                                                             securities issued through the Department of Trea
     get in FY 2006.
                                                             sury’s Bureau of Public Debt in accordance with
     Total FY 2007 revenue of $695.4 million reflects a      the provisions of 12 USC 481 and 12 USC 192. The
     $61.8 million, or 9.8 percent, increase over FY 2006    increase in investments of $104.7 million during
     revenues of $633.6 million. The increase is primar      the fiscal year reflects the investment of increased
     ily attributed to a rise in bank assessment revenue     assessment revenue and the interest on investments
                                                             held in the portfolio. The portfolio earned an annual



70                                                                                          OCC ANNUAL REPORT
yield for 2007 of 4.4 percent. The OCC calculates       Chart 8: Composition of national bank assets
                                                        as of June 30, 2007 and FY 2006 (in billions)
annual portfolio yield by dividing the total inter
est earned during the year by the average ending         $8,000
                                                                                                                            Large

monthly book value of investments.                       $7,000
                                                            Community
                                                                    86.3%                                85.9%
                                                         $6,000                                                             Mid-Size

Cost of Operations                                       $5,000
                                                            Federal Branches
                                                         $4,000
The OCC’s net cost of operations is reported on
                                                         $3,000
the Statements of Net Cost and the Statements of         $3,000
Changes in Net Position. The OCC uses an activ           $1,000                                                   8.0%
                                                                             7.5%
                                                                                       4.2%    2.0%                        4.3%   1.8%
ity-based time reporting system to allocate costs            $0
among the programs. Costs are further differenti                              June 2007                             June 2006
ated between those resulting from transactions be
tween the OCC and other federal entities (intragov      Chart 9: Costs of operations by major program,
ernmental) and transactions between the OCC and         FY 2007 and FY 2006 (in millions)
non-federal entities (with the public). The State
                                                            $600
ments of Net Cost present the full cost of operating                 84.2%                                                  Supervise
                                                            $500                                 84.7%                      Regulate
the OCC’s three major program areas (supervise,
                                                            $400                                                            Charter
regulate, and charter national banks) for the years
ended September 30, 2007, and 2006. Chart 9 illus           $300
trates the breakdown of costs of operations for FY          $200
2007 and FY 2006.                                           $100             13.1%                        12.8%
                                                                                        2.7%                        2.5%
The full cost presented in the Statements of Net              $0

                                                                             FY 2007                     FY 2006

Cost includes contributions made by the OPM on
behalf of the OCC to cover the cost of the Federal      Budgetary Resources
Employees Retirement System and Civil Service
Retirement System retirement plans, totaling $26.4      As discussed above, the OCC receives the major
million in FY 2007 and $24.5 million in FY 2006.        ity of its funding from assessment revenue earned
The total program cost increased by $62.5 mil           and investment income. The Statement of Budget
lion, primarily due to increases in pay and benefits,   ary Resources, designed primarily for appropriated
resulting from a 5.1 percent increase to full time      fund activities, presents the budgetary resources
equivalents of 2,956.6 in FY 2007 from 2,812.3          available to the OCC for the year, the status of these
in FY 2006 and additions to or improvements in          resources at the end of the year, and the net out
benefit programs in FY 2007. Additional contribut       lay of budgetary resources at the end of the year.
ing factors include increases to contractual services   The OCC, which is a non-appropriated agency,
supporting maintenance and non-capitalized IT in        executed $633.9 million or 94.4 percent of its FY
vestments and imputed costs.                            2007 budget of $671.2 million, with the remaining
                                                        funding being applied to its asset replacement and
The full cost is reduced by earned revenues to ar       contingency reserves.
rive at net cost. Earned revenues increased by $61.8
million because of a rise in bank assessments earned
during FY 2007. The increases in assessments are
a direct result of the addition of new charters and
increases in bank assets of existing charters. The
influx of assets into the national banking system
has increased the OCC assessment revenue. Cor
respondingly, the costs of supervising the national
banks have risen because of the increasing size and
complexity of national bank assets.




FISCAL YEAR 2007                                                                                                                               71
72   OCC ANNUAL REPORT
XI.

Financial Statements and Notes
Financial Statements

                          Office of the Comptroller of the Currency
                                        Balance Sheets
                             As of September 30, 2007 and 2006
                                                                                   Restated
                                                               FY 2007             FY 2006

   Assets
    Intragovernmental:
      Fund balance with Treasury                         $      6,762,090    $       9,104,809
      Investments and related interest (Note 2)               818,361,022          713,281,888
      Advances and prepayments                                     82,904                  -
    Total intragovernmental                                   825,206,016          722,386,697

    Cash                                                           11,944               12,256
    Accounts receivable, net                                    1,347,977            1,626,336
    Property and equipment, net (Note 3)                       54,882,947           43,165,142
    Advances and prepayments                                       24,193               39,031

   Total assets                                          $    881,473,077    $     767,229,462

   Liabilities
    Intragovernmental:
      Accounts payable and other accrued liabilities     $      2,019,543    $       1,894,147
    Total intragovernmental                                     2,019,543            1,894,147

    Accounts payable                                            7,251,284           10,005,032
    Accrued payroll and benefits                               22,677,144           13,902,932
    Accrued annual leave                                       29,996,291           27,533,285
    Other accrued liabilities                                  23,671,832           19,129,317
    Deferred revenue                                          171,380,008          159,421,459
    Other actuarial liabilities (Note 5)                       20,882,737           16,986,832
    Total liabilities                                         277,878,839          248,873,004

    Net position (Note 6)                                     603,594,238          518,356,458

   Total liabilities and net position                    $    881,473,077    $     767,229,462

             The accompanying notes are an integral part of these financial statements.



FISCAL YEAR 2007                                                                                 73
     Financial Statements (continued)

                              Office of the Comptroller of the Currency
                                        Statements of Net Cost
                          For the Years Ended September 30, 2007 and 2006


                                                                        FY 2007                 FY 2006
     Program Costs

        Supervise National Banks
         Intragovernmental                                        $      74,331,808 $            68,025,152
         With the public                                                462,006,442             418,553,951
        Subtotal - Supervise National Banks                       $     536,338,250 $           486,579,103

        Regulate National Banks
         Intragovernmental                                        $      11,790,685 $            10,459,084
         With the public                                                 71,519,547              62,743,342
        Subtotal - Regulate National Banks                        $      83,310,232 $            73,202,426

        Charter National Banks
         Intragovernmental                                        $       2,462,667 $             2,119,060
         With the public                                                 14,513,285              12,267,183
        Subtotal - Charter National Banks                         $      16,975,952 $            14,386,243


     Total Program Costs (Note 7)                                 $     636,624,434 $           574,167,772
      Less: Earned revenues not attributed to programs                 (695,443,263)        (633,598,176)

     Net Cost of Operations (Note 7)                              $     (58,818,829) $          (59,430,404)




                  The accompanying notes are an integral part of these financial statements.



74                                                                                OCC ANNUAL REPORT
Financial Statements (continued)

                         Office of the Comptroller of the Currency
                           Statements of Changes in Net Position
                     For the Years Ended September 30, 2007 and 2006


                                                                   FY 2007                 FY 2006

Beginning Balances                                           $     518,356,458 $           434,421,291


Other Financing Sources:
 Imputed financing sources (Note 8)                                 26,418,951              24,504,763


Net Cost of Operations                                              58,818,829              59,430,404


Net Change                                                          85,237,780              83,935,167

Ending Balances                                              $     603,594,238 $           518,356,458




             The accompanying notes are an integral part of these financial statements.



FISCAL YEAR 2007                                                                                         75
     Financial Statements (continued)

                                Office of the Comptroller of the Currency
                                   Statements of Budgetary Resources
                            For the Years Ended September 30, 2007 and 2006


                                                                           FY 2007                FY 2006
     Budgetary Resources

      Unobligated balance, brought forward, October 1                $     597,772,320 $          506,623,014
      Spending authority from offsetting collections
       Earned
         Collected                                                         707,929,667            649,009,263
         Receivable from Federal sources                                       392,256             (1,034,307)
       Subtotal                                                            708,321,923            647,974,956

     Total Budgetary Resources                                       $    1,306,094,243 $        1,154,597,970

     Status of Budgetary Resources
      Obligations incurred                                           $     638,433,261 $          556,825,650
      Unobligated balance available                                        667,660,982            597,772,320
     Total Status of Budgetary Resources                             $    1,306,094,243 $        1,154,597,970

     Change in Obligated Balance
      Obligated balance, net, beginning of period
       Unpaid obligations brought forward, October 1                 $     117,900,706 $           98,950,249
       Uncollected customer payments from Federal sources, October 1        (3,644,462)            (4,678,768)
      Total unpaid obligated balance, net                                  114,256,244             94,271,481

      Obligations incurred                                                  638,433,261           556,825,650
      Gross outlays                                                        (604,612,639)         (537,875,194)
      Change in uncollected customer payments from Federal sources             (392,256)            1,034,307
                                                                                                    1,034,306
      Obligated balance, net, end of period
       Unpaid obligations                                                  151,721,328            117,900,706
       Uncollected customer payments from Federal sources                   (4,036,718)            (3,644,462)
      Obligated balance, net, end of period                                147,684,610            114,256,244
      Net outlays
       Gross outlays                                                 $      604,612,639 $         537,875,194
       Offsetting collections                                              (707,929,667)         (649,009,263)

     Net Outlays                                                     $     (103,317,028) $       (111,134,069)




                   The accompanying notes are an integral part of these financial statements.



76                                                                                   OCC ANNUAL REPORT
Notes to the Financial                                  Department of the Treasury’s consolidated finan
Statements                                              cial statements. Transactions and balances among
                                                        the OCC and other Treasury entities are eliminated
Note 1—Significant Accounting Policies                  from the Treasury consolidated financial state
                                                        ments.
A. Reporting Entity
                                                        The financial statements reflect both the accrual and
The OCC was created as a bureau within the U.S.         budgetary bases of accounting. Under the accrual
Department of the Treasury by an act of Congress        method, revenues are recognized when earned,
in 1863. The mission of OCC was to establish and        and expenses are recognized when a liability is in
regulate a system of federally chartered national       curred, without regard to cash receipt or payment.
banks. The National Currency Act of 1863, rewrit        The budgetary method recognizes the obligation
ten and reenacted as the National Bank Act of 1864,     of funds according to legal requirements, which in
authorized the OCC to supervise national banks and      many cases, is made prior to the occurrence of an
to regulate the lending and investment activities of    accrual-based transaction. Budgetary accounting is
federally chartered institutions.                       essential for compliance with legal constraints and
                                                        controls over the use of federal funds.
The financial statements report on OCC’s three ma
jor programs: supervise, regulate, and charter na       In accordance with federal GAAP, the prepara
tional banks. These programs support OCC’s over         tion of financial statements requires management
all mission by ensuring the safety and soundness        to make estimates and assumptions that affect the
of the national banking system, fostering a flexible    reported amounts of assets and liabilities, the dis
legal and regulatory framework that enables the na      closure of contingent assets and liabilities at the
tional banking system to provide a full, competitive    date of the financial statements, and the reported
array of financial services, and promoting fair ac      amounts of revenue and expenses during the report
cess to financial services and fair treatment of bank   ing period. Such estimates and assumptions could
customers.                                              change in the future as more information becomes
                                                        known, which could affect the amounts reported
B. Basis of Accounting and Presentation                 and disclosed herein.

The accompanying financial statements present           Throughout these financial statements, intragov
the operations of the OCC and custodial activities      ernmental assets, liabilities, earned revenues, and
managed on behalf of the U.S. government. The           costs have been classified according to the entity
OCC’s financial statements are prepared from its        responsible for these transactions. Intragovernmen
accounting records in conformity with the gener         tal assets and liabilities are defined as those occur
ally accepted accounting principles (GAAP) in the       ring within or between other federal entities. Intra-
United States.                                          governmental earned revenues are collections or
                                                        accruals of revenue from other federal entities, and
The OCC’s financial statements consist of Balance
                                                        intragovernmental costs are payments or accruals
Sheets, and the Statements of Net Cost, Changes
                                                        of expenditures to other federal entities.
in Net Position, and Budgetary Resources. These
financial statements are presented on a compara
                                                        C. Revenues and Other Financing Sources
tive basis providing information for FYs 2007 and
2006. In previous years, the OCC’s financial state      The OCC’s revenue is derived primarily from as
ments also included the Statements of Custodial         sessments and fees paid by national banks and in
Activity. However, as the amounts for FY 2006 and       come on investments in U.S. Treasury securities.
FY 2007 are immaterial, these statements have been      The OCC does not receive congressional appro
eliminated from the FY 2007 presentation. Should        priations to fund any of its operations. Therefore,
amounts become material in the future the State         the OCC does not have any unexpended appropria
ments of Custodial Activity will be included in the     tions.
OCC’s financial statement presentation at that time.
The OCC’s financial information is included in the


FISCAL YEAR 2007                                                                                                77
     By federal statute 12 USC 481, the OCC’s funds           U.S. Treasury securities (Note 2). In accordance
     are maintained in a U.S. government trust revolving      with SFFAS No. 1, Accounting for Selected Assets
     fund. The funds remain available to cover the annual     and	Liabilities,	the OCC has the positive intent and
     costs of the OCC’s operations in accordance with         ability to hold these securities until maturity.
     policies established by the Comptroller.
                                                              The OCC’s Statements of Budgetary Resources re
     D. Earmarked Funds                                       flect the status of its Fund Balance with Treasury.
                                                              It consists of the unobligated balance amount of
     Earmarked funds are financed by specifically iden        $667.7 million at September 30, 2007 and $597.8
     tified revenues, often supplemented by other fi          million at September 30, 2006, which is included
     nancing sources, which remain available over time.       in the OCC’s net investment balance of $808.6 mil
     These specifically identified revenues and other fi      lion for FY 2007 and $702.9 million for FY 2006,
     nancing sources are required by statute to be used       and the obligated balances not yet disbursed (e.g.,
     for designated activities, benefits, or purposes, and    undelivered orders) of $147.7 million for FY 2007
     must be accounted for separately from the govern         and $114.3 million for FY 2006. These balances
     ment’s general revenues. In accordance with Feder        reflect the budgetary authority remaining for dis
     al Accounting Standards Advisory Board (FASAB)           bursements against current or future obligations.
     Statements of Federal Financial Accounting Stan
     dards (SFFAS) No. 27, Identifying	 and	 Reporting	       F. Accounts Receivable
     Earmarked	Funds, all of the OCC’s revenue meets
     this criterion and constitutes an earmarked fund.        As presented in the OCC’s Balance Sheets, Ac
                                                              counts Receivable represent monies owed for ser
     The federal government does not set aside assets         vices and goods provided. Also included are civil
     to pay future benefits or other expenditures asso        money penalty (CMP) amounts that, when collect
     ciated with earmarked funds. Treasury securities         ed, are transferred to the Treasury General Fund.
     are an asset to the OCC and a liability to the U.S.      CMP collections totaled $12.7 million at September
     Treasury. Because the OCC and the U.S. Treasury          30, 2007, of which $12.3 million have been trans
     are both parts of the federal government, the cor        ferred to Treasury, and $3.9 million at September
     responding assets and liabilities offset one another     30, 2006 of which $3.7 million had been transferred
     from the standpoint of the government as a whole.        as of September 30, 2006. If applicable, accounts
     For this reason, they do not represent an asset or       receivable from the public are reduced by an allow
     a liability in the U.S. government-wide financial        ance for loss on doubtful accounts. In accordance
     statements.                                              with SFFAS No. 1, Accounting for Selected Assets
                                                              and	Liabilities, the OCC updates its allowance for
     Treasury securities provide the OCC with authority       loss on accounts receivable account annually or as
     to draw upon the U.S. Treasury to make future pay        needed to reflect the most current estimate of ac
     ments or expenditures. When the OCC requires re          counts that are most likely uncollectible.
     demption of these securities to make expenditures,
     the government finances those expenditures out of        The OCC’s practice has been to reserve 50 per
     accumulated cash balances, by raising taxes or oth       cent of outstanding receivable balances between
     er receipts, by borrowing from the public or repay       180 and 365 days delinquent and 100 percent for
     ing less debt, or by curtailing other expenditures.      outstanding balances greater than 365 days delin
     This is the same way that the government finances        quent. Since CMPs are not debts due the OCC, the
     all other expenditures.                                  amount outstanding does not enter into the calcula
                                                              tion for the allowance. In addition, debts owed by
     E. Fund Balance with Treasury                            other government entities and interest receivable
                                                              on investments in U.S. Treasury securities are con
     The OCC’s cash receipts and disbursements are
                                                              sidered collectible, and therefore also do not enter
     processed by the U.S. Treasury. Sufficient funds
                                                              into the calculation for the allowance. The balance
     are maintained in a U.S. government trust revolv
                                                              in the OCC’s allowance for loss on accounts receiv
     ing fund and are available to pay current liabilities.
                                                              able account was $2,374 at September 30, 2007 and
     The OCC invests available funds in non-marketable
                                                              $52,645 at September 30, 2006.


78                                                                                     OCC ANNUAL REPORT
G. Advances and Prepayments                               ceivable that, when collected, will be deposited to
                                                          the Treasury General Fund. Included in the custo
Payments in advance for receipt of goods and ser
                                                          dial liability are amounts collected for fines, CMPs,
vices are recognized as advances or prepayments
                                                          and related interest assessments.
and are reported as assets on the Balance Sheet. In
FY 2007, OCC participated in a simplified acquisi         The SFFAS No. 12, Recognition of Contingent
tion pilot with the Department of Interior’s Gov-         Liabilities	 Arising	 from	 Litigation, defines a con
Works, resulting in an outstanding intragovernmen         tingency as an existing condition, situation, or set
tal balance of $82,904.                                   of circumstances that involves an uncertainty as to
                                                          possible gain or loss. The uncertainty will be re
H. Property and Equipment                                 solved when one or more future events occur or fail
                                                          to occur. The OCC recognizes contingencies as li
Property, equipment, and internal use software
                                                          abilities when past events or exchange transactions
(Note 3) are accounted for in accordance with
                                                          occur, a future loss is probable, and the loss amount
SFFAS No. 6, Accounting	for	Property,	Plant,	and	
                                                          can be reasonably estimated. For FY 2006 and FY
Equipment,	and SFFAS No. 10, Accounting	for	In
                                                          2007, the OCC neither identified nor recognized
ternal	Use	Software.
                                                          any such contingent liabilities.
I. Liabilities
                                                          J. Employment Benefits
Liabilities represent the amounts owing or accruing
                                                          Retirement Plan
under contractual or other arrangements govern
                                                          OCC employees are eligible to participate in either
ing the transactions, including operating expenses
                                                          the Civil Service Retirement System (CSRS) or the
incurred but not yet paid. Payments are made in a
                                                          Federal Employees Retirement System (FERS), de
timely manner in accordance with the Prompt Pay
                                                          pending on when they were hired by the federal gov
ment Act. Interest penalties are paid when payments
                                                          ernment. Pursuant to the enactment of Public Law
are late. Discounts are taken when cost effective,
                                                          99-335 which established the FERS, most employ
and the invoice is paid within the discount period.
                                                          ees hired after December 31, 1983, are automatically
The OCC accounts for liabilities in accordance with
                                                          covered by FERS and Social Security. Employees
SFFAS No. 5, Accounting	for	Liabilities	of	the	Fed
                                                          hired prior to January 1, 1984, are covered by CSRS,
eral Government. In accordance with SFFAS No.
                                                          with the exception of those who, during the election
5, annual leave is accrued and funded by the OCC
                                                          period, joined the FERS.
as it is earned, and the accrual is reduced as leave is
taken or paid. Each year, the balance in the accrued      Thrift Savings Plan
annual leave account is adjusted to reflect current       OCC employees are eligible to participate in the
pay rates. Sick leave and other types of leave are        Federal Thrift Savings Plan (TSP). For those em
expended as taken.                                        ployees under FERS, a TSP account is automatically
                                                          established, and the OCC contributes a mandatory
The OCC’s activities are primarily financed by
                                                          1.0 percent of base pay to this account. In addition,
assessments on assets held by national banks and
                                                          the OCC matches employee contributions up to an
the federal branches of foreign banks. These as
                                                          additional 4.0 percent of pay, for a maximum OCC
sessments are due March 31 and September 30 of
                                                          contribution amounting to 5.0 percent of base pay.
each year, based on asset balances as of call reports
dated December 31 and June 30, respectively. As           OCC 401(k) Plan
sessments are paid in mid-cycle and are recognized        In addition to the Federal Thrift Savings Plan, em
as earned revenue on a straight-line basis over the       ployees can elect to contribute up to 10.0 percent of
six months following the call report date. The un         their base pay in the OCC 401(k) Plan administered
earned portions are classified as deferred revenue.       by Prudential Financial Incorporated, subject to
                                                          Internal Revenue regulations. Currently, the OCC
The custodial liability amount of $1.2 million rec
                                                          contributes a fixed 2.0 percent of the base pay to
ognized represents the amount of net accounts re
                                                          the plan for all qualified employees, regardless of
                                                          whether they contribute to the plan or not. In ad-


FISCAL YEAR 2007                                                                                                  79
     dition, the OCC will match an additional 1.0 per       cluded on the Balance Sheet as “Accrued payroll
     cent employee contribution, for a maximum OCC          and other employee benefits.” Actuarial FECA li
     contribution of 3.0 percent of base pay. In both FY    ability amounts at September 30, 2006, totaled
     2006 and FY 2007, the OCC funded a special lump        $4,147,544 and are presented on the Balance Sheet
     sum contribution of $1,000 to be deposited in the      as “Other actuarial liabilities” in accordance with
     401(k) accounts of all permanent employees. The        fiscal year-end reporting requirements previously
     OCC contracted with an independent public ac           issued to all federal agencies by the Financial Man
     counting firm to perform an audit of the plan and      agement Service bureau of the Department of the
     related financial statements for the year ended De     Treasury.
     cember 31, 2006. The financial statements for the
     plan received an unqualified opinion.                  L. Effects of Recent Accounting Pronouncements

     Federal Employees Health Benefits and Federal          Presentation of the OCC’s financial statement dis
     Employees Group Life Insurance                         closures was affected by the publication of SFFAS
     Employees and retirees of the OCC are eligible to      No. 27, Identifying	 and	 Reporting	 Earmarked	
     participate in Federal Employees Health Benefits       Funds. All of the OCC’s sources of revenue are
     (FEHB) and Federal Employees Group Life Insur          characteristic of earmarked funds as outlined in
     ance (FEGLI) plans that involve a cost sharing of      SFFAS No. 27.
     bi-weekly coverage premiums by employee and
                                                            The OCC’s benefits program includes a Postretire
     employer. Both of these employee benefit plans are
                                                            ment Life Insurance Plan, a defined benefit program
     administered by OPM.
                                                            not typically offered within the federal government
                                                            and therefore not addressed by accounting stan
     K. Restatements and Reclassification
                                                            dards issued by the Federal Accounting Standards
     In previous years, the OCC disclosed in the notes to   Advisory Board. For this program, the OCC fol
     the financial statements, CMPs due the federal gov     lows Financial Accounting Standards Board State
     ernment through court-enforced legal actions. For      ment of Financial Accounting Standard (SFAS)
     FY 2007, to more closely align its presentation with   No. 106, Employers’	Accounting	for	Postretirement	
     that of the Department of the Treasury’s, the OCC      Benefits	Other	Than	Pensions. As a result, the OCC
     has included these restricted, non-entity assets in    implemented SFAS 158, Employer’s	 Accounting		
     its financial statements. As a result, the OCC’s fi    for	Defined	Benefit	Pension	and	Other	Postretire
     nancial statements for FY 2006 have been restated      ment	Plans in FY 2007. This standard requires an
     as well. Both the “Accounts receivable, net” and       employer to recognize the overfunded or under
     the “Accounts payable and other accrued liabili        funded status of a defined benefit postretirement
     ties” lines on the Balance Sheet are impacted by       plan (other than a multi-employer plan) as an as
     the amount of outstanding CMPs at September 30,        set or liability in its Statement of Financial Position
     2006, which totaled $1,619,114. There is no impact     and to recognize changes in that funded status in the
     on Net Position.                                       year in which the changes occur. Implementation of
                                                            this standard resulted in an increase to the OCC’s
     In addition, the amounts in OCC’s FY 2006 finan        liability for the funded portion in the amount of
     cial statements have been reclassified to more ac      $3.1 million (Note 5), in accordance with the cur
     curately reflect actuarial Federal Employees’ Com      rent actuarial estimate.
     pensation Act (FECA) liability amounts as required
     by SFFAS No. 5, Accounting	for	Liabilities	of	the	
     Federal Government. Amounts were previously in




80                                                                                    OCC ANNUAL REPORT
Note 2—Investments and Related Interest                        are amortized over the term of the investment using
                                                               the effective yield method. The fair market value
The OCC invests available funds in non-market                  of investment securities was $815.9 million at Sep
able U.S. Treasury securities and has the positive             tember 30, 2007, and $703.7 million at September
intent and ability to hold all U.S. Treasury securi            30, 2006. The total return on the OCC’s portfo
ties to maturity. It does not maintain any available           lio, which includes income from interest and the
for sale or trading securities. The OCC’s objective            change in the market value of the securities held in
is to manage risk by diversifying the OCC’s portfo             the portfolio during the reporting period, was 6.2
lio across maturities within established parameters.           percent and 3.5 percent, respectively. The overall
Diversifying maturities of the individual securities           portfolio earned an annual yield of 4.4 percent for
is meant to help manage the inherent risk of interest          FY 2007 and 4.0 percent for FY 2006.
rate fluctuations. As part of its investment strategy,
the OCC evaluates, at least annually, performance              The yield-to-maturity on the non-overnight portion
benchmarks with objectives and holdings compa                  of the OCC’s investment portfolio ranged from 2.9
rable to those within the OCC’s investment port                percent to 4.9 percent in FY 2007, and from 2.4
folio.                                                         percent to 4.9 percent in FY 2006.

Investments are stated at amortized cost and the
related accrued interest. Premiums and discounts


FY 2007 Investments and Related Interest
                                                                          Amortized
                                                       Amortization      (Premium)/     Investment,    Market Value
Intragovernmental Securities               Cost           Method           Discount         Net         Disclosure
	 Non-Marketable	Market	Based         $ 815,967,809    Effective Yield    (1,643,505)    814,324,304   $ 815,902,463
	 Accrued	Interest                        4,036,718                                0       4,036,718       4,036,718
Total Intragovernmental Interest      $ 820,004,527                       (1,643,505)    818,361,022   $ 819,939,181


FY 2006 Investments and Related Interest
                                                                          Amortized
                                                       Amortization      (Premium)/     Investment,    Market Value
Intragovernmental Securities               Cost           Method           Discount         Net         Disclosure
	 Non-Marketable	Market	Based          $ 712,871,813   Effective Yield    (3,234,387)   709,637,426    $ 703,712,750
	 Accrued	Interest                         3,644,462                               0       3,644,462       3,644,462
Total Intragovernmental Interest       $ 716,516,275                      (3,234,387)   712,281,888    $ 707,357,212




FISCAL YEAR 2007                                                                                                       81
     Note 3—Property and Equipment, net

     Property and equipment purchased at a cost greater
     than or equal to the thresholds noted on the follow
     ing charts with useful lives of three years or more
     are capitalized at cost and depreciated or amortized,
     as applicable. Leasehold improvements are amor
     tized on a straight line basis over the lesser of the
     terms of the related leases or their estimated useful
     lives. All other property and equipment are depreci
     ated or amortized, as applicable, on a straight line
     basis over their estimated useful lives. The follow
     ing tables summarize property and equipment bal
     ances as of September 30, 2007, and 2006.


     FY 2007 Property and Equipment, net
                                                         Capitalization
                                                          Threshold/                       Accumulated         Net Book
     Class of Assets                                      Useful Life          Cost        Depreciation         Value
     Leasehold Improvements                             $ 50,000    5-20   $ 28,480,815    $ (21,989,589)     $ 6,491,226
     Equipment                                          $ 50,000    3-10     26,941,592      (18,213,271)       8,728,321
     Internal Use Software                              $500,000      5      39,922,748      (27,290,315)      12,632,433
     Internal Use Software-Dev                          $500,000     N/A     22,583,709                   -    22,583,709
     Leasehold Improvements-Dev                         $ 50,000     N/A      4,447,258                   -     4,447,258
     Total                                                                 $ 122,376,122   $ (67,493,175)     $ 54,882,947


     FY 2006 Property and Equipment, net
                                                         Capitalization
                                                          Threshold/                       Accumulated        Net Book
     Class of Assets                                      Useful Life         Cost         Depreciation        Value
     Leasehold Improvements                             $ 50,000    5-20    $ 27,794,731   $ (20,971,319)     $ 6,823,412
     Equipment                                          $ 50,000    3-10     21,952,518      (13,920,781)       8,031,737
     Internal Use Software                              $500,000      5      38,631,354      (20,764,024)      17,867,330
     Internal Use Software-Dev                          $500,000     N/A      9,298,819                   -     9,298,819
     Leasehold Improvements-Dev                         $ 50,000     N/A      1,143,844                   -     1,143,844
     Total                                                                  $ 98,821,266   $ (55,656,124)     $ 43,165,142




82                                                                                          OCC ANNUAL REPORT
Note 4—Leases                                                     Federal Employees Compensation Act

The OCC leases office space for headquarters op                   The FECA provides income and medical cost
erations in Washington, D.C., and for district and                protection to cover federal civilian employees in
field operations. The lease agreements expire at                  jured on the job, employees who have incurred a
various dates. In FY 2007, the OCC entered into                   work-related occupational disease, and beneficia
60-month occupancy agreements in various loca                     ries of employees whose death is attributable to a
tions throughout the continental United States as                 job-related injury or occupational disease. Claims
current leases expire. These leases are treated as                incurred for benefits for OCC employees covered
operating leases. All annual lease costs under the                under FECA are administered by the U.S. Depart
operating leases are included in the Statements of                ment of Labor and later billed to the OCC. The FY
Net Cost.                                                         2007 present value of these estimated outflows are
                                                                  calculated using a discount rate of 4.9 percent in the
FY 2007 Future Lease Payments                                     first year and 5.1 percent in subsequent years.
Year                                         Amount
  2008                                    $ 29,064,300
                                                                  Postretirement Life Insurance Benefits
  2009                                       28,735,823           The OCC sponsors a life insurance benefit plan for
  2010                                       27,189,128
                                                                  current and retired employees. This plan is a de
  2011                                       21,338,482
                                                                  fined benefit plan. The following table sets forth the
  2012                                          9,068,922
                                                                  plan’s funded status reconciled with the actuarial
  2013 and beyond                            18,780,610
                                                                  liability.
Total                                     $ 134,177,265


FY 2006 Future Lease Payments                                      Accrued Postretirement Benefit Liability
                                                                   and Net Periodic Postretirement Benefit Cost
Year                                         Amount
                                                                   Liability Component                                    FY 2007           FY 2006
  2007                                    $ 25,665,528
                                                                   Accumulated	Postretirement	Benefit	Obligation   $ 17,464,429      $ 17,354,262
  2008                                       25,887,021
                                                                   Unrecognized	Transition	Obligation                   (864,197)        (1,037,034)
  2009                                       24,739,474
                                                                   Unrecognized	Net	Gain                               (2,279,106)       (3,477,940)
  2010                                       24,060,079
                                                                   SFAS	158	Funded	Status	Adjustment                   3,143,303                  0
  2011                                       18,921,229
                                                                   Total Postretirement Benefit Liability          $ 17,464,429      $ 12,839,288
2012 and beyond                              18,905,173            Cost Component
Total                                     $ 138,178,504            Service Cost                                    $     598,961     $     583,972
                                                                   Interest Cost                                         967,799           923,884
                                                                   Amortization	of	Transition	Obligation                 172,837           172,837
Note 5—Other Actuarial Liabilities
                                                                   Amortization	of	Unrecognized	Loss                     148,431           273,864
OCC’s other actuarial liabilities are reported on                  Total Postretirement Benefit Cost               $ 1,888,028       $ 1,954,557
the Balance Sheets and include the components as
shown in the following table.

Actuarial Liabilities
Component                             FY 2007         FY 2006
Federal	Employee’s	                 $ 3,418,308    $ 4,147,544
Compensation	Act	(FECA)
Postretirement	                      17,464,429      12,839,288
Life	Insurance	Benefits
Total Other Actuarial Liabilities   $ 20,882,737   $ 16,986,832




FISCAL YEAR 2007                                                                                                                                       83
     The actuarial cost method used to determine costs         The asset replacement reserve funds the replace
     for the retirement plans is the Projected Unit Credit     ment of IT equipment, leasehold improvements,
     method, a benefit valuation method, according to          and furniture replacements for future years. The
     SFAS No. 87, Employers	Accounting	for	Pensions.           target level for the replacement reserve is estab
     The weighted-average discount rate used in de             lished annually based on the gross value of existing
     termining the accumulated postretirement benefit          property and equipment plus a growth rate factor
     obligation was 6.0 percent. Gains or losses due           and a margin for market cost adjustments.
     to changes in actuarial assumptions are amortized
     over the service life of the plan. The actuarial as       The special reserve supplements revenue from as
     sumptions and methods used in calculating actu            sessments and other sources that are made avail
     arial amounts comply with the requirements for            able to fund the OCC’s annual budget. The special
     postretirement benefits other than pensions as set        reserve reduces the effect on operations of unfore
     forth in SFAS No. 106, Employers’	Accounting	for	         casted revenue shortfalls or unbudgeted and unan
     Postretirement	Benefits	Other	Than	Pensions, and          ticipated requirements or opportunities.
     for health benefit plans as set forth in AICPA State
     ment of Position 92-6.                                    Net Position Availability
                                                               Components                             FY 2007       FY 2006
     Net periodic postretirement benefit costs for life in     Contingency	Reserve                 $ 340,256,659 $ 291,689,618
     surance provisions under the plan include the com         Asset	Replacement	Reserve             111,200,000   104,000,000
     ponents as shown in the previous table. The total         Special	Reserve                        15,000,000    15,000,000
     benefit expenses are recognized as program costs          Set	Aside	for	Ongoing	Operations:
     in the Statements of Net Cost.                              Undelivered Orders                   50,972,975    30,068,275
                                                               	 Consumption	of	Assets                60,742,789    49,930,100

     Note 6—Net Position                                         Capital Investments                  25,421,815    27,668,465
                                                               Net Position                        $ 603,594,238 $ 518,356,458
     Net Position represents the net result of operations
     since inception, and includes cumulative amounts
     related to investments in capitalized assets. The
                                                               Note 7—Total Program Costs
     OCC is affected by the publication of SFFAS No.
     27, Identifying	 and	 Reporting	 Earmarked	 Funds.        The following table illustrates the OCC’s operating
     All of the OCC’s revenues and financing sources           expenses for FY 2007 and FY 2006.
     constitute earmarked funds.
                                                               Operating Expenses
     The OCC sets aside a portion of its net position          Expense Category                      FY 2007        FY 2006
     as contingency, asset replacement, and special re         Personnel	Compensation	             $ 423,596,167 $ 376,550,302
                                                               and	Benefits
     serves to be used at the discretion of the Comptrol
                                                               Contractual Services                  77,945,521     71,813,368
     ler. In addition, funds are set aside to cover the cost
                                                               Travel and Transportation of          41,099,328     37,563,564
     of ongoing operations.                                    Persons	and	Things
                                                               Rent,	Communicaton,	and	              36,486,810     34,417,329
     The contingency reserve supports the OCC’s abil           Utilities
     ity to accomplish its mission in the case of foresee      Imputed Costs                         26,418,951     24,504,763
     able but rare events. Foreseeable but rare events are     Depreciation                          12,112,108     12,147,306
     beyond the control of the OCC, such as a major            Other                                 18,965,549     17,171,140
     change in the national banking system or for in           Total                               $ 636,624,434 $ 574,167,772
     stance, a fire, flood, or significant impairment of its
     information technology systems.




84                                                                                             OCC ANNUAL REPORT
Note 8—Imputed Costs                                    Note 9—Reconciliation of
and Financing Sources                                   Net Cost of Operations to Budget

In accordance with SFFAS No. 5, Liabilities	of	the	     The reconciliation of Net Cost of Operations to Bud
Federal Government, federal agencies must recog         get demonstrates the relationship between OCC’s
nize the portion of employees’ pension and other        proprietary (net cost of operations) and budgetary
retirement benefits to be paid by the OPM trust         accounting (net obligations) information. For FY
funds. These amounts are recorded as imputed costs      2007, the following table shows $43.5 million in
and imputed financing for other agencies. OPM           excess resources available to finance activities, a
provides federal agencies with cost factors for the     net decrease of $23.1 million over September 30,
computation of current year imputed costs. These        2006. This net decrease resulted from a $60.3 mil
cost factors are multiplied by the current year sal     lion increase in resources available netted against
ary or number of employees, as applicable, to pro       the increase of $81.6 million in resources used (ob
vide an estimate of the imputed financing that the      ligations incurred) and the $1.9 million increase in
OPM trust funds will provide for each agency.           imputed financing. The increase in net resources
                                                        available is primarily because of increased assess
The imputed costs categories for FY 2007 and FY         ments, while the increase in resources used results
2006 are listed as follows. These imputed costs         from various office space and IT investments as
are included on the Statements of Net Cost. The         well as salary and employee benefits.
financing sources absorbed by OPM are reflected
on the Statements of Changes in Net Position and
in Note 9, Reconciliation of Net Cost of Operations
to Budget.

Imputed Costs Absorbed by OPM
Component                   FY 2007        FY 2006
Retirement                $ 10,971,155   $ 10,756,713
Federal Employees           15,417,724    13,720,896
Health	Benefits
Federal Employees              30,072         27,154
Group Lfe Insurance
Total Imputed Costs
Covered by Others         $ 26,418,951   $ 24,504,763




FISCAL YEAR 2007                                                                                               85
                                        Office of the Comptroller of the Currency
                                                 Statement of Financing

     Reconciliation of Net Cost of Operations to Budget
     Reconciliation of Net Cost of Operations to Budget
                                                                                              FY 2007           FY 2006
     Resources Used to Finance Activities:
     Budgetary Resources Obligated
      Obligations incurred                                                               $    638,433,261 $     556,825,650
      Less: Spending authority from offsetting collections                                   (708,321,923)     (647,974,956)
      Net obligations                                                                         (69,888,662)      (91,149,306)
     Other Resources
      Imputed financing sources (Note 8)                                                      26,418,951        24,504,763

     Total resources used to finance activities                                               (43,469,711)      (66,644,543)

     Resources Used to Finance Items not Part of the Net Cost of Operations
      Change in budgetary resources obligated for goods, services and benefits ordered
      but not yet provided                                                                    (16,455,629)      (10,258,699)
      Resources that finance the acquisition of assets                                        (24,244,583)      (13,105,666)
      Other resources or adjustments to net obligated resources that do not affect net
      cost of operations                                                                         (107,415)          263,333

     Total resources used to finance items not part of the net cost of operations             (40,807,627)      (23,101,032)

     Total resources used to finance the net cost of operations                          $    (84,277,338) $    (89,745,575)

     Components of the Net Cost of Operations that will not Require or Generate
     Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
       Change in deferred revenue                                                             11,958,547        12,757,084
       Total components that will require or generate resources in future periods             11,958,547        12,757,084

      Components not Requiring or Generating Resources:
       Depreciation and amortization                                                          12,112,109        12,147,307
       Net decrease in bond premium                                                              973,181         1,426,622
       Other                                                                                     414,672         3,984,158
       Total components that will not require or generate resources                           13,499,962        17,558,087

     Total components of net cost of operations that will not require or generate
     resources in the current period                                                          25,458,509        30,315,171

     Net Cost of Operations                                                              $    (58,818,829) $    (59,430,404)




86                                                                                                  OCC ANNUAL REPORT
XII.

Independent Auditor’s Reports




FISCAL YEAR 2007
               87
     gka, P.C.
                                                     Certified Public Accountants | Management Consultants

                                          Independent Auditor's Report on Financial Statements
     1015 18th Street, NW
           Suite 200
       Washington, DC           Inspector General, Department of the Treasury, and
             20036              the Comptroller of the Currency:

       Phone: 202-857-1777 

        Fax: 202-857-1778

     Website: www.gkacpa.com
   We have audited the accompanying balance sheets of the Office of the
                                Comptroller of the Currency (OCC) as of September 30, 2007 and 2006, and
                                the related statements of net cost, changes in net position and budgetary
                                resources for the years then ended. These financial statements are the
                                responsibility of the management of OCC. Our responsibility is to express an
                                opinion on these financial statements based on our audits.

                                We conducted our audits in accordance with auditing standards generally
                                accepted in the United States of America; the standards applicable to financial
                                audits contained in Government Auditing Standards, issued by the Comptroller
                                General of the United States; and applicable provisions of Office of
                                Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                                Financial Statements. Those standards require that we plan and perform the
                                audits to obtain reasonable assurance about whether the financial statements
                                are free of material misstatement. An audit includes examining, on a test basis,
                                evidence supporting the amounts and disclosures in the financial statements.
                                An audit also includes assessing the accounting principles used and significant
                                estimates made by management, as well as evaluating the overall financial
                                statement presentation. We believe that our audits provide a reasonable basis
                                for our opinion.

                                In our opinion, the financial statements referred to above present fairly, in all
                                material respects, the financial position of the OCC as of September 30, 2007
                                and 2006, and its net costs, changes in net position, and budgetary resources
                                for the years then ended in conformity with accounting principles generally
                                accepted in the United States of America.

                                As more fully described in Note 1, OCC has restated its Balance Sheet as of
                                September 30, 2006 to include Civil Monetary Penalties due to the Federal
                                government to more closely align its presentation with that of the Department
                                of the Treasury’s financial statement presentation.

                                The information in Sections III through X of OCC’s fiscal year 2007 Annual
                                Report is not a required part of the financial statements but is supplementary
                                information required by accounting principles generally accepted in the United
                                States of America. We have applied certain limited procedures, which
                                consisted principally of inquiries of management regarding the methods of


                                                                     Member of the American Institute of Certified Public Accountants


88                                                                                                   OCC ANNUAL REPORT
measurement and presentation of this information.         However, we did not audit this
information, and we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements
taken as a whole. The information included in Sections I, II, and XIII of OCC’s fiscal year
2007 Annual Report is presented for purposes of additional analysis and is not a required part
of the financial statements. We did not audit this information, and we express no opinion on
it.

In accordance with Government Auditing Standards, we have also issued reports dated
October 31, 2007, on our consideration of the OCC’s internal control over financial reporting,
and on our tests of its compliance with certain provisions of applicable laws, regulations, and
contracts. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards, and should be read in conjunction with this report in
considering the results of our audits.




October 31, 2007




FISCAL YEAR 2007                                                                                  89
 gka, P.C.
                                                         Certified Public Accountants | Management Consultants

                                    Independent Auditor's Report on Internal Control over Financial

     1015 18th Street, NW                                    Reporting

           Suite 200
       Washington, DC           Inspector General, Department of the Treasury, and
             20036              the Comptroller of the Currency:

       Phone: 202-857-1777 
    We have audited the balance sheet and the related statements of net cost,
        Fax: 202-857-1778

     Website: www.gkacpa.com
   changes in net position, and budgetary resources, hereinafter referred to as
                                “financial statements” of the Office of the Comptroller of the Currency (OCC)
                                as of and for the year ended September 30, 2007, and have issued our report
                                thereon dated October 31, 2007. We conducted our audit in accordance with
                                auditing standards generally accepted in the United States of America; the
                                standards applicable to financial audits contained in Government Auditing
                                Standards, issued by the Comptroller General of the United States; and the
                                applicable provisions of Office of Management and Budget (OMB) Bulletin
                                No. 07-04, Audit Requirements for Federal Financial Statements.

                                In planning and performing our audit, we considered the OCC’s internal
                                control over financial reporting by obtaining an understanding of the design
                                effectiveness of OCC’s internal control, determined whether these internal
                                controls had been placed in operation, assessed control risk, and performed
                                tests of controls in order to determine our auditing procedures for the purpose
                                of expressing our opinion on the financial statements. We limited our internal
                                control testing to those controls necessary to achieve the objectives described
                                in OMB Bulletin No. 07-04 and Government Auditing Standards. We did not
                                test all internal controls relevant to operating objectives as broadly defined by
                                the Federal Managers’ Financial Integrity Act of 1982, such as those controls
                                relevant to ensuring efficient operations. The objective of our audit was not to
                                provide an opinion on internal control over financial reporting. Consequently,
                                we do not provide an opinion on internal control over financial reporting.

                                Our consideration of the internal control over financial reporting was for the
                                limited purpose described in the preceding paragraph and would not
                                necessarily disclose all deficiencies in internal control over financial reporting
                                that might be significant deficiencies and, accordingly, would not necessarily
                                disclose all significant deficiencies that are also considered to be material
                                weaknesses. Under standards issued by the American Institute of Certified
                                Public Accountants, a control deficiency exists when the design or operation of
                                a control does not allow management or employees, in the normal course of
                                performing their assigned functions, to prevent or detect misstatements on a
                                timely basis. A significant deficiency is a control deficiency, or combination of
                                control deficiencies, that adversely affects the OCC’s ability to initiate,
                                authorize, record, process, or report financial data reliably in accordance with
                                generally accepted accounting principles, such that there is more than a remote


                                                                      Member of the American Institute of Certified Public Accountants


90                                                                                                       OCC ANNUAL REPORT
likelihood that a misstatement of the OCC’s financial statements that is more than
inconsequential will not be prevented or detected by the OCC’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies,
that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected by the OCC’s internal control. We noted a
certain matter discussed in Exhibit 1 involving the internal control over financial reporting
and its operation that we consider to be a significant deficiency. However, we do not believe
this significant deficiency is a material weakness.

We also noted another matter involving the internal control and its operation that we reported
to management of OCC in a separate letter dated October 31, 2007.

Finally, with respect to internal control related to performance measures determined by
management to be key and reported in Section III through X and XIII of the OCC’s fiscal year
2007 Annual Report, we obtained an understanding of the design of internal control relating
to the existence and completeness assertions and determined whether they have been placed in
operation, as required by OMB Bulletin No. 07-04. Our procedures were not designed to
provide an opinion on internal control over reported performance measures, and, accordingly,
we do not provide an opinion on such controls.

This report is intended solely for the information and use of the Management of the OCC, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and the U.S. Congress, and is not intended to be, and should not be used by
anyone other than these specified parties. However, this report is a matter of public record and
its distribution is not limited.




October 31, 2007




FISCAL YEAR 2007                                                                                   91
     Exhibit 1: Significant Deficiency—

     Improvements Needed in Information Technology General Controls over 

     OCC’s Financial Systems.



     Improvements Needed in Information Technology General Controls over OCC’s
     Financial Systems. (Repeat Condition)

     In our fiscal year (FY) 2006 audit, we identified weaknesses in the areas of entity-wide
     security program planning and management, access controls, service continuity, and
     application software development and change control. We reported these weaknesses to
     management in our report on internal control over financial reporting (report). Since these
     weaknesses were identified, OCC has made progress by devoting the resources for resolving
     these weaknesses within its information technology (IT) environment as evidenced by OCC’s
     Plan of Actions and Milestones (POAM) and our verification of correction of many of the
     prior year issues. However, in our review this year we noted certain weaknesses in OCC’s IT
     general controls. These weaknesses are summarized below. Detailed findings and related
     recommendations will be provided to management in a separate Sensitive But Unclassified
     management report dated October 31, 2007.

     Entity-Wide Security Program Planning and Management

     Entity-wide security program planning and management provides a framework and
     continuing cycle of activity for managing risk, developing security policies, assigning
     responsibilities, and monitoring the adequacy of the entity’s computer-related controls. As a
     result of our FY 2007 audit, we concluded that OCC needs to strengthen its controls over
     implementation of requirements pertaining to the administration of the security awareness
     training; recordkeeping of users’ access agreements; completion of exit process for terminated
     employees; and testing and updating its computer incident response capability.

     Access Controls

     Access controls limit and/or detect access to computer resources (data, programs, equipment,
     and facilities). This protects these resources against unauthorized modification, loss and
     disclosure. During our FY 2007 audit, we determined that OCC needs to strengthen its
     controls over implementation of requirements pertaining to the password configuration setting
     for one of its systems; revoking unnecessary access accounts; and recordkeeping of
     management approval and recertification of access to sensitive areas.

     Service Continuity

     Service continuity controls ensure that when unexpected events occur, critical operations
     continue without interruption or are promptly resumed and critical and sensitive data are
     protected. As a result of our FY 2007 audit, we determined that OCC needs to strengthen its
     controls over implementation of requirements pertaining to the performance of a cost-benefit
     analysis to support its selection of an off-site storage close to the main processing facility;
     maintenance of consistency between Contingency Planning documents; finalizing the
     Information Technology Recovery Plan (ITRP); development of a formal emergency response
     training program for Data Center personnel; and mitigation of the risk associated with the
     overheating of the Data Center telecommunication room until the planned air conditioner
     installation takes place.


92                                                                             OCC ANNUAL REPORT
System Software

System software is a set of programs designed to operate and control the processing activities
of computer equipment. Controls are aimed at reducing exposure to security vulnerabilities. In
FY 2007, we determined that: OCC needs to strengthen its controls over proper approval and
recordkeeping of access authorization forms for domain or system administrators; consider
upgrading to a newer version of PeopleSoft that will run on a server that has better security
for server authenticated accounts; and update $MART Database production server with
software for which the vendors provide support.

Application Software Development and Change Control

Application software development and change controls prevent unauthorized programs or
modifications to an existing program from being implemented. Our FY 2007 audit revealed
that OCC needs to fully implement the necessary Microsoft Systems Management Server
capabilities to automatically and promptly detect and remove unauthorized personal and
public domain software from OCC systems (desktops).

MANAGEMENT’S RESPONSE
OCC’s management concurs with the significant deficiency described in this report.
Corrective actions are underway to address each recommendation and management is
confident that they will be able to rectify these deficiencies before the next annual report cycle
is completed.

OCC’s response has not been subjected to the auditing procedures applied in the audit of the
financial statements and accordingly, we express no opinion on it.




FISCAL YEAR 2007                                                                                     93
 gka, P.C.
                                                        Certified Public Accountants | Management Consultants

                                            Independent Auditor's Report on Compliance with 

     1015 18th Street, NW                                Laws and Regulations

           Suite 200
       Washington, DC           The Inspector General, Department of the Treasury, and
             20036              the Comptroller of the Currency:

       Phone: 202-857-1777 

        Fax: 202-857-1778

     Website: www.gkacpa.com
   We have audited the balance sheets and the related statements of net cost,
                                changes in net position, and budgetary resources, hereinafter referred to as
                                “financial statements” of the Office of the Comptroller of the Currency (OCC)
                                as of and for the years ended September 30, 2007 and 2006, and have issued
                                our report thereon dated October 31, 2007. We conducted our audits in
                                accordance with: auditing standards generally accepted in the United States of
                                America; the standards applicable to financial audits contained in Government
                                Auditing Standards, issued by the Comptroller General of the United States;
                                and, the applicable provisions of Office of Management and Budget (OMB)
                                Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

                                The management of the OCC is responsible for complying with laws and
                                regulations applicable to the OCC. As part of obtaining reasonable assurance
                                about whether the OCC’s financial statements are free of material
                                misstatement, we performed tests of its compliance with certain provisions of
                                laws and regulations and contracts, noncompliance with which could have a
                                direct and material effect on the determination of financial statement amounts,
                                and certain provisions of other laws and regulations specified in OMB Bulletin
                                No. 07-04, including certain requirements referred to in the Federal Financial
                                Management Improvement Act (FFMIA) of 1996. We limited our tests of
                                compliance to the provisions described in the preceding sentence, and we did
                                not test compliance with all laws, regulations and contracts applicable to the
                                OCC. However, our objective was not to provide an opinion on overall
                                compliance with laws, regulations and contracts. Accordingly, we do not
                                express such an opinion.

                                The results of our tests of compliance with laws, regulations and contracts
                                described in the preceding paragraph, exclusive of FFMIA, disclosed no
                                instances of noncompliance that are required to be reported under Government
                                Auditing Standards or OMB Bulletin No. 07-04.

                                Under FFMIA, we are required to report whether the OCC’s financial
                                management systems substantially comply with (1) federal financial
                                management systems requirements, (2) applicable federal accounting
                                standards, and (3) the United States Government Standard General Ledger at
                                the transaction level. To meet this requirement, we performed tests of
                                compliance with FFMIA section 803(a) requirements.


                                                                    Member of the American Institute of Certified Public Accountants


94                                                                                                     OCC ANNUAL REPORT
The results of our tests disclosed one instance in which the OCC’s financial management
systems did not substantially comply with federal financial management system requirements
related to information technology general controls, which is described in Exhibit 1 of our
Report on Internal Control over Financial Reporting dated October 31, 2007.

The results of our tests disclosed no instances in which OCC’s financial management systems
did not substantially comply with applicable federal accounting standards and the United
States Government Standard General Ledger at the transaction level.

This report is intended solely for the information and use of the Management of the OCC, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and U.S. Congress and is not intended to be, and should not be used by anyone
other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




October 31, 2007




FISCAL YEAR 2007                                                                                95
96   OCC ANNUAL REPORT
XIII.

Other Accompanying Information
Performance Measures and
Results

The OCC’s FY 2007 performance measures, work
load indicators, customer service standards, and re
sults are presented as follows.

Table 10: Performance measures, FY 2004–FY 2007


                                          Performance Measure                                                                                FY 2007
    Strategic                               Workload Indicator
      Goal                              Customer Service Standard                                  FY 2004 FY 2005 FY 2006 Target                  Actual1

    I. A safe and sound national banking system

                Percentage	of	national	banks	with	composite	CAMELS	rating	of	1	or	2                    94%        94%         95%         94%         96%

                Rehabilitated	problem	national	banks	as	a	percentage	of	the	problem	national	
                                                                                                       40%        44%         46%         40%         52%
                banks	one	year	ago	(CAMELS	3,	4	or	5)

                Percentage	of	national	banks	that	are	categorized	as	well	capitalized                  99%        99%         99%         95%         99%

                Percentage	of	critically	undercapitalized	banks	on	which	responsible	action	is	
                                                                                                     100%         N/A2       100%       100%        100%
                taken	within	90	calendar	days	after	they	become	critically	undercapitalized	

                Average	survey	response	that	the	report	of	examination	clearly	communicated	
                examination findings, significant issues and the corrective actions                   1.30        1.28        1.30      < 1.75       1.32
                management	needed	to	take3

    II. Fair access to financial services and fair treatment of bank customers

                Percentage	of	national	banks	with	consumer	compliance	rating	of	1	or	2                 96%        94%         94%         94%         97%

                Percentage	of	qualified	intermediate	small	banks	to	which	the	OCC	offers	to	
                provide	consultation	on	the	Community	Reinvestment	Act	and	community	                100%        100%        100%       100%        100%
                development opportunities

                Percentage	of	consumer	complaints	closed	within	60	calendar	days	of	receipt4          N/A         N/A         36%         80%         18%

                Number of consumer complaints opened/closed during the fiscal year5                   N/A         N/A       31,827      38,000      33,655
                                                                                                      N/A         N/A       32,925      36,000      26,245


1
 FY 2007 performance numbers shown in bold italics are estimates. Some performance data is obtained from quarterly call reports from banks. The
September 30, 2007 call reports are not due until 30 or 45 days after the end of the period. Additionally, examinations concluded late in the fiscal year are
not finalized for another 30 to 60 days. As a result, complete fiscal year data is not yet available; therefore, estimates have been reported.
2
    There were no critically undercapitalized national banks in FY 2005.
3
    The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
4
 In FY 2006 OCC revised reporting on the consumer complaints measure and related workload indicators to exclude inquiries and appeals at the
recommendation of the General Accountability Office. As such, prior year reporting is no longer presented because the data is not comparable and FY
2006 is shown as the baseline year. While the number of consumer complaints opened during FY 2007 increased, the rate was less than projected.
Performance numbers for FY 2007 are consistent with the performance numbers reported for the final two quarters for FY 2006.
5
    See note 4 above.



FISCAL YEAR 2007                                                                                                                                                97
     Table 10: Performance measures, FY 2004–FY 2007 (continued)


                                                 Performance Measure                                                                               FY 2007
         Strategic                                 Workload Indicator
           Goal                                Customer Service Standard                                    FY 2004 FY 2005 FY 2006 Target                 Actual1

         III. A flexible legal and regulatory framework that enables the national banking system to provide a full,
         competitive array of financial services

                     Percentage	of	external	legal	opinions	issued	within	established	time	frames               87%         86%            89%    86%           96%

                     Number of external legal opinions issued during the fiscal year                           119         119            70    120            816

                     Percentage	of	licensing	applications	and	notices	filed	electronically                     34%         38%            36%    40%        38%7

                     Number of licensing applications and notices filed electronically during the
                                                                                                               893        1,256       1,367     1,600      1,2618
                     fiscal year

                     Percentage	of	licensing	applications	and	notices	completed	within	established	
                                                                                                               96%         96%            94%    95%           96%
                     time frames

                     Number of licensing applications and notices completed during the fiscal year            2,477       2,128       2,425     2,000       2,278

                     Average	survey	rating	of	the	overall	licensing	services	provided	by	OCC9                 1.20        1.19            1.2   < 1.5          1.2

         IV. An expert, highly motivated, and diverse workforce that makes effective use of OCC resources

                     Total	OCC	costs	relative	to	every	$100,000	in	bank	assets	regulated                       N/A         N/A        $8.57     $9.55       $8.89

     6
      For FY 2007 the number of external legal opinions issued during the fiscal year is below target because legal opinions are initiated externally by banks
     requesting interpretations from the OCC, and the OCC can only base projections on past history and anticipated activity.
     7
       The OCC did not meet the target of receiving 40 percent of all licensing application and notice filings electronically (38 percent actual) because most of
     our large volume application filers have already become regular electronic filers. Rate of adoption by new electronic filers has leveled off. Lower volume
     filers are reluctant to adopt a new system that they are not likely to use frequently.
     8
      The number of total licensing filings has declined from the previous FY. Correspondingly, the number of electronic filings has also declined, but the
     percentage of electronic filings has increased from the previous FY.
     9
         The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.




     Improper Payments                                                                     Table 11: Erroneous payments,
                                                                                           FY 2007 and 2006
     Information Act
                                                                                                                                   FY 2007            FY 2006
     The Improper Payments Information Act of 2002
     (IPIA), as implemented by the Office of Manage                                         Number of payments                            78              89
     ment and Budget, requires federal agencies to re
                                                                                            Dollar value of adjustments             $272,570            $141,120
     view all program and activities annually and iden
     tify those that may be susceptible to significant
     erroneous payments. The OCC analyzed payments                                         Methodology for Identifying Improper Payments
     (excluding payroll) made during FY 2007 and iden
                                                                                           The OCC conducts both pre-payment reviews and
     tified 78 erroneous payments requiring adjustments
                                                                                           post-payment audits to identify improper or erro
     totaling $272,570. Erroneous payments are identi
                                                                                           neous payments. The OCC conducts a 100 percent
     fied and monitored daily to ensure prompt recovery.
                                                                                           pre-payment review of all supplier invoices and
     The underlying causes and contributing factors are
                                                                                           payment files prior to transmission to Treasury. As
     identified quickly, and control measures are imple
                                                                                           part of its sensitive payments program, the OCC
     mented to prevent additional erroneous payments.
                                                                                           conducts a 100 percent pre-payment review of ex
     The OCC corrected and recovered all erroneous
                                                                                           ecutive and international travel vouchers and relo
     payments made during the year. Table 11 summa
                                                                                           cation payments, thereby helping to prevent errone
     rizes the OCC’s erroneous payments for FYs 2007
                                                                                           ous payments. The OCC uses a sampling approach
     and 2006.
                                                                                           to audit travel vouchers and data-mining techniques
                                                                                           to detect potential erroneous payments for post-
                                                                                           payment audit activities. Immediately upon their
                                                                                           identification, the OCC initiates collection activity


98                                                                                                                                OCC ANNUAL REPORT
to ensure recovery of funds. Also, the OCC is con
ducting a business process improvement review of
the non-payroll process to bring about efficiencies
and to determine the need for additional controls.

Based on the analyses, the OCC has concluded that
erroneous payments do not exceed the Treasury
threshold, which is both 2.5 percent of non-payroll
payments and $10 million. The OCC is compliant
with the Erroneous Payments and Recovery Act of
2001 and the IPIA.


Audits

Two audit reports issued by the U.S. Government
Accountability Office (GAO) during the year re
sulted in recommendations designed to improve
OCC service to the entities it oversees. GAO rec
ommended that the OCC add more transparency
and overcome impediments in the rulemaking pro
cess for implementation of the Basel II risk-based
capital framework. GAO also suggested that the
OCC could do more to address the needs of minor
ity-owned financial institutions and recommended
that the OCC measure the effectiveness of its pro
gram regularly.

Disaster preparedness was the common theme for
other reports issued by the GAO and the Treasury
Department Office of the Inspector General (OIG).
GAO expressed concern that institutions super
vised by the OCC had not planned sufficiently for
the possibility of a pandemic. Also the OIG noted
that the OCC could further strengthen its ability to
assess risks to community banks during emergen
cies, such as hurricanes Katrina and Rita.

Corrective actions are planned and are well under
way.




FISCAL YEAR 2007                                       99
      Assurance Statement
      The Office of the Comptroller of the Currency (OCC) has made a conscientious effort during fiscal year (FY) 2007 to meet the internal control
      requirements	of	the	Federal	Managers’	Financial	Integrity	Act	(FMFIA),	the	Federal	Financial	Management	Improvement	Act	(FFMIA),	and	Office	of	
      Management	and	Budget	(OMB)	Circular	A-123.
      OCC systems of management control are designed to ensure that:
      a)	     Programs	achieve	their	intended	results;

      b)	     Resources	are	used	in	accordance	with	the	agency’s	mission;

      c)	     Programs	and	resources	are	protected	from	waste,	fraud,	and	mismanagement;

      d)	     Laws	and	regulations	are	followed;

      e)	     Controls	are	sufficient	to	minimize	improper	or	erroneous	payments;	

      f)	     Performance	information	is	reliable;

      g)	     Systems	security	is	in	substantial	compliance	with	relevant	requirements;

      h)	     Continuity	of	operations	planning	in	critical	areas	is	sufficient	to	reduce	risk	to	reasonable	levels;	and	

      i)	     Financial	management	systems	are	in	compliance	with	Federal	financial	systems	standards,	i.e.,	FMFIA	Section	4	and	FFMIA.

      I	am	providing	reasonable	assurance	that	the	above	listed	management	control	objectives	were	achieved	by	the	OCC	without	material	weakness	

      during	FY	2007.	Specifically,	this	assurance	is	provided	relative	to	Sections	2	and	4	of	the	Federal	Managers’	Financial	Integrity	Act	(FMFIA).

      The OCC also conducted its assessment of the effectiveness of internal control over financial reporting, which includes the safeguarding of assets
      and	compliance	with	applicable	laws	and	regulations,	in	accordance	with	the	requirements	of	Appendix	A	of	OMB	Circular	A-123.	Based	on	the	
      results of this evaluation, the OCC can provide reasonable assurance that its internal control over financial reporting as of June 30, 2007 was
      operating	effectively,	and	no	material	weaknesses	were	found	in	the	design	or	operation	of	the	internal	control	over	financial	reporting.
      OCC	continues	to	address	financial	management	systems	deficiencies	identified	by	external	auditors	in	FY	2006	and	FY	2007.	Accordingly,	I	am	
      reporting	a	lack	of	substantial	compliance	with	the	requirements	imposed	by	the	Federal	Financial	Management	Improvement	Act	(FFMIA).

      Significant Control Deficiency
      In FY 2006 and FY 2007, external auditors found that the OCC needed to improve its IT controls over financial management systems. Specifically,
      they identified IT deficiencies related to security program planning, service continuity, selected access and change controls, and system
      software administration. The FY 2007 financial audit continues, but external auditors have noted that OCC has made significant progress. The
      OCC	certification	and	accreditation	program	is	now	compliant	with	NIST	and	OMB	standards;	interconnection	security	agreements	have	been	
      developed	and	approved;	security	awareness	procedures	have	been	improved;	and,	system	security	plans	have	been	completed.	This	area	
      continues to warrant management attention, and a plan of corrective actions is in place to address these issues during FY 2008.

      Other Control Deficiency
      In FY 2006, I also brought to your attention physical and computer security issues that were receiving heightened management attention. These
      issues	highlighted	the	risks	facing	the	agency	in	safeguarding	sensitive	information.	I	initiated	a	comprehensive	end-to-end	review	of	our	physical	
      and computer security processes and procedures to identify opportunities to improve and further strengthen our management controls in this
      area.	The	evaluation	was	completed	in	July	2007	and	resulted	in	recommendations	for	improvement.	A	project	task	force	has	developed	an	
      implementation plan to address these recommendations.

      Analytical Basis of Assurance Statement
      OCC	evaluated	its	management	controls	in	accordance	with	the	FY	2007	Secretary’s	Assurance	Statement	Guidance	of	July	12,	2007,	signed	by	
      Richard	Holcomb,	Deputy	Chief	Financial	Officer,	and	also	considered	the	following	guidance:
      •	    OMB	Circular	A-123,	Management	Accountability	and	Control;
      •	    OMB	Circular	A-127,	Financial	Management	Systems;
      •	    OMB	Circular	A-130,	Management	of	Federal	Information	Resources;	and
      •	    Treasury	Directive	40-04,	Treasury	Internal	(Management)	Control	Program.
      Information considered in our control assessment included the following:
      •	    FMFIA	certifications	submitted	by	each	Executive	Committee	member;
      •	    OCC’s	risk	assessment	analysis	for	FY	2007;
      •	    Results	of	internal	control	testing	under	OMB	Circular	A-123,	Appendix	A;
      •	    Executive	Committee	descriptions	of	business	unit	quality	management	programs;
      •	    Results	of	internal	audits	and	reviews;
      •	    Results	of	control	self-assessments	completed	by	OCC	managers	in	FY	2007;
      •	    Audit	reports	and	evaluations	issued	by	the	Government	Accountability	Office	and	the	Office	of	the	Inspector	General;
      •	    Completion	of	risk	assessment	materials	related	to	the	Improper	Payments	Information	Act	by	our	Deputy	Chief	Financial	Officer,	which	was	
            submitted	to	the	Department	in	May	2007;
      •	    Program	information	submitted	by	OCC’s	Chief	Information	Security	Officer,	Deputy	Chief	Financial	Officer,	and	Office	of	Critical	Infrastructure	
            Protection	and	Security;
      •	    Completion	of	GAO’s	Core	Financial	System	Requirements	Checklist;
      •	    Unqualified	and	timely	audit	opinion	on	FY	2006	financial	statements;	and
      •	    Gardiner,	Kamya	and	Associates’	status	report	of	October	19,	2007,	on	the	FY	2007	financial	statement	audit.




      John C. Dugan
      Comptroller of the Currency
      November 1, 2007




100                                                                                                                       OCC ANNUAL REPORT
XIV.

Index
A
accounting principles generally accepted in U.S. (GAAP), 68, 77, 88, 90, 94
allowance for loan and lease loss (ALLL), 2, 11, 26
Ad Council, 14, 48
American Association of Residential Mortgage Regulators, 48
American Banker’s Association, 20
American Bar Association, 20
Annual Report, FY 2007, 65, 66, 68, 88-89
anti-money laundering, 2, 19, 26, 30, 32-33, 35
assessments, 9, 69-71, 77
assets, national banks, 9, 18, 65, 70-71
assets, OCC, 68-69, 78
assurance statement, 100
Australian Prudential Regulation Authority, 35

B
balance sheets, 2, 68-69, 73, 77-80, 83, 88, 90, 94
balanced scorecard, 65, 67-68
Bank of China, 34
Bank of Communications, 34
Bank Merger Act, 23
Bank Secrecy Act (BSA), 19-20, 26, 39
Bank Secrecy Act Advisory Group (BSAAG), 20
Basel Committee on Banking Supervision, 18, 31
Basel II, 2, 18, 26, 31-32
Bloom, Thomas R., 5, 65-66
BusinessWeek, 4, 60

C
call center, 4
CAGNet, 55
CAGWizard, 55
call reports, 33, 97
CAMELS rating, 13, 97
Cannon, Henry W., 11
capital adequacy, 2, 11, 13, 15, 17-18
capital markets, 2, 14, 19, 60
Caribbean Group of Banking Supervisors, 32


FISCAL YEAR 2007                                                              101
      casa de cambio accounts, 19
      cashier’s checks, 52-53, 57
      cease and desist orders, 19-20, 52
      Center for Foreclosure Solutions, 49
      Change in Bank Control Act (CBCA), 24
      Chief Financial Officer, letter from, 65-66
      China, 30, 32-34
      China Banking Regulatory Commission, 3, 33-34
      civil money penalties, 19-20, 52, 69, 80, 88
      Civil Service Retirement System (CSRS), 71, 79
      complex structured financial transactions, 16, 26
      community banking, 3, 37-44, 70, inside front cover
      commercial real estate (CRE) concentrations, 1-2, 14-15
      Committee on Bank Supervision, 6, 11
      Committee of European Bank Supervisors (CEBS), 32
      Commodity Futures Trading Commission, 17, 51
      Community Affairs, 25, 41
      Community bank directors workshop program, 38, 44
      community development, 25
      community development corporations, 40
      Community Reinvestment Act (CRA), 9, 24-25, 40, 42, 44, 49, 52, 97
      Conference of State Bank Supervisors, 3, 26, 48, 56-57
      consumer complaints, 3, 9, 38, 54-56, 94
      consumer protection, 3, 47, 50
      contingency plan, 84
      Continuity of Operations Plan (COOP), 62
      corporate governance, 11, 20, 62
      credit card banks, inside front cover
      credit cards, 53-55
      credit card disclosures, 51
      “credit crunch,” 1
      credit risk, 2, 11-12, 14-17, 38, 44
      Cross, Glenda, 25
      Customer Assistance Group, 3, 14, 54-56

      D
      deferred prosecution agreement, 19
      derivative transactions, 15-16, 23, 29
      District Community Affairs Officers, 40
      Dugan, John C., 1-5, 12, 16-18, 26, 31, 34, 37, 39-40, 42-44, 49-50, 54, 61

      E
      earnings, 12-14
      Economic Growth and Regulatory Paperwork Reduction Act of 1996 (EGRPRA), 18-19
      employees, 9, 59, 79
      Enterprise-wide Governance (EG) unit, 62-63
      erroneous payments, 98-99




102                                                                                 OCC ANNUAL REPORT
European Commission, 32
European Union (EU), 31
Examiner Development Advisory Group, 60
examination questionnaire, 38
Exchequer Club, 56
executive committee, 5, 59, 63, 100

F
Fair Credit Reporting Act, 50
Fannie Mae, 49
Fast Track Enforcement Program, 21
Freddie Mac, 49
Federal Accounting Standards Advisory Board (FASAB), 78, 80
federal branches of foreign banks, 9, inside front cover
Federal Deposit Insurance Act, 13
Federal Deposit Insurance Corporation (FDIC), 5, 13, 16, 18, 21, 26, 33, 40, 51
Federal Employees’ Compensation Act (FECA), 80, 83
Federal Employees Group Life Insurance (FEGLI), 80
Federal Employees Health Benefits (FEHB), 80
Federal Employees Retirement System (FERS), 71, 79
Federal Financial Institutions Examination Council (FFIEC), 4, 5, 18
Federal	Financial	Institutions	Examination	Council	(FFIEC)	Bank	Secrecy	Act/Anti-Money
		Laundering	(BSA/AML)	Examination	Manual, 19, 26
Federal Financial Management Improvement Act (FFMIA), 94, 100
Federal Housing Administration, 52
Federal Managers’ Financial Integrity Act (FMFIA), 100
Federal Reserve notes, 7
Federal Reserve System (FRB), 13, 16-18, 26, 33, 40, 51, inside front cover
Federal Thrift Savings Plan (TSP), 79
Federal Trade Commission (FTC), 51
Financial Accounting Standards Board, 14, 80
Financial Action Task Force (FATF), 31
Financial Crimes Enforcement Network (FinCEN), 19-20
Financial Services Regulatory Relief Act of 2006, 18, 43
financial literacy, 57
financial statements, 68, 73, 77, 80, 88, 90, 94
First National Bank of Davenport, 7
First National Bank of Newton, 39
First National Bank of Keystone, 20
First National Bank of Philadelphia, 7
Fletcher, Jackie, 5
Florida Banker’s Association, 20
foreclosure counseling, 42, 48-49
foreign technical assistance program, 33
furniture replacement, 70, 84




FISCAL YEAR 2007                                                                         103
      G
      Gallup Q12 employee engagement survey, 67-68
      gift cards, 53
      global banking, 2-3, 15, 17, 29-35, 43, 47
      Golden, Samuel P., 4, 5, 54
      Government Accountability Office (GAO), 63, 91, 95, 97, 99
      GovWorks, 79
      Gramm-Leach-Bliley Act, 51

      H
      hedge funds, 15-17
      HelpWithMyBank.gov, 3, 53, 57, inside back cover
      home equity lending, 14
      Hopkins, Susan, 34
      horizontal reviews, 12-13
      House Committee on Financial Services, 12, 26, 50
      Housing and Urban Development (HUD), U.S. Department of, 26, 48, 52

      I
      identity theft, 50
      Improper Payments Information Act of 2002 (IPIA), 98-99
      Independent Auditor’s Report, 88-95
      Information-sharing agreements, 32
      Internal controls, OCC, 65, 90-91, 100
      International Association of Insurance Supervisors (IAIS), 31
      International exposures, 30
      International Monetary Fund (IMF), 33
      International Organization of Securities Commissions (IOSCO), 31
      Internet banking, 50
      IT	Security	Policy	Handbook,	62

      J
      Joint Forum, 3, 5, 31, 35
      Justice, U.S. Department of, 19

      K
      Kansas State University, 20

      L
      Labor, U.S. Department of, 83
      Leadership Development Advisory Board, 61
      “LeaderTRACK,” 4, 61
      lean six sigma, 62, 65, 67-68
      leasehold improvements, 70, 82, 84
      lending limits, 26
      Levonian, Mark, 5, 34
      licensing applications, 23, 98
      Lincoln, Abraham, 7
      London office, 2-3, 30
      Long-Term Capital Management Fund, 17
      Long, Timothy W., 5


104                                                                         OCC ANNUAL REPORT
M
Manna, Inc., 42
McCulloch, Hugh, 7
memoranda of understanding, 56-57
Middle East North Africa (MENA) program, 20
minority banks, 25, 43-44
Minority National Bank Working Group, 25
Money Laundering Risk (MLR) analysis system, 2
mergers, 23-24

n
National Automated Clearing House, 20
National Bank Act of 1864, 4, 7, 22, 77
national bank appeals process, 38
national bank charter, 4, 23, 71
National Bankers Association, 25
national bank examiners, 9, 59-60
National BankNet, 25, 61
National Credit Union Administration (NCUA), 15, 51
National Currency Act of February 25, 1863, 7, 77
National Foundation for Credit Counseling, 49
National Treasury Employees Union, 61
Neighborhood Reinvestment Corporation, 5
NeighborWorks America, 14, 40, 42, 48
New York Bankers Association, 16
Nontraditional mortgage products, 14, 26, 48

O
OCC 401(k) plan, 79-80
Office of Management and Budget (OMB), 63, 91, 94-95, 98, 100
Office of Personnel Management (OPM), 59-60, 71, 80
Office of Thrift Supervision (OTS), 13, 16, 18, 26, 33, 40
Office of the Inspector General (OIG), 63, 92, 95, 99-100
Ombudsman’s Office, 38, 65

P
Partnership for Public Service, 59
performance measures, 23, 97
Peoples Bank of China, 33
Pittsburgh Community Reinvestment Group (PCRG), 42
postretirement life insurance plan, 80
predatory lending, 41-42
President’s Identity Theft Task Force, 50
President’s Working Group on Financial Markets (PWG), 16-17
problem banks, 13, 33, 97
problem loans, 1
Prompt Payment Act, 79




FISCAL YEAR 2007                                                105
      Q
      Quarterly Report on Bank Derivatives Activity, 17
      “Quick Wins” program, 62

      R
      Rangel, Congressman Charles, 4
      real estate lending, 12, 26
      retail banking, 12, 30, 47, 60
      Riegle-Neal Act of 1994, 41
      risk-based supervision, 2, 11, 34, 37
      recruitment, 4, 59-60
      Regulation Z, 51
      regulatory burden reduction, 18-19
      relationship banking, 37-38
      reports of examination, 38
      repurchase agreements, 15
      “remedy” software, 56
      revenues, 66, 70, 77
      Roeder, Douglas W., 5
      Rushton, Emory W., 5

      s
      Securities and Exchange Commission (SEC), 14, 16-17, 51
      security, 61-62, 91
      Senate Committee on Banking, Housing, and Urban Affairs, 5
      Shared National Credit (SNC) Review, 12-13, 26
      South East Asian Central Banks (SEACEN), 31
      Specialty Skills Assessment Program, 60
      statements of custodial activity, 77
      statements of budgetary resources, 68, 71, 76-78, 88, 90, 94
      statements of changes in net position, 68-71, 75, 77, 84, 88, 90, 94
      Statements of Federal Financial Accounting Standards (SFFAS), 78-80
      statements of net cost, 68, 71, 74, 77, 85-86, 88, 90, 94
      stated income subprime loans, 1, 14, 26, 48-49
      Survey	of	Credit	Underwriting	Practices, 12
      suspicious activity reports, 19, 21

      t
      terrorists, 19, 33, 35
      Treasury, U.S. Department of, 5, 7, 17, 20, 32-33, 62-63, 69-70, 77-78, 88, 91, 95, 99-100
      Tuskegee Airmen, 4




106                                                                                     OCC ANNUAL REPORT
U
underwriting standards, 1-2, 12-13, 48

unfair and deceptive acts or practices, 55

Uniform Bank Performance Report, 38, 97 

Uniform Commission Examination, 61

Uniform Financial Institutions Rating System, 13

Uniform Interagency Consumer Compliance Rating System, 13

uniform national currency, 7

uninsured national trust companies, 9

U.S. Supreme Court, 4, 21-22, 26


W
Walsh, John G., 5, 25, 39

Waters Amendment, 41

Watters v. Wachovia, 4, 21-22, 26

Women in Housing and Finance, 56

Wides, Barry, 41

Williams, Julie L., 5

WISDM document management system, 61

World Bank, 33





FISCAL YEAR 2007
                                            107
